       UNITED STATES AIR FORCE
2011   Annual Financial Statement
“Aim High … fly-fight-win ”
                                                      Annual Financial Statement 2011


Table of Contents
Message from the Secretary of the Air Force ………………………………………………………………………………………………...                        II

Message from the Assistant Secretary of the Air Force for Financial Management and Comptroller ………..…...   III

Management Discussion and Analysis
   Air Force in Action—FY 2011 ………………………………………………………………………………………………………………………                                1
   Air Force Structure ……………………………………………………………………………………………………………………………………..                                 2
   Air Force Resources ……………………………………………………………………………………………………………………………………                                   4
   Management Assertions …………………………………………………………………………………………………………………………....                                 5
   Air Force General Fund …………………………………………………………………………………………………….………………………..                                7
   Air Force Working Capital Fund ……………….…………………………………………………………..…………………………………....                          8
   Financing the Fight …………….………………………………………………………………………………..…………………………………....                              9

Financial Statements
     General Fund
          Principal Statements ………………………………………………………………………………………………………………………….. 11
          Notes to the Principal Statements ……………………………………………………………………………………………………... 17
          Required Supplementary Stewardship Information …………………………………………………………………………... 69
          Required Supplementary Information ……………………………………………………………………………………………….. 78
          Audit Opinion …………………………………………………………………………………………………………………………………….. 85
     Working Capital Fund
          Principal Statements ………………………………………………………………………………………………………………………….. 95
          Notes to the Principal Statements ……………………………………………………………………………………………………… 101
          Required Supplementary Information ……………………………………………………………………………………………….. 130
          Audit Opinion …………………………………………………………………………………………………………………………………….. 132




                                                        I
  United States Air Force



                                             November 2011

                            Message from the Secretary of the Air Force


         I am pleased to present the Air Force Annual Financial Statement for Fiscal Year 2011. The
report provides the financial position and results of operations that support the Air Force mission and
priorities.

        Today’s complex strategic environment calls for military forces that are ready to conduct a
multitude of missions on short notice across the globe. As part of the joint team, America’s Air Force
unfailingly provides Global Vigilance, Reach, and Power across the full spectrum of operations. From
humanitarian relief operations to the continuous air sovereignty, space, cyber, and nuclear deterrence
missions, the speed, precision, and versatility of the U.S. Air Force is tested and proven daily.

        At a time when the Nation is focused on economic recovery and deficit reduction, the Air Force is
committed to ensuring the effective and efficient use of our resources as we execute our vital missions.
Therefore, we must continue to standardize data, systems, and business processes – and we must make
tough strategic choices.

        Closely linked with our efforts to improve internal efficiencies, we are working aggressively
toward financial improvement and audit readiness. The Air Force is developing a plan to achieve the
Secretary of Defense’s direction to accelerate audit readiness of the General Fund Statement of Budgetary
Resources, and we are dedicating additional resources to audit readiness in FY 2012 and FY 2013.
Improving the accuracy, reliability, and timeliness of financial information supports better decision
making at every level, while audit readiness further ensures confidence in our financial reporting and
financial management.

        The 2011 Annual Financial Statement reflects the dedication and commitment of the Air Force to
effectively and responsibly manage our resources. As we carry out our responsibility to defend the
Nation, we will continue to serve with integrity, dedication, and a commitment to excellence.




                                               Michael B. Donley




                                                     II
                                                        Annual Financial Statement 2011



                                                  November 2011

                            Message from the Assistant Secretary of the Air Force
                                for Financial Management and Comptroller


        The Fiscal Year (FY) 2011 Annual Financial Statement of the U.S. Air Force presents our financial
position and results of operations. It allows Congress, senior defense leaders, and the public to assess our
management performance while highlighting our efforts to continuously improve financial management processes
and systems. Our goal is to obtain auditable financial statements in order to enable better management of
taxpayer resources. We have made great strides towards this goal, including receiving our first unqualified
opinion on a statement line item. In August 2011, KPMG, LLP, affirmed the internal controls over the Budget
Authority – Appropriation line of the Statement of Budgetary Resources are designed to operate effectively to
prevent, detect, and correct material misstatements. In October 2011, we received a clean opinion on Funds
Balance with Treasury (FBWT) reconciliation from Price Waterhouse Cooper.

        We have asserted the existence and completeness of military equipment (e.g. aerospace vehicles and
externally carried pods) and operating materials and supplies (e.g. cruise missiles, aerial drones, and targets). We
expect to begin an independent examination for elements of our military equipment in the first quarter of FY
2012. However, the Air Force acknowledges it has material weaknesses in other areas and is aggressively
working to implement our corrective action plans.

         Our ability to achieve audit readiness depends in part on our ability to field our Enterprise Resource
Planning Systems (ERPs), such as the Defense Enterprise Accounting and Management System (DEAMS). In
fielding our ERPs, we have benefited greatly from being slightly behind the other Services. We have closely
observed their deployments and leveraged lessons learned. We are pushing forward, consistent with guidance
from the Office of Management and Budget (OMB) and others, to deploy these ERPs in smaller pieces in order to
improve accountability.

         With our Nation’s serious fiscal challenges, we must streamline our financial management processes for
greater efficiency and effectiveness in executing wartime requirements. Accordingly, producing auditable
financial statements becomes even more critical in demonstrating accountability for taxpayer dollars. The
Secretary of Defense recently directed acceleration of our plan to achieve audit readiness of the Statement of
Budgetary Resources (SBR) by 2014. I have chartered a cross functional team to build a detailed acceleration
plan for Secretary Panetta’s review. While we work to accelerate the SBR, it is imperative that we continue to
improve our business practices, asset accountability, and training of our work force to gain full audit readiness by
2017.

        The Air Force is committed to good stewardship of the resources entrusted to us and to achieving a clean
financial audit. I am confident that we have a sound plan and dedicated Airmen who will make this goal a reality.




                                                    Jamie M. Morin




                                                         III
     United States Air Force




                                  Air Force Vision
“The United States Air Force will be a trusted, reliable joint partner with our sister
 services known for integrity in all of our activities, including supporting the joint
    mission first and foremost. We will provide compelling air, space, and cyber
capabilities for use by the Combatant Commanders. We will excel as stewards of all
Air Force resources in service to the American people, while providing precise and
              reliable Global Vigilance, Reach and Power for the nation.”




                                 Air Force Mission
                  The mission of the United States Air Force is to
                  fly, fight and win…in air, space and cyberspace.
                                                                     Annual Financial Statement 2011
                                                                                            Management Discussion and Analysis



Management Discussion and Analysis
Air Force in Action—FY 2011                                              Develop and care for Airmen and their families
The United States faces diverse and complex security                     The Air Force is proud of its commitment to supporting its
challenges that require a range of agile and flexible                    Airmen and families. It maintains an enduring emphasis on
capabilities. From the ongoing conflicts in Afghanistan and              Airmen and families by actively engaging the entire Air Force
Iraq, to potential confrontation with aggressive state and non-          Community: Total Force Airmen, Department of the Air Force
state actors, to providing humanitarian assistance, the United           civilians, single and married personnel, primary and extended
States Air Force continues to provide capabilities across the            family members, retirees, and on and off-base community
full spectrum of potential military operations. Over 36,000              partners. We continue to strengthen our community by
deployed Airmen are engaged in many diverse mission areas,               expanding child care through different programs such as the
from training the Iraq and Afghanistan police, providing                 Extended Duty Program, Home Community Care, Missile
medical supplies in Afghanistan, to assisting with                       Care, and Supplemental Child Care initiative. In FY 2011, we
transportation and security details. Overarching Service                 launched the Food Transformation Initiative to address
priorities relating to organizing, training and equipping Airmen         Airmen’s concerns with dining facility closings, lack of healthy
to meet the needs of our national leadership and our                     food options, and insufficient hours of operation. The Air Force
combatant commanders continue to be achieved:                            continues to expand our efforts to improve resiliency of Airmen
   Continue to strengthen the nuclear enterprise                        and their families before, during, and after deployments and
   Partner with the joint and coalition team to win today’s fight       has significantly expanded capabilities to ensure support and
   Develop and care for Airmen and their families                       reintegration of our Total Force.
   Modernize our air and space inventories, organizations and           Modernize our air and space inventories, organizations
     training                                                            and training
   Recapture acquisition excellence                                     Air superiority is crucial in modern warfare. It enables air, land
Continue to strengthen the nuclear enterprise                            and maritime operations in support of our Joint, Interagency
Air Force Global Strike Command achieved full operational                and Coalition partners. For over five decades, Air Force
capability (FOC) on September 30, 2010, moving all Air Force             investments, expertise and sacrifice in achieving air superiority
nuclear-capable bombers and Intercontinental Ballistic Missiles          have ensured that friendly ground forces operate without threat
(ICBMs) under one command. The Air Force Nuclear                         of attack from enemy aircraft. Airspace control remains vitally
Weapons Center continues to pursue vital and deliberate                  important in all operating environments. Ongoing air defense
sustainment of the nuclear enterprise through efforts such as            modernizations efforts include:
the Air Force Comprehensive Assessment of Nuclear                           Upgrading to a fifth-generation fleet with F-22 modifications
Sustainment process. Bomber force modernization continued                    to provide fleet commonality and ensure the viability of our
in an effort to maintain a viable force beyond 2030. We have                 legacy weapons systems
completed the transition to four B-52 operational squadrons                 Modernizing our legacy fleet of F-15 fighter aircraft with
with the addition of the 69th Bomb Squadron at Minot Air Force               AESA radars to ensure their viability well into the future
Base, North Dakota. ICBM also continued with investments in                 Enhancing electronic warfare including EC-130H Compass
new test equipment and launch facility environment control                   Call fleet upgrades, and a flight deck and mission crew
systems.                                                                     simulator to increase training capacity

Partner with the joint and coalition team to win today’s                 Recapture acquisition excellence
fight                                                                    The Air Force continues to strive for acquisition excellence by
Today’s engagements require Airmen to perform their duties               increasing the rigor and transparency of its processes and by
effectively and achieve influence in culturally complex                  stabilizing requirements and funding. We have taken a multi-
environments around the globe. The Air Force continues to                faceted approach to recapturing acquisition excellence to
emphasize extensive language skills and regional knowledge               include:
in its growing cadre of Regional Affairs Strategists. These                Rebuilding the acquisition workforce
personnel work with partner nations as attachés and Security                Delivering a fully implemented Acquisition Improvement
Cooperation Officers, filling positions requiring in-depth                   Plan to guide and shape current and future efforts
understanding of the interagency processes key to building                  Creating a foundation for a robust Continuous Process
partnerships.                                                                Improvement function within acquisition

                                                                     1
          United States Air Force
Management Discussion and Analysis

  Implementing approximately 75 efficiency initiatives that           integrating capabilities across air, space, and cyberspace to
   range in scope and impact throughout the acquisition                deliver precise, coercive effects in defense of our nation and its
   enterprise                                                          global interests.
Air Force Structure                                                    Responsibilities: ACC is the lead command for the combat
The command line of the Air Force flows from the President             Air Force. The command organizes, trains, equips and deploys
and the National Command Authority to the Secretary of                 combat-ready forces to support combatant commanders
Defense and the Department of the Air Force. The Air Force is          around the globe. Additionally, ACC is the air component
headed by the Secretary of the Air Force (SECAF), with the             headquarters to U.S. Northern, Southern and Central
Chief of Staff reporting to the Secretary (see Figure 1).              commands and supports the in-place air components of U.S.
Immediately subordinate to the departmental headquarters are           European and Pacific commands. ACC also provides air
the Major Commands (MAJCOMs), Field Operating Agencies                 defense forces to North American Aerospace Defense
(FOAs), Direct Reporting Units (DRUs), and the Auxiliary.              Command. To accomplish the objectives of the National
                                                                       Defense Strategy, the command operates fighter; attack;
               Figure 1: Air Force Organization Chart                  bomber; intelligence, surveillance and reconnaissance; combat
                                                                       search and rescue; battle-management; electronic-combat and
                                                                       unmanned aircraft system platforms. In addition, ACC
                                                                       conducts information operations and provides command,
                                                                       control, communications and intelligence systems to theater
                                                                       commanders and combat forces.
                                                                       Command Personnel: 132,089
                                                                                       Air Education and Training Command
                                                                                       (AETC)
                                                                                       Mission: Develop America’s Airmen today, for
                                                                                       tomorrow. With a vision to deliver unrivaled air,
                                                                       space and cyberspace education and training, the command
                                                                       recruits Airmen and provides basic military training, initial and
                                                                       advanced technical training, flying training, medical training,
Major Command Structure                                                space and missile training, cyber training, and professional
Most units of the Air Force are assigned to a specific major           military and degree-granting professional education. The
command (MAJCOM), led by a general officer. MAJCOMs                    command also conducts joint, readiness and Air Force security
have extensive functional responsibilities as will be shown on         assistance training.
the following pages. They may be subdivided into Numbered
Air Forces (NAF) with each responsible for one or more wings           Responsibilities: Sustains the combat capability of the
or independent groups.                                                 operational Air Force with highly trained and motivated Airmen,
                                                                       recalls individual ready Reservists and manages mobility and
Wings are the primary units of the working Air Force and are           contingency tasking support for combatant commanders.
responsible for maintaining an Air Force base or carrying out a
specific mission. Wings may be commanded by a general                  Command Personnel: 74,948
officer or a colonel. There are different types of wings, based                       Air Force Global Strike Command (AFGSC)
on objective: operational, air base, or specialized mission. A                        Missions: Develop and provide combat-ready
wing may have several squadrons in more than one dependent                            forces for nuclear deterrence and global strike
group. Wings typically contain an operations group, a                                 operations ... Safe, Secure, Effective, to
maintenance group, a support group and a medical group.                support the President of the United States and combatant
The majority of individual officers and Airmen are assigned to a       commanders.
squadron, which may be composed of several flights.                    Responsibilities: Organize, train and equip the Air Force’s
Additionally, there are other types of organizations in the Air        three intercontinental ballistic missile wings, two B-52
Force structure such as centers, field operating agencies and          Stratofortress wings and the only B-2 Spirit wing. The three
direct reporting units.                                                weapons systems make up two-thirds of the nation’s strategic
                                                                       nuclear triad by providing the land-based and airborne nuclear
               Air Combat Command (ACC)                                deterrent forces.
               Mission: Aim High… fly, fight, and win…


                                                                   2
                                                                   Annual Financial Statement 2011
                                                                                           Management Discussion and Analysis

America’s alert ICBMs are ready to launch on any given day,            capabilities for North American Aerospace Defense Command,
and America’s ICBM team plays a critical role in maintaining           U.S. Strategic Command and other combatant commands
global stability and ensuring the nation’s safety and security.        world-wide. AFSPC oversees Air Force network operations to
The B-2 Spirit is a long-range nuclear and conventional stealth        provide capabilities in, through, and from cyberspace;
bomber. The bomber can fly at high subsonic speeds at                  manages a global network of satellites, and is responsible for
altitudes that can reach 50,000 feet. Its unrefueled range is at       space system development and acquisition. It executes
least 6,000 nautical miles. In a short time, the B-2 brings            spacelift to launch satellites with a variety of expendable
massive firepower anywhere on the globe through the most               launch systems and operates them to provide space
challenging defenses.                                                  capabilities in support of combatant commanders around the
                                                                       clock. It provides positioning, navigation, timing,
The B-52 Stratofortress is a long-range, nuclear and
                                                                       communications, missile warning, weather and intelligence
conventional heavy bomber that can perform a variety of
                                                                       warfighting support.
missions. The bomber can fly at high subsonic speeds at
altitudes reaching 50,000 feet. It has an unrefueled combat            AFSPC operates sensors that provide direct attack warning
range in excess of 8,800 miles. It can carry precision-guided          and assessment to U.S. Strategic Command and North
ordnance with worldwide precision navigation.                          American Aerospace Defense Command.
AFGSC is also the Air Force’s lead command for and largest             The command develops, acquires, fields, operates and
operator of UH-1N Huey helicopters, with a focus on replacing          sustains space systems and fields and sustains cyber
the platform with one more suitable to the post-9/11                   systems.
requirements of providing security to the fielded ICBM force.
                                                                       Command Personnel: 43,048
Command Personnel: 22,999
                                                                                       Air Mobility Command (AMC)
               Air Force Materiel Command (AFMC)                                       Mission: Provide global air mobility ... right
               Mission: Deliver war-winning technology,                                effects, right place, right time.
               acquisition support, sustainment and
                                                                                          Responsibilities: AMC Airmen — active duty,
               expeditionary capabilities to the warfighter.
                                                                       Air National Guard, Air Force Reserve and civilians — provide
Responsibilities: Conducts research, development and test              airlift and aerial refueling for all of America’s armed forces.
and evaluation, and provides acquisition management services           They also provide aeromedical evacuation and Global Reach
and logistics support necessary to keep Air Force weapon               laydown. The command has many special duty and
systems ready for war.                                                 operational support aircraft and plays a crucial role in providing
                                                                       humanitarian support at home and around the world.
Command Personnel: 84,562
                                                                       Command Personnel: 129,870
                Air Force Reserve Command (AFRC)
                Mission: To fly, fight and win...in air, space                          Air National Guard (ANG)
                and cyberspace.                                                         Mission: The Air National Guard has both a
                                                                                        federal and state mission. The dual mission, a
                 Responsibilities: AFRC provides the Air
                                                                                        provision of the U. S. Constitution, results in
Force with about 20 percent of its capability with only about 4
                                                                       each guardsman holding membership in the National Guard of
percent of the total Air Force budget, while spanning a wide
                                                                       his or her state and in the National Guard of the United States.
variety of missions. It’s the only Department of Defense unit
that conducts fixed-wing aerial spray missions. It flies               Federal Mission: Maintain well-trained, well-equipped units
hurricane hunter missions for the National Weather Service. It         available for prompt mobilization during war and provide
is administratively responsible for the Air Force’s individual         assistance during national emergencies, such as natural
mobilization augmentee program.                                        disasters or civil disturbances. During peace, the combat-ready
                                                                       units and support units are assigned to Air Force major
Command Personnel: 70,088
                                                                       commands to carry out missions compatible with training,
                Air Force Space Command (AFSPC)                        mobilization readiness, humanitarian and contingency
                Mission: Provide an integrated constellation of        operations. ANG provides almost half of the Air Force’s tactical
                space and cyberspace capabilities at the               airlift support, combat communications functions, aeromedical
                speed of need.                                         evacuation and aerial refueling. In addition, ANG has total
Responsibilities: Organizing, equipping, training and                  responsibility for air defense of the entire United States.
maintaining mission-ready space and cyberspace forces and


                                                                   3
           United States Air Force
Management Discussion and Analysis

State Mission: When ANG units are not mobilized or under                and destroy terrorist networks that threaten the United States,
federal control, they report to the governor of their respective        its citizens and interests worldwide. The command’s mission
state, territory or the commanding general of the District of           areas include shaping and stability operations; battlefield air
Columbia National Guard. Under state law, ANG provides                  operations; information operations; intelligence, surveillance
protection of life and property, and preserves peace, order and         and reconnaissance; specialized air and space mobility;
public safety through emergency relief support during natural           precision engagement and agile combat support.
disasters, search and rescue operations, support to civil
                                                                        Command Personnel: 17,168
defense authorities, maintenance of vital public services and
counterdrug operations.                                                 Direct Reporting Unit (DRU)
                                                                        A DRU is a subdivision of the Air Force that is directly
Command Personnel: 107,230
                                                                        subordinate to Headquarters Air Force, separate from any
               Pacific Air Forces (PACAF)                               MAJCOM or FOA because of a unique mission, legal
               Mission: Provide Pacific Command integrated              requirements, or other factors. DRUs have the same
               expeditionary Air Force capabilities to defend           administrative and organizational responsibilities as
               the homeland, promote stability,                         MAJCOMs. The DRUs are the Air Force Academy, Air Force
dissuade/deter aggression, and swiftly defeat enemies.                  District of Washington, and Air Force Operational Test and
                                                                        Evaluation Center.
Responsibilities: Organizes, trains, equips and maintains
resources prepared to conduct a broad spectrum of air                                 Civil Air Patrol (CAP)
operations —from humanitarian relief to decisive combat                                Mission: Support America’s communities with
employment — in the Department of Defense’s largest area of                            emergency response, diverse aviation and
responsibility. Conducts multinational exercises and hosts                             ground service, youth development and
international exchange events to foster partnerships for                promotion of air and space power.
regional security and stability in an area covering 13 time
                                                                        Responsibilities: Civil Air Patrol provides operational
zones and 100 million square miles, with 60 percent of the
                                                                        capabilities in support of aerial and ground search and rescue
world’s population, one-third of the world’s economic activity
                                                                        disaster relief and counterdrug and homeland security
and five of the six largest armed forces.
                                                                        missions. It conducts 90 percent of all inland search-and-
Command Personnel: 43,078                                               rescue missions tasked by the Air Force Rescue Coordination
                                                                        Center. It builds strong citizens for the future by providing
                U.S. Air Forces in Europe (USAFE)
                                                                        leadership training, technical education, scholarships and
                Mission: Execute the U.S. European
                                                                        career education to young men and women, ages 12 to 21, in
                Command mission with forward-based air
                                                                        the CAP cadet program. It promotes and supports aerospace
                power to provide forces for global operations,
                                                                        education, both for its members and the general public, and
ensure strategic access, assure allies, deter aggression and
                                                                        conducts a national school enrichment program from K-12.
build partnerships.
                                                                        Personnel: 61,133
Responsibilities: Build and maintain partnerships, promote
regional stability, provide forces for global operations, support       Field Operating Agency (FOA)
combatant command missions, develop and care for Airmen                 A FOA is a subdivision of the Air Force that carries out field
and their families, sustain forward-based infrastructure, ensure        activities under the operational control of a Headquarters U.S.
strategic access to U.S. forces, assure allies and deter                Air Force functional manager. FOAs perform field activities
aggression.                                                             beyond the scope of any of the MAJCOMs. Examples of FOAs
                                                                        include the Air Force Audit Agency, Air Force Center for
Command Personnel: 35,149
                                                                        Engineering and the Environment, Air Force Financial Services
                Air Force Special Operations Command                    Center, Air Force Services Agency, and Air Force Weather
                (AFSOC)                                                 Agency, among others.
                Mission: America’s specialized air power — a
                step ahead in a changing world, delivering              Air Force Resources
special operations power anytime, anywhere.                             The three vital resources to successful accomplishment of the
                                                                        Air Force mission are:
Responsibilities: Responsible to U.S. Special Operations
Command for the readiness of Air Force special operations               Places: A network of bases that reflect the Air Force’s global
forces to conduct the war on terrorism and to disrupt, defeat           competencies.




                                                                    4
                                                                     Annual Financial Statement 2011
                                                                                                 Management Discussion and Analysis
                                      Figure 2: Major Air Force Installations - CONUS
                                                                                                        Table 1: Major Air Force Installations – OCONUS

                                                                                                        Germany               Saudi Arabia
                                                                                                        Geilenkirchen AB      US Mil Training Mission
                                                                                                        Ramstein AB
                                                                                                        Spangdahlem AB        South Korea
                                                                                                                              Kunsan AB
                                                                                                        Italy                 Osan AB
                                                                                                        Aviano AB
                                                                                                                              Turkey
                                                                                                        Japan                 Incirlik AB
                                                                                                        Kadena AB             Izmir AB
                                                                                                        Misawa AB
                                                                                                        Yokota AB             UK
                                                                                                                              RAF Lakenheath
                                                                                                        Portugal              RAF Mildenhall
                                                                                                        Lajes Field           RAF Molesworth


The Air Force is a global force, spanning facilities both in the              sections provide our assurances related to the Federal
United States and around the world, as shown in Figure 2 and                  Financial Management Improvement Act (FFMIA) and the
Table 1.                                                                      Federal Managers’ Financial Integrity Act (FMFIA).
        CONUS: 77                                                            Chief Financial Officer (CFO) Compliance
        OCONUS: 16                                                           The Chief Financial Officers’ Act provides direction for
                                                                              achieving a clean audit through leadership commitment,
People: Trained, motivated, and dedicated.
                                                                              modernized government financial management systems, and
The Air Force consists of over 690,000 military and civilian                  strengthened financial reporting. Sound financial management
personnel. Aerospace power is a proven necessity for victory                  helps to ensure the maximum combat capability for each
on land, sea, air, space, and cyberspace. The foundation for                  taxpayer dollar. The Air Force is committed to achieving the
this is our people.                                                           legislative requirement for a clean audit by 2017. While 2017 is
The reserve component (Air Force Reserve and Air National                     a challenging deadline for a military organization as large and
Guard) has become more important than ever in sustaining                      diverse as the Air Force, the strong engagement of Air Force
worldwide operations. These warriors make possible the                        leadership, additional financial resources provided in recent
successful accomplishment of Air Force missions.                              years, and focus on fielding effective financial systems will help
                                                                              achieve it. We are focusing our efforts on the information most
Systems: Modern weapons platforms that integrate air,                         relevant to decision makers, and the Air Force Financial
space, and cyber assets into an undefeatable force.                           Improvement Plan is closely aligned with the DoD strategy to
Air Force “systems” no longer mean only “manned aircraft.”                    achieve a clean audit.
Systems also include space launch vehicles, satellites,                       Internal Controls
intelligence, surveillance and reconnaissance assets,                         The Air Force operates a robust Manager’s Internal Control
unmanned aerial systems, and the cohesive infrastructure to                   Program in compliance with OMB Circular A-123. This
all Air Force systems. All Air Force systems are essential                    program employs a comprehensive system of continuous
assets for Air Force people to accomplish the mission.                        evaluation of internal controls and is fully integrated with
                                                                              functional program control assessments used to help ensure
Management Assertions                                                         that the goals of the Department of the Air Force are achieved
We remain mindful of our Nation’s budgetary challenges and                    each year. Under the guidance of the Office of the Under
fiscal constraints, because fiscal responsibility is a national               Secretary of Defense (Comptroller), the Secretary of the Air
security imperative. This environment requires that we balance                Force reports a level of assurance over its internal controls in
our capabilities between current combat operations and the                    three distinct areas: Internal Control over Nonfinancial
need to address emerging threats and challenges. We                           Operations (ICONO), Internal Control over Financial Reporting
continue to pursue cost-effective systems that leverage                       (ICOFR), and Internal Control over Financial Systems
existing capabilities and maximize interoperability and                       (ICOFS).
integration of legacy and future systems. The following


                                                                        5
           United States Air Force
Management Discussion and Analysis

 Internal Control Over Financial Reporting                              reconciliation processes that ultimately impact all of the
As directed in the Under Secretary of Defense (Comptroller)             sections of the SBR.
memo dated August 11, 2009, the Air Force’s ICOFR review
                                                                        The Air Force asserted the assessable unit of Budget Authority
focused on the strategic prioritization of the SBR and the
                                                                        in the 4th Quarter of FY 2010. The submission of the Budget
existence and completeness (E&C) of mission-critical assets.
                                                                        Authority assertion affirmed that the internal controls over the
The Air Force evaluated the effectiveness of internal controls
                                                                        reporting of the SBR line items of Appropriations Received,
over the key Procure to Pay business processes utilizing the
                                                                        Non-Expenditure Transfers, Rescissions, as well as the Funds
Department’s newest financial management system, the
                                                                        Distribution to Major Commands are designed and operating
Defense Enterprise Accounting Management System
                                                                        effectively to prevent or detect and correct material
(DEAMS). This system, currently deployed to a pilot location,
                                                                        misstatements. The assertion has been audited by an
will serve as the future enterprise system solution to help the
                                                                        Independent Public Accounting (IPA) firm, and the IPA concurs
Air Force achieve financial statement audit readiness. This
                                                                        with the Air Force’s assertion.
effort involved documenting key processes and internal
controls, performing risk assessments, and testing and                  Additionally, in the 1st Quarter of FY 2011, the Air Force (in
analyzing the effectiveness of the key controls. In addition, the       partnership with DFAS) asserted audit readiness on the FBWT
Air Force also completed ICOFR reviews as a part of existence           reconciliation process using the CCAS-AF tool. This limited
and completeness audit ready assertions for Military                    scope assertion focuses on the critical key reconciliation
Equipment and elements of Operating Materials and Supplies.             capability that the Air Force must demonstrate in order to
During FY 2011, the Air Force validated the corrective actions          assess the remaining control objectives for the FBWT line
to mitigate the ICOFR material weakness over the Fund                   item. The Air Force is consistently reconciling over 99.9
Balance with Treasury Reconciliation and asserted to the                percent of FBWT at the detail level each month. Based on the
process’ audit readiness. We continue to track and report on            Air Force assertion and consistency of meeting the DoD
eight previously identified ICOFR material weaknesses that are          metric, our internal mitigation work is complete.
included in the Secretary’s Annual Statement of Assurance.              The Air Force is now focused on the execution of Budgetary
Continuous Improvement                                                  Resources and the Funds Distribution process to base-level
This year the Air Force started to meet the first set of                entities. As discovery and evaluation are conducted, the Air
milestones in support of the Under Secretary of Defense                 Force expects to shift the assertion dates for these assessable
(Comptroller) priorities of audit readiness of the SBR and the          units to the left (i.e., completion earlier than currently planned).
E&C of mission-critical assets. As the Air Force conducted the          However, some of the Air Force interim milestone assertions
prescribed phases of discovery and evaluation for assessable            are dependent on the successful implementation of the Air
units within the Air Force audit readiness strategy, there were         Force ERPs.
several issues that surfaced, corrective actions were                   Existence and Completeness
developed, and a way forward to audit readiness was                     The Air Force continues to execute a consistent strategy to
identified. The continual evolution of the Air Force audit              achieve E&C audit readiness for mission-critical assets, with a
readiness strategy incorporates lessons learned, identifies best        specific focus on the validation of physical inventory
practices from past assertions and the other Services,                  documentation. The Air Force is also leveraging existing E&C
leverages the knowledge of the personnel in the field that              field work performed by the AFAA to shorten the time required
perform the current processes, and integrates with the ERP              to draft primary assertion documentation and provide
systems of the future to ensure audit readiness is sustained.           supporting physical inventory documentation and working
The existing governance structure continued to monitor                  papers.
progress, address obstacles and work collectively as an
enterprise to ensure audit readiness is a priority and remains          The Air Force asserted E&C for military equipment in the 1st
one until complete Air Force audit readiness is achieved.               Quarter of FY 2010. The Air Force assertion incorporated two
                                                                        sub-assessable units: aerospace vehicles and externally
Progress Towards Auditability                                           carried pods. The E&C assertion was supported by physical
Statement of Budgetary Resources:                                       inventory testing of selected aircraft assets in the Reliability
The Air Force continues to employ a strategy to achieve audit           and Maintainability Information System (REMIS). The test
readiness of the SBR that is focused on the lifecycle of                results indicate that the Air Force has highly effective internal
appropriated funds. The Air Force, in coordination with                 controls over military equipment asset (aircraft) accountability.
Defense Finance and Accounting Service (DFAS), developed                An audit by DoDIG is expected to begin in FY 2012.
a methodology for audit readiness of the SBR focused around
four assessable units that cover the fund receipt and                   The Air Force asserted E&C for cruise missiles and aerial
distribution, obligation, outlays, reimbursement and                    drones and targets, two sub-assessable units of OM&S, in the


                                                                    6
                                                                    Annual Financial Statement 2011
                                                                                            Management Discussion and Analysis

3rd Quarter of FY 2011. The E&C assertion was supported by              When fully fielded, DEAMS will transform financial
physical inventory testing by AFAA for a representative sample          management and set a new standard for effective and efficient
of the entire populations for both sub-assessable units found in        stewardship of our Nation’s Defense resources.
REMIS. The test results indicate that the Air Force has
effective internal controls over the accountability for cruise          Air Force General Fund
missiles, drones and aerial target assets.                              The General Fund is the fund into which most receipts of the
                                                                        United States Government are deposited. Exceptions include
Successful execution of the Air Force strategy for E&C audit            receipts from specific sources required by law to be deposited
readiness, as well as other audit readiness initiatives, requires       into other designated funds and receipts from appropriations
close coordination with Air Force functional staff throughout all       made by Congress to carry on the general and ordinary
Air Force Commands.                                                     operations of the Government. The Notes to the Principal
Current and Future Financial Systems - Defense Enterprise               Statements provide more detail on the appropriations. The
Accounting and Management System (DEAMS)                                major appropriations in the Air Force General Fund and their
Our systems enable us to maintain stewardship over the                  uses are introduced below.
resources entrusted to us. DEAMS is key to our current and              Military Personnel (MILPERS)
future ability to manage the Air Force’s resources. DEAMS               This appropriation provides funding for the care and feeding of
was launched in August 2003 as a joint initiative between the           our Airmen. It includes all direct military compensation for
Air Force, U.S. Transportation Command (USTRANSCOM)                     active duty, reserve, guard, and retired personnel including
and the Defense Finance and Accounting Service under what               regular pay, allowances, and bonuses. Additionally, this
was the Defense Department’s Business Transformation                    appropriation funds all Permanent Change of Station (PCS)
Agency. The DEAMS mission is to support the Nation’s                    moves and supports a total force (active, reserve and guard)
warfighters with timely, accurate, and reliable financial               end strength of 508,000.
information, enabling more efficient and effective decision
making by DoD managers. DEAMS is reengineering financial                Operations & Maintenance (O&M)
management activities with a unified enterprise architecture,           This appropriation funds key readiness programs critical to
standardized business rules and processes, and the first                prepare forces for combat operations and other peacetime
implementation of the new Standard Financial Information                missions. These include day-to-day operating costs such as
Structure.                                                              flying hours, depot maintenance, training, spare parts, and
                                                                        base operations. The FY 2011 appropriation supported 93
The Air Force is implementing DEAMS through a three-                    installations, including operations at two space lift ranges, and
increment development approach with eight scheduled                     funded approximately 1.2 million flying hours while sustaining
software releases. Increment 1, Release 1 supported a                   an aircraft fleet of over 5,500 aircraft.
technology demonstration at Scott AFB, Illinois, involving
USTRANSCOM; Headquarters, Air Mobility Command; and Air                 Procurement
Force Active Duty, selected Air National Guard and Air Force            This appropriation provides for purchase of aircraft, missiles,
Reserve tenant organizations on or associated with Scott AFB.           vehicles, electronic and telecommunications equipment,
                                                                        satellite and launch equipment, base maintenance and support
During FY 2007 an expanded Release 1 successfully                       equipment, and investment-type spares. The FY 2011 program
demonstrated the system’s capability to support commitment              expanded, modified and upgraded weapons systems (F-22
accounting. In May of 2010 an operational version of Release            Common Configuration, Flight Data Recorder, C-17 block
1 was deployed at Scott AFB, taking the full Oracle I-                  retrofit, etc.).
Procurement functionality to those same units.
                                                                        Research, Development, Test and Evaluation (RDT&E)
Scheduled software Releases 4-6 under Increment 1 will                  This appropriation provides funding for the research and
expand DEAMS capability to the remaining AMC bases,                     development of next generation weapons and platforms and
Surface Deployment and Distribution Command (SDDC) and                  for the testing and evaluation of current prototypes and
Military Sealift Command (MSC). By FY 2017 DEAMS                        upgrades. The FY 2011 initiatives include:
Increment 2, through a series of software support releases, is            Begin KC-X tanker development
scheduled to have deployed DEAMS to the remaining Air                     Invest in critical technology and competitive concept
Force MAJCOMs, their installations and supported tenant                     exploration for Long Range Strike
organizations providing full financial management and                     Protect critical Science & Technology focus on advanced
reporting capabilities to the Air Force.                                    propulsion, sensors, directed energy and C2
                                                                          Continue GPS IIIA development



                                                                    7
           United States Air Force
Management Discussion and Analysis

  Develop, integrate, and test Space-Based Infrared Systems               Consolidated Sustainment Activity Group (CSAG)
   (SBIRS) GEO 1 & 2                                                       CSAG is an AFWCF business activity chartered for operation
                                                                           in FY 2009. The CSAG consolidates the Depot Maintenance
Military Construction (MILCON)                                             Activity Group (DMAG) and the Material Support Division
This appropriation includes any construction, development,                 (MSD) from the Supply Management Activity Group (SMAG)
conversion, or extension of any kind carried out with respect to           into a single business enterprise. This consolidation eliminates
a military installation. Typically this appropriation applies to any       internal transactions between MSD and DMAG, resulting in a
projects that exceed $1.5 million but can be applicable to                 more efficient business enterprise and customer support
projects exceeding a $750 thousand threshold.                              improvements. The mission of CSAG is supply management of
A sub-element of this appropriation provides funding for family            reparable and consumable items as well as maintenance
housing construction programs. The FY 2011 appropriation                   services. Under CSAG, business operations formerly known as
supported renovation of 404 substandard housing units.                     DMAG are now characterized as the Maintenance Division and
                                                                           business operations formerly known as MSD are now
Base Realignment and Closure (BRAC)                                        designated the Supply Division.
The law authorizes the BRAC accounts to fund one-time,
nonrecurring costs that are a direct result of BRAC directed               The CSAG Maintenance Division repairs systems and spare
actions. Some costs do not qualify for BRAC funding as costs               parts to ensure readiness in peacetime and to provide
resulting from closure or realignment. The FY 2011 BRAC                    sustainment for combat forces in wartime. This division
program was approximately $300 million.                                    operates on the funds received from its customers through
                                                                           sales of its services. In peacetime, the Air Force enhances
Air Force Working Capital Fund                                             readiness by efficiently and economically repairing,
The Air Force Working Capital Fund (AFWCF) conducts                        overhauling and modifying aircraft, engines, missiles,
business in two primary areas: the Consolidated Sustainment                components and software to meet customer demands. The
Activity Group (CSAG) and the Supply Management Activity                   Maintenance Division’s depots have unique skills and
Group-Retail (SMAG-R). Air Force Materiel Command (AFMC)                   equipment required to support and overhaul both new,
manages more than 90 percent of the AFWCF business                         complex components as well as aging weapon systems.
activity for Supply Management and Depot Maintenance                       During wartime or contingencies, the depots can surge repair
activities. These functions provide goods and services to the              operations and realign capacity to support the war fighter’s
Air Force and DoD customers, as well as customers outside                  immediate needs.
the DoD (e.g., local and foreign governments). Supply                      CSAG Maintenance Division is managed by AFMC and
Management provides expedited repair, replenishment and                    employs over 24,000 personnel supporting four industrial
inventory control for spare parts and associated logistics                 locations:
support services to fulfill Air Force needs during war and                   Ogden Air Logistics Center (OO-ALC), UT
peacetime. Depot Maintenance provides economical and                          Oklahoma City Air Logistics Center (OC-ALC), OK
responsive repair, overhaul and modification of aircraft,                     Warner Robins Air Logistics Center (WR-ALC), GA
missiles, engines, other major end items and associated                       Aerospace Maintenance and Regeneration Group
components.                                                                    (AMARG), Tucson, AZ
In FY 1998 the Air Force was appointed the Executive Agent                 The CSAG Supply Division is primarily responsible for Air
for Transportation Working Capital Fund (TWCF) cash. Even                  Force-managed, depot-level reparable spares and consumable
though AFWCF manages TWCF’s cash, daily operations are                     spares unique to the Air Force. Spares are an individual part,
managed by the United States Transportation Command. As a                  subassembly, or assembly supplied for the maintenance or
result, TWCF’s financial statements are reported with other                repair of systems or equipment. In addition to management of
Defense Agencies.                                                          these inventories, the Supply Division provides a wide range of
The AFWCF allows the Air Force to accomplish the following:                logistics support services including requirements forecasting,
ensure readiness through reduced support costs, stabilized                 item introduction, cataloging, provisioning, procurement, repair,
rates and responsive customer service; flexibility to respond to           technical support, data management, item disposal,
customer support needs in real-world situations; focus                     distribution management and transportation.
management attention on net operating results, including cost              Contract Depot Maintenance
and performance; identify the total cost of providing support              The transition of contract depot maintenance from the working
products and services; and establish strong customer/provider              capital fund was completed in FY 2008. The activity ceased
relationships.                                                             accepting new orders at the end of FY 2008. Effective 1 July
                                                                           2011, any remaining Contract Depot Maintenance lines of


                                                                       8
                                                                                                                    Annual Financial Statement 2011
                                                                                                                                                 Management Discussion and Analysis

accounting were converted to Organic (CSAG-Maintenance                                                                        accordance with regulations of the Air Force Academy and
Division) fund codes. Contract Depot Maintenance financials                                                                   related statutes. The customer base consists of approximately
continued to be reported thru the end of FY 2011 with no                                                                      4,500 cadets who receive distinctive uniforms procured from
activity.                                                                                                                     various manufacturing contractors.
This change brings the user and provider of contract depot                                                                    Air Force Working Capital Fund Customers
maintenance services closer together and removes the WCF                                                                      AFWCF provides support to a variety of customers: Air Force
from its role as the “middleman.”                                                                                             Major Commands (including the Air National Guard & Air Force
                                                                                                                              Reserves), the Army, the Navy, other WCFs, other government
Supply Management Activity Group–Retail
                                                                                                                              agencies and foreign countries.
The Air Force Supply Management Activity Group-Retail
(SMAG-R) is comprised of three divisions: General Support,                                                                    Air Force Working Capital Fund Financial Performance
Medical-Dental, and the United States Air Force Academy.                                                                      Measures
                                                                                                                              AFWCF assesses financial performance using the Net
The Air Force SMAG-R provides a wide range of logistics
                                                                                                                              Operating Result (NOR) of an activity. The NOR is the
support services including requirements forecasting, item
                                                                                                                              difference between revenue and expenses, i.e., a bottom-line
introduction, cataloging, provisioning, procurement, repair,
                                                                                                                              profit and loss indicator. The NOR objective of an activity
technical support, data management, item disposal,
                                                                                                                              group is to break even over a two year period. Prices are
distribution management and transportation. Inventories are an
                                                                                                                              established to achieve this objective by recovering or returning
integral part of SMAG-R and are maintained by each of the
                                                                                                                              prior-year losses or gains. DoD cash management policy is to
divisions in support of customer requirements. The SMAG-R
                                                                                                                              maintain the minimum cash balance necessary to meet both
objective is to replenish inventories and provide supplies to
                                                                                                                              operational requirements and disbursements in support of the
customers in a timely manner within customer funding
                                                                                                                              capital program. Cash generated from operations is the
constraints, while maintaining fund solvency. The Air Force
                                                                                                                              primary means of maintaining adequate cash levels. Effective
SMAG-R manages weapon system spare parts, medical-
                                                                                                                              cash management is directly dependent on the availability of
dental supplies and equipment, and other supply items used in
                                                                                                                              accurate and timely data on cash levels and operational
non-weapon system applications.
                                                                                                                              results. Cash levels should be maintained to cover seven to
The General Support Division (GSD) manages nearly 1.1                                                                         ten days of operational costs as well as cash adequate to meet
million items, which are procured from Defense Logistics                                                                      six months of capital disbursements.
Agency (DLA) and General Services Administration (GSA).
GSD customers use the majority of these items to support field                                                                Financing the Fight
and depot maintenance of aircraft, ground and airborne                                                                        The Air Force must take the necessary steps today that will
communication and electronic systems, as well as other                                                                        allow future generations to continue to provide consistent,
sophisticated systems and equipment. The GSD also manages                                                                     credible and effective air, space and cyber capabilities on
many items related to installation, maintenance, and                                                                          which our Nation depends. Our ability to do so is constrained
administrative functions.                                                                                                     by the increasing costs to design and build platforms and by
                                                                                                                              the accelerating costs of personnel benefits and other must-
The Medical-Dental Division (MDD) manages nearly 9,000                                                                        pay operational bills in a particularly challenging budget
different items for 74 Medical Treatment Facilities (MTF)                                                                     environment. We will ensure we maximize combat capability
worldwide. All supply and equipment requirements generated                                                                    out of each taxpayer dollar by identifying waste, implementing
by Air Force MTFs are procured through this division. MDD                                                                     efficiencies, pursuing continuous process improvement
also maintains the War Readiness Materiel (WRM)                                                                               initiatives and making smart investments. We will provide the
requirement. WRM provides initial war fighting capability until                                                               necessary capability, capacity and versatility required to prevail
re-supply lines can sustain wartime demands for medical and                                                                   today and in the future as we continue “financing the fight.”
dental supplies and equipment.
The Air Force Academy Division finances the purchase of
uniforms and uniform accessories for sale to cadets in
-----------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
References:
“The Book 2011,” Airman; Official magazine of the U.S. Air Force, Vol. LV, Number 3, March 2011
Department of the Air Force. “2011 United States Air Force Posture Statement.” United States Air Force. February 2011
Department of the Air Force. “United States Air Force FY 2012 Budget Overview.” United States Air Force. February 2011+




                                                                                                                          9
  United States Air Force


Fiscal Year 2011
Annual Financial Statements

Limitations to the Financial Statements
The principal financial statements have been prepared to report the financial position and results
of operations of the entity, pursuant to the requirements of Title 31, United States Code, Section
3515 (b). While the statements have been prepared from the books and records of the entity, in
accordance with U.S. generally accepted accounting principles promulgated by the Federal
Accounting Standards Advisory Board, and the formats prescribed by Office of Management and
Budget, the statements are in addition to the financial reports used to monitor and control
budgetary resources which are prepared from the same books and records. The statements should
be read with the realization that they are for a component of the U.S. Government, a sovereign
entity.




                                               10
                                              Annual Financial Statement 2011


General Fund
Principal Statements
Fiscal Year 2011
The FY 2011 Department of the Air Force General Fund Principal Statements and related notes
are presented in the format prescribed by the Department of Defense Financial Management
Regulation 7000.14-R, Volume 6B. The statements and related notes summarize financial
information for individual activity groups and activities within the General Fund for the fiscal
year ending September 30, 2011, and are presented on a comparative basis with information
previously reported for the fiscal year ending September 30, 2010.
The following statements comprise the Department of the Air Force General Fund Principal
Statements:
Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2011 and 2010 those resources
owned or managed by the Air Force which are available to provide future economic benefits
(assets); amounts owed by the Air Force that will require payments from those resources or
future resources (liabilities); and residual amounts retained by the Air Force, comprising the
difference (net position)

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations for
the years ended September 30, 2011 and 2010. The Air Force’s net cost of operations includes
the gross costs incurred by the Air Force less any exchange revenue earned from Air Force
activities.
Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the Air Force’s
net position resulting from the net cost of Air Force’s operations, budgetary financing sources
other than exchange revenues, and other financing sources for the years ended September 30,
2011 and 2010.
Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources available to
the Air Force during FY 2011 and 2010, the status of these resources at September 30, 2011 and
2010, and the outlay of budgetary resources for the years ended September 30, 2011 and 2010.
The Principal Statements and related notes have been prepared to report financial position
pursuant to the requirements of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, and the Office of Management and Budget’s Circular A-136,
“Financial Reporting Requirements.”




                                               11
        United States Air Force
       General Fund
       Principal Statements
                                                     Department of Defense
                                                  Department of the Air Force
                                               CONSOLIDATED BALANCE SHEET
                                               As of September 30, 2011 and 2010
                                                        ($ in Thousands)


                                                                                                                       Restated
                                                                              2011 Consolidated                    2010 Consolidated

ASSETS (Note 2)
     Intragovernmental:
       Fund Balance with Treasury (Note 3)                                $              110,088,325           $            107,566,991
       Investments (Note 4)                                                                      1,077                            1,080
       Accounts Receivable (Note 5)                                                           588,063                           415,493
       Other Assets (Note 6)                                                                   85,368                            93,765
       Total Intragovernmental Assets                                     $              110,762,833           $            108,077,329


     Cash and Other Monetary Assets (Note 7)                              $                    95,583          $                108,828
     Accounts Receivable,Net (Note 5)                                                         366,409                           459,788
     Inventory and Related Property,Net (Note 9)                                           48,650,905                        49,698,922
     General Property, Plant and Equipment,Net (Note 10)                                 134,784,123                        128,025,934
     Other Assets (Note 6)                                                                 12,108,803                        11,565,221
TOTAL ASSETS                                                              $              306,768,656           $            297,936,022
STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)


LIABILITIES (Note 11)
     Intragovernmental:
       Accounts Payable (Note 12)                                         $                 2,553,974          $              2,375,974
       Other Liabilities (Note 15 & 16)                                                     2,029,335                         2,181,138
       Total Intragovernmental Liabilities                                $                 4,583,309          $              4,557,112


     Accounts Payable (Note 12)                                           $                 3,013,935          $              3,719,734
     Military Retirement and Other Federal                                                  1,126,143                         1,109,362
     Employment Benefits (Note 17)
     Environmental and Disposal Liabilities (Note 14)                                      10,564,623                         8,839,352
     Other Liabilities (Note 15 and Note 16)                                                5,478,873                         6,402,702
TOTAL LIABILITIES                                                         $                24,766,883          $             24,628,262


COMMITMENTS AND CONTINGENCIES (NOTE 16)
NET POSITION
    Unexpended Appropriations - Other Funds                                              114,254,051                        108,832,210
    Cumulative Results of Operations - Earmarked Funds                                         12,425                            18,568
    Cumulative Results of Operations - Other Funds                                       167,735,297                        164,456,982
TOTAL NET POSITION                                                        $              282,001,773           $            273,307,760


TOTAL LIABILITIES AND NET POSITION                                        $              306,768,656           $            297,936,022




                                  The accompanying notes are an integral part of these financial statements.

                                                                     12
                                                                    Annual Financial Statement 2011
                                                                                                           General Fund
                                                                                                     Principal Statements
                                                   Department of Defense
                                                 Department of the Air Force
                                        CONSOLIDATED STATEMENT OF NET COST
                                     For the periods ended September 30, 2011 and 2010
                                                      ($ in Thousands)


                                                                                                                        Restated
                                                                                      2011 Consolidated             2010 Consolidated


 Program Costs
       Gross Costs                                                                $            166,451,900      $           187,004,658
        Military Personnel                                                                      36,391,504                   36,221,498
        Operations, Readiness & Support                                                         62,207,918                   56,229,265
        Procurement                                                                             38,706,085                   63,191,812
        Research, Development, Test & Evaluation                                                28,007,745                   30,012,123
        Family Housing & Military Construction                                                    1,138,648                   1,349,960




       (Less: Earned Revenue)                                                                   (8,751,985)                  (5,913,669)
      Net Cost before Losses/(Gains) from Actuarial Assumption                                 157,699,915                  181,090,989
Changes
      for Military Retirement Benefits
       Net Program Costs Including Assumption Changes                                          157,699,915                  181,090,989
 Net Cost of Operations                                                           $            157,699,915      $           181,090,989




                                  The accompanying notes are an integral part of these financial statements.

                                                                     13
         United States Air Force
       General Fund
       Principal Statements
                                             Department of Defense
                                           Department of the Air Force
                           CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                               For the periods ended September 30, 2011 and 2010
                                                ($ in Thousands)


                                                                       2011
                                                                  Earmarked            2011 All                 2011             2011
                                                                    Funds            Other Funds            Eliminations     Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                            $          18,568 $      179,970,391 $                   0 $     179,988,959
Prior Period Adjustments:
  Corrections of errors (+/-)                                                 0       (15,513,410)                     0      (15,513,410)
Beginning balances, as adjusted                                          18,568        164,456,981                     0       164,475,549
Budgetary Financing Sources:
  Appropriations used                                                         0        159,703,254                     0       159,703,254
  Nonexchange revenue                                                       913                  0                     0               913
  Donations and forfeitures of cash and cash equivalents                  4,728                  0                     0             4,728
  Transfers-in/out without reimbursement                                      0                  0                     0                 0
Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                                0            867,507                     0           867,507
  Imputed financing from costs absorbed by others                             0            855,639                     0           855,639
  Other (+/-)                                                                 1          (459,954)                     0         (459,953)
Total Financing Sources                                                   5,642        160,966,446                     0       160,972,088
Net Cost of Operations (+/-)                                             11,785        157,688,130                     0       157,699,915
Net Change                                                              (6,143)          3,278,316                     0         3,272,173
Cumulative Results of Operations                              $          12,425 $      167,735,297 $                   0 $     167,747,722
UNEXPENDED APPROPRIATIONS
Beginning Balances                                            $               0 $      108,832,210 $                   0 $     108,832,210
Beginning balances, as adjusted                                               0        108,832,210                     0       108,832,210
Budgetary Financing Sources:
  Appropriations received                                                     0    167,631,093                         0     167,631,093
  Appropriations transferred-in/out                                           0         772,813                        0          772,813
  Other adjustments (rescissions, etc)                                        0     (3,278,811)                        0      (3,278,811)
  Appropriations used                                                         0  (159,703,254)                         0   (159,703,254)
Total Budgetary Financing Sources                                             0       5,421,841                        0        5,421,841
Unexpended Appropriations                                                     0    114,254,051                         0     114,254,051
Net Position                                                  $          12,425 $ 281,989,348 $                        0 $   282,001,773




                               The accompanying notes are an integral part of these financial statements.

                                                                  14
                                                                Annual Financial Statement 2011
                                                                                                       General Fund
                                                                                                 Principal Statements
                                             Department of Defense
                                           Department of the Air Force
                           CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                               For the periods ended September 30, 2011 and 2010
                                                ($ in Thousands)


                                                                       2010                                                  Restated
                                                                  Earmarked            2010 All                2010             2010
                                                                    Funds            Other Funds           Eliminations     Consolidated
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                            $         10,432 $       184,330,402 $                  0 $     184,340,834
Prior Period Adjustments:
  Corrections of errors (+/-)                                                0           1,094,196                    0         1,094,196
Beginning balances, as adjusted                                         10,432         185,424,598                    0       185,435,030
Budgetary Financing Sources:
  Appropriations used                                                        0         157,921,032                    0       157,921,032
  Nonexchange revenue                                                    1,432                   0                    0             1,432
  Donations and forfeitures of cash and cash equivalents                10,757                   0                    0            10,757
  Transfers-in/out without reimbursement                                     0             297,535                    0           297,535
Other Financing Sources:
  Transfers-in/out without reimbursement (+/-)                                0            202,939                    0           202,939
  Imputed financing from costs absorbed by others                             0            857,824                    0           857,824
  Other (+/-)                                                               (1)            839,991                    0           839,990
Total Financing Sources                                                 12,188         160,119,321                    0       160,131,509
Net Cost of Operations (+/-)                                             4,052         181,086,937                    0       181,090,989
Net Change                                                               8,136        (20,967,616)                    0      (20,959,480)
Cumulative Results of Operations                              $         18,568 $       164,456,982 $                  0 $     164,475,550
UNEXPENDED APPROPRIATIONS
Beginning Balances                                            $               0 $      105,252,117 $                  0 $     105,252,117
Beginning balances, as adjusted                                               0        105,252,117                    0       105,252,117
Budgetary Financing Sources:
  Appropriations received                                                    0    165,409,977                         0     165,409,977
  Appropriations transferred-in/out                                          0       (210,801)                        0        (210,801)
  Other adjustments (rescissions, etc)                                       0     (3,698,051)                        0      (3,698,051)
  Appropriations used                                                        0  (157,921,032)                         0   (157,921,032)
Total Budgetary Financing Sources                                            0       3,580,093                        0        3,580,093
Unexpended Appropriations                                                    0    108,832,210                         0     108,832,210
Net Position                                                  $         18,568 $ 273,289,192 $                        0 $ 273,307,760




                              The accompanying notes are an integral part of these financial statements.

                                                                  15
          United States Air Force
        General Fund
        Principal Statements
                                                 Department of Defense
                                               Department of the Air Force
                                  COMBINED STATEMENT OF BUDGETARY RESOURCES
                                   For the periods ended September 30, 2011 and 2010
                                                    ($ in Thousands)
                                                                                                  2011 Combined           2010 Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                               $         36,090,271    $        29,211,348
Recoveries of prior year unpaid obligations                                                              4,488,152              4,573,888
Budget authority
  Appropriation                                                                                        167,636,733            165,422,165
  Spending authority from offsetting collections
      Earned
         Collected                                                                                       9,719,161             10,302,406
         Change in receivables from Federal sources                                                        826,464                219,051
      Change in unfilled customer orders
         Advance received                                                                                   142,899                  9,782
         Without advance from Federal sources                                                             (762,658)                292,336
  Subtotal                                                                                             177,562,599            176,245,740
Nonexpenditure transfers, net, anticipated and actual                                                       772,813                 86,734
Permanently not available                                                                               (3,278,813)            (3,698,050)
Total Budgetary Resources                                                                     $        215,635,022    $       206,419,660
Status of Budgetary Resources:
Obligations incurred:
  Direct                                                                                      $        167,256,189    $       159,256,720
  Reimbursable                                                                                          10,371,812             11,072,669
  Subtotal                                                                                             177,628,001            170,329,389
Unobligated balance:
  Apportioned                                                                                           33,990,184             32,529,681
  Exempt from apportionment                                                                                 11,170                 13,729
  Subtotal                                                                                              34,001,354             32,543,410
Unobligated balance not available                                                                        4,005,667              3,546,861
Total status of budgetary resources                                                           $        215,635,022    $       206,419,660
Change in Obligated Balance:
Obligated balance, net
  Unpaid obligations, brought forward, October 1                                              $          74,007,637   $          76,097,415
  Less: Uncollected customer payments from Federal sources, brought forward, October 1                  (2,968,685)             (2,457,299)
  Total unpaid obligated balance                                                                         71,038,952              73,640,116
Obligations incurred net (+/-)                                                                         177,628,001             170,329,389
Less: Gross outlays                                                                                  (172,446,017)           (167,845,279)
Obligated balance transferred, net
  Actual transfers, uncollected customer payments from Federal sources (+/-)                                      0                    (2)
  Total Unpaid obligated balance transferred, net                                                                 0                    (2)
Less: Recoveries of prior year unpaid obligations, actual                                               (4,488,153)            (4,573,888)
Change in uncollected customer payments from Federal sources (+/-)                                         (63,806)              (511,385)
Obligated balance, net, end of period
  Unpaid obligations                                                                                     74,701,468             74,007,637
  Less: Uncollected customer payments from Federal sources (-)                                          (3,032,491)            (2,968,686)
  Total, unpaid obligated balance, net, end of period                                                    71,668,977             71,038,951
Net Outlays
Net Outlays:
  Gross outlays                                                                                        172,446,017             167,845,279
  Less: Offsetting collections                                                                          (9,862,060)           (10,312,190)
  Less: Distributed Offsetting receipts                                                                   (154,152)              (250,035)
  Net Outlays                                                                                 $        162,429,805    $        157,283,054
                                  The accompanying notes are an integral part of these financial statements.

                                                                     16
                                              Annual Financial Statement 2011


General Fund
Fiscal Year 2011
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair presentation
of the financial statements that is not displayed on the face of the financial statements.




                                               17
         United States Air Force
        General Fund
        Notes to the Principal Statements

 Note 1.          Significant Accounting Policies

1.A. Basis of Presentation

These financial statements have been prepared to report the financial position and results of operations of the Air Force,
as required by the Chief Financial Officers Act of 1990, expanded by the Government Management Reform Act of 1994,
and other appropriate legislation. The financial statements have been prepared from the books and records of the Air
Force in accordance with, and to the extent possible, U.S. generally accepted accounting principles (USGAAP)
promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and Budget (OMB) Circular
No. A-136, Financial Reporting Requirements; and the Department of Defense (DoD), Financial Management Regulation
(FMR). The accompanying financial statements account for all resources for which the Air Force is responsible unless
otherwise noted.

Information relative to classified assets, programs, and operations is excluded from the statements or otherwise
aggregated and reported in such a manner that it is not discernible.

The Air Force is unable to implement fully all elements of USGAAP and the OMB Circular No. A-136, due to limitations of
financial and nonfinancial management processes and systems that support the financial statements. The Air Force
derives reported values and information for major asset and liability categories largely from nonfinancial systems, such as
inventory and logistic systems. These systems were designed to support reporting requirements for maintaining
accountability over assets and reporting the status of federal appropriations rather than preparing financial statements in
accordance with USGAAP. The Air Force continues to implement process and system improvements addressing these
limitations.

The DoD currently has 13 auditor identified material weaknesses. Of these the Air Force has the following: (1) Financial
Management Systems; (2) Fund Balance with Treasury; (3) Accounts Receivable; (4) Operating Materials and Supplies;
(5) General Property, Plant, and Equipment; (6) Government-Furnished Material and Contractor-Acquired Material; (7)
Accounts Payable; (8) Environmental Liabilities; (9) Statement of Net Cost; (10) Intragovernmental Eliminations; (11)
Other Accounting Entries; and (12) Reconciliation of Net Cost of Operations to Budget.

1.B. Mission of the Reporting Entity

The United States Air Force was created on September 18, 1947, by the National Security Act of 1947 and operates
under the direction, authority, and control of the Secretary of the Air Force. The Air Force’s overall mission is to deliver
sovereign options for the defense of the United States of America and its global interests to "Aim High…Fly, Fight, Win” in
air, space, and cyberspace. The Air Force carries out its mission by adhering to a strategic framework of Core Values
consisting of Integrity First, Service Before Self, and Excellence in All We Do. In addition, the Air Force is committed to
providing Global Vigilance, Global Reach, and Global Power, while defending and protecting the United States.

1.C. Appropriations and Funds

The Air Force receives appropriations and funds as general, working capital (revolving), trust, special, and deposit funds.
The Air Force uses these appropriations and funds to execute its missions and subsequently report on resource usage.

General funds are used for financial transactions funded by congressional appropriations, including personnel, operation
and maintenance, research and development, procurement, and military construction.

These general funds also include supplemental funds enacted by the American Recovery and Reinvestment Act
(Recovery Act) of 2009. Details relating to Recovery Act appropriated funds are available online at
http://www.defenselink.mil/recovery.

Trust funds contain receipts and expenditures of funds held in trust by the government for use in carrying out specific
purposes or programs in accordance with the terms of the donor, trust agreement, or statute. Special fund accounts are
used to record government receipts reserved for a specific purpose. Certain trust and special funds may be designated as
earmarked funds. Earmarked funds are financed by specifically identified revenues, required by statute to be used for


                                                             18
                                                              Annual Financial Statement 2011
                                                                                                General Fund
                                                                            Notes to the Principal Statements

designated activities, benefits or purposes, and remain available over time. The Air Force is required to separately
account for and report on the receipt, use and retention of revenues and other financing sources for earmarked funds.

Deposit funds are used to record amounts held temporarily until paid to the appropriate government or public entity. They
are not Air Force funds, and as such, are not available for Air Force’s operations. The Air Force is acting as an agent or a
custodian for funds awaiting distribution.

The Air Force is a party to allocation transfers with other federal agencies as a receiving (child) entity. An allocation
transfer is an entity’s legal delegation of authority to obligate budget authority and outlay funds on its behalf. Generally, all
financial activity related to allocation transfers (e.g. budget authority, obligations, outlays) is reported in the financial
statements of the parent entity. Exceptions to this general rule apply to specific funds for which OMB has directed that all
activity be reported in the financial statements of the child entity. These exceptions include U.S. Treasury-Managed Trust
Funds, Executive Office of the President (EOP), and all other funds specifically designated by OMB. Based on an
agreement with OMB, funds for Security Assistance programs are reported separately from Air Force financial statements
and notes.

The Air Force receives allocation transfers for EOP (Foreign Military Sales – Military Assistance Program) meeting the
OMB exception; however, activities for this fund are reported separately from the DoD financial statements.

The accounts used to prepare the financial statements are categorized as either entity or nonentity. The Air Force
accounts consist of resources that are available for use in the operations of the entity. The Air Force is authorized to
decide how to use resources in entity accounts or may be legally obligated to use these resources to meet entity
obligations. Nonentity accounts, on the other hand, consist of assets that are held by an entity but that are not available
for use in the operations of the entity. The following is a list of the major Air Force account numbers and titles (all accounts
are entity accounts unless otherwise noted):

AF Account Number              Title
57 * 0704                      Military Family Housing, Operations and Maintenance (O&M) and Construction, Air Force
57 * 0740                      Military Family Housing (Construction), Air Force
57 * 0743                      Military Family Housing (Construction), Air Force, Recovery Act
57 * 0745                      Military Family Housing, Operations and Maintenance (O&M), Air Force
57 * 0748                      Military Family Housing, Operations and Maintenance (O&M), Air Force, Recovery Act
57 * 0810                      Environmental Restoration, Air Force
57 * 1007                      Medicare Eligible Retiree Health Fund Contributions, Air Force
57 * 1008                      Medicare Eligible Retiree Health Fund Contributions, Air Force Reserve
57 * 1009                      Medicare Eligible Retiree Health Fund Contributions, Air National Guard
57 * 3010                      Aircraft Procurement, Air Force
57 * 3011                      Procurement of Ammunition, Air Force
57 * 3020                      Missile Procurement, Air Force
57 * 3080                      Other Procurement, Air Force
57 * 3300                      Military Construction, Air Force
57 * 3307                      Military Construction, Air Force, Recovery Act
57 * 3400                      Operations and Maintenance (O&M), Air Force
57 * 3404                      Operations and Maintenance (O&M), Air Force, Recovery Act
57 * 3500                      Military Personnel, Air Force
57 * 3600                      Research, Development, Testing, and Evaluation (RDT&E), Air Force
57 * 3605                      Research, Development, Testing, and Evaluation (RDT&E), Air Force, Recovery Act
57 * 3700                      Personnel, Air Force Reserve
57 * 3730                      Military Construction, Air Force Reserve
57 * 3740                      Operations and Maintenance (O&M), Air Force Reserve
57 * 3744                      Operations and Maintenance (O&M), Air Force Reserve, Recovery Act
57 * 3830                      Military Construction, Air National Guard
57 * 3834                      Military Construction, Air National Guard, Recovery Act
57 * 3840                      Operations and Maintenance (O&M), Air National Guard
57 * 3844                      Operations and Maintenance (O&M), Air National Guard, Recovery Act
57 * 3850                      Personnel, Air National Guard


                                                               19
         United States Air Force
        General Fund
        Notes to the Principal Statements

57 X 5095                     Wildlife Conservation, etc., Military Reservations, Air Force
57 X 8418                     Air Force Cadet Fund
57 X 8928                     Air Force General Gift Fund
57 * 3XXX (Incl Nonentity)    Budget Clearing Accounts
57 * 6XXX (Nonentity)         Deposit Fund Accounts
57 **** (Nonentity)           Receipt Accounts

1.D. Basis of Accounting

The Air Force’s financial management systems are unable to meet all full accrual accounting requirements. Many of the
Air Force’s financial and nonfinancial feeder systems and processes were designed and implemented prior to the
issuance of USGAAP. These systems were not designed to collect and record financial information on the full accrual
accounting basis as required by USGAAP. Most of Air Force’s financial and nonfinancial legacy systems were designed to
record information on a budgetary basis.

The Air Force's financial statements and supporting trial balances are compiled from the underlying financial data and trial
balances of the Air Force's sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), nonfinancial feeder systems, and accruals made for major items such as payroll
expenses, accounts payable, and environmental liabilities. Some of the sub-entity level trial balances may reflect known
abnormal balances resulting largely from business and system processes. At the consolidated Air Force level these
abnormal balances may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only
to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based on
the U.S. Standard General Ledger (USSGL). Until all Air Force financial and nonfinancial feeder systems and processes
are updated to collect and report financial information as required by USGAAP, Air Force’s financial data will be derived
from budgetary transactions, data from nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources

The Air Force receives congressional appropriations as financing sources for general funds that expire annually, on a
multi-year basis, or do not expire. When authorized by legislation, these appropriations are supplemented by revenues
generated by sales of goods or services. The Air Force recognizes revenue as a result of costs incurred for goods and
services provided to other federal agencies and the public. Full-cost pricing is Air Force’s standard policy for services
provided as required by OMB Circular A-25, User Charges. The Air Force recognizes revenue when earned within the
constraints of its current system capabilities. In some instances, revenue is recognized when bills are issued.

The Air Force does not include nonmonetary support provided by U.S. allies for common defense and mutual security in
amounts reported in the Statement of Net Cost and the Note 21, Reconciliation of Net Cost of Operations to Budget. The
U.S. has cost sharing agreements with countries having a mutual or reciprocal defense agreement, where U.S. troops are
stationed, or where the U.S. Fleet is in a port.

1.F. Recognition of Expenses

For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current
financial and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual
accounting basis. Estimates are made for major items such as payroll expenses, accounts payable, environmental
liabilities, and unbilled revenue. Some accounts such as civilian pay, military pay, and accounts payable are presented on
the accrual basis of accounting on the financial statements, as required by USGAAP.

In the case of Operating Materials & Supplies (OM&S), operating expenses are generally recognized when the items are
purchased. Efforts are underway to transition to the consumption method for recognizing OM&S expenses. Under the
consumption method, OM&S would be expensed when consumed.




                                                             20
                                                            Annual Financial Statement 2011
                                                                                             General Fund
                                                                          Notes to the Principal Statements

Due to system limitations, in some instances expenditures for capital and other long-term assets may be recognized as
operating expenses. The Air Force continues to implement process and system improvements to address these
limitations.

1.G. Accounting for Intragovernmental Activities

Accounting standards require that an entity eliminate intraentity activity and balances from consolidated financial
statements in order to prevent overstatement for business with itself. However, the Air Force cannot accurately identify
intragovernmental transactions by customer because Air Force’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side
records are adjusted to agree with DoD seller-side balances and are then eliminated. The DoD is implementing
replacement systems and a standard financial information structure that will incorporate the necessary elements that will
enable DoD to correctly report, reconcile, and eliminate intragovernmental balances.

The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and Treasury Financial Manual
Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States Government,
provide guidance for reporting and reconciling intragovernmental balances. While Air Force is unable to fully reconcile
intragovernmental transactions with all federal agencies, Air Force is able to reconcile balances pertaining to investments
in federal securities, borrowings from the U.S. Treasury and the Federal Financing Bank, Federal Employees’
Compensation Act transactions with the Department of Labor, and benefit program transactions with the Office of
Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The
Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do
not report any public debt, interest, or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
U.S. Treasury does not allocate such costs to DoD.

1.H. Transactions with Foreign Governments and International Organizations

Each year, Air Force sells defense articles and services to foreign governments and international organizations under the
provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury

The Air Force’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of Defense Finance
and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and the
Department of State’s financial service centers process the majority of the Air Force’s cash collections, disbursements,
and adjustments worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued,
electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. On a monthly basis, Air Force’s FBWT is adjusted to agree with the U.S.
Treasury accounts.

1.J. Cash and Foreign Currency

Cash is the total of cash resources under the control of DoD which includes coin, paper currency, negotiable instruments,
and amounts held for deposit in banks and other financial institutions. Foreign currency consists of the total U.S. dollar
equivalent of both purchased and nonpurchased foreign currencies held in foreign currency fund accounts. Foreign
currency is valued using the U.S. Treasury prevailing rate of exchange.


                                                             21
          United States Air Force
        General Fund
        Notes to the Principal Statements


The majority of cash and all foreign currency is classified as “nonentity” and is restricted. Amounts reported consist
primarily of cash and foreign currency held by disbursing officers to carry out their paying, collecting, and foreign currency
accommodation exchange missions.

The Air Force conducts a significant portion of operations overseas. Congress established a special account to handle the
gains and losses from foreign currency transactions for five general fund appropriations: (1) operations and maintenance;
(2) military personnel; (3) military construction; (4) family housing operation and maintenance; and (5) family housing
construction. The gains and losses are calculated as the variance between the exchange rate current at the date of
payment and a budget rate established at the beginning of each fiscal year. Foreign currency fluctuations related to other
appropriations require adjustments to the original obligation amount at the time of payment. The Air Force does not
separately identify currency fluctuation transactions.

1.K. Accounts Receivable

Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and refunds
receivable. Allowances for uncollectible accounts due from the public are based upon analysis of collection experience by
fund type. The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies.
Claims against other federal agencies are to be resolved between the agencies in accordance with dispute resolution
procedures defined in the Intragovernmental Business Rules published in the Treasury Financial Manual.

1.L. Direct Loans and Loan Guarantees

Not applicable.

1.M. Inventories and Related Property

The Air Force manages only military or government specific materiel under normal conditions. Materiel is a unique term
that relates to military force management, and includes items such as self-propelled weapons, aircraft, etc., and related
spares, repair parts, and support equipment. Items commonly used in and available from the commercial sector are not
managed in Air Force’s materiel management activities. Operational cycles are irregular and the military risks associated
with stock-out positions have no commercial parallel. The Air Force holds materiel based on military need and support for
contingencies. The DoD is currently developing a methodology to be used to account for “inventory held for sale” and
“inventory held in reserve for future sale.”

Related property includes OM&S and stockpile materiel. The majority of OM&S, with the exception of munitions not held
for sale, are valued using the moving average cost method. Munitions not held for sale are valued at standard purchase
price. The Air Force uses both the consumption method and the purchase method of accounting for OM&S. Items that are
centrally managed and stored, such as ammunition and engines, are generally recorded using the consumption method
and are reported on the Balance Sheet as OM&S. When current systems cannot fully support the consumption method,
Air Force uses the purchase method. Under this method, materiel and supplies are expensed when purchased. During FY
2011 and FY 2010, Air Force expensed significant amounts using the purchase method because the systems could not
support the consumption method or management deemed that the item was in the hands of the end user. This is a
material weakness for the DoD and long-term system corrections are in process. Once the proper systems are in place,
these items will be accounted for under the consumption method of accounting.

The Air Force determined that the recurring high dollar value of OM&S in need of repair is material to the financial
statements and requires a separate reporting category. Many high-dollar items, such as aircraft engines, are categorized
as OM&S rather than military equipment.

The Air Force recognizes excess, obsolete, and unserviceable OM&S at a net realizable value of $0 pending development
of an effective means of valuing such materiel.

1.N. Investments in U.S. Treasury Securities

The Air Force reports investments in U.S. Treasury securities at cost, net of amortized premiums or discounts. Premiums
or discounts are amortized over the term of the investments using the effective interest rate method or another method


                                                              22
                                                              Annual Financial Statement 2011
                                                                                                General Fund
                                                                            Notes to the Principal Statements

obtaining similar results. The Air Force’s intent is to hold investments to maturity, unless they are needed to finance
claims or otherwise sustain operations. Consequently, a provision is not made for unrealized gains or losses on these
securities.

The Air Force invests in nonmarketable market-based U.S. Treasury securities, which are issued to federal agencies by
the U.S. Treasury’s Bureau of Public Debt. They are not traded on any securities exchange but mirror the prices of
particular U.S. Treasury securities traded in the government securities market.

1.O. General Property, Plant and Equipment

The Air Force uses the estimated historical cost for valuing military equipment. The DoD identified the universe of military
equipment by accumulating information relating to program funding and associated military equipment, equipment useful
life, program acquisitions, and disposals to establish a baseline. The military equipment baseline is updated using
expenditure, acquisition, and disposal information.

The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is $100 thousand except for real
property, which is $20 thousand. The Air Force has not fully implemented the threshold for real property; therefore, DoD is
primarily using the capitalization threshold of $100 thousand for General PP&E, and most real property.

With the exception of USACE Civil Works and Working Capital Fund, General PP&E assets are capitalized at historical
acquisition cost when an asset has a useful life of two or more years and when the acquisition cost equals or exceeds the
DoD’s capitalization threshold. The DoD also requires the capitalization of improvements to existing General PP&E assets
if the improvements equal or exceed the capitalization threshold and extend the useful life or increase the size, efficiency,
or capacity of the asset. The DoD depreciates all General PP&E, other than land, on a straight-line basis.

When it is in the best interest of the government, the Air Force provides government property to contractors to complete
contract work. The Air Force either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD
capitalization threshold, federal accounting standards require that it be reported on Air Force’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that provides
appropriate General PP&E information for financial statement reporting. The DoD requires Air Force to maintain, in its
property systems, information on all property furnished to contractors. These actions are structured to capture and report
the information necessary for compliance with federal accounting standards. The Air Force has not fully implemented this
policy primarily due to system limitations.

1.P. Advances and Prepayments

When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances
or prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services
should be reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets
when the related goods and services are received. The Air Force has not fully implemented this policy primarily due to
system limitations.

1.Q. Leases

Lease payments for the rental of equipment and operating facilities are classified as either capital or operating leases.
When a lease is essentially equivalent to an installment purchase of property (a capital lease), and the value equals or
exceeds the current capitalization threshold, Air Force records the applicable asset as though purchased, with an
offsetting liability, and depreciates it. The Air Force records the asset and the liability at the lesser of the present value of
the rental and other lease payments during the lease term (excluding portions representing executory costs paid to the
lessor) or the asset’s fair market value. The discount rate for the present value calculation is either the lessor’s implicit
interest rate or the government’s incremental borrowing rate at the inception of the lease. The Air Force, as the lessee,
receives the use and possession of leased property, for example real estate or equipment, from a lessor in exchange for a
payment of funds. An operating lease does not substantially transfer all the benefits and risk of ownership. Payments for
operating leases are expensed over the lease term as they become payable.



                                                               23
          United States Air Force
        General Fund
        Notes to the Principal Statements

Office space and leases entered into by Air Force are the largest component of operating leases and are based on costs
gathered from existing leases, General Services Administration (GSA) bills, and interservice support agreements. Future
year projections use the Consumer Price Index.

1.R. Other Assets

Other assets include those assets, such as military and civil service employee pay advances, travel advances, and certain
contract financing payments that are not reported elsewhere on Air Force’s Balance Sheet.

The Air Force conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, Air Force
may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32,
as authorized disbursements to a contractor prior to acceptance of supplies or services by the Government. Contract
financing payments clauses are incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advances and interim payments, progress payments based on cost, and
interim payments under certain cost-reimbursement contracts. It is DoD policy to record certain contract financing
payments as other assets. The Air Force has fully implemented this policy.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation
Supplement authorizes progress payments based on a percentage or stage of completion only for construction of real
property, shipbuilding, and ship conversion, alteration, or repair. Progress payments based on percentage or stage of
completion are reported as Construction in Progress.

1.S. Contingencies and Other Liabilities

The Statement of Federal Financial Accounting Standards (SFFAS) No. 5, Accounting for Liabilities of the Federal
Government, as amended by SFFAS No. 12, Recognition of Contingent Liabilities Arising from Litigation, defines a
contingency as an existing condition, situation, or set of circumstances that involves an uncertainty as to possible gain or
loss. The uncertainty will be resolved when one or more future events occur or fail to occur. The Air Force recognizes
contingent liabilities when past events or exchange transactions occur, a future loss is probable, and the loss amount can
be reasonably estimated.
Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at
least a reasonable possibility of incurring a loss or additional losses. The Air Force’s risk of loss and resultant contingent
liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft and vehicle
accidents, medical malpractice, property or environmental damages, and contract disputes.

Other liabilities also arise as a result of anticipated disposal costs for Air Force assets. Consistent with SFFAS No. 6,
Accounting for Property, Plant, and Equipment, recognition of an anticipated environmental disposal liability begins when
the asset is placed into service. Based on DoD’s policy, which is consistent with SFFAS No. 5, Accounting for Liabilities of
the Federal Government, nonenvironmental disposal liabilities are recognized when management decides to dispose of
an asset. The DoD recognizes nonenvironmental disposal liabilities for military equipment nuclear-powered assets when
placed into service. These amounts are not easily distinguishable and are developed in conjunction with environmental
disposal costs. The Air Force does not recognize contingent liabilities associated with nonenvironmental disposals due to
immateriality.

1.T. Accrued Leave

The Air Force reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick leave for
civilians is expensed as taken. The liabilities are based on current pay rates.

1.U. Net Position

Net position consists of unexpended appropriations and cumulative results of operations.




                                                              24
                                                           Annual Financial Statement 2011
                                                                                            General Fund
                                                                         Notes to the Principal Statements

Unexpended appropriations represent the amounts of budget authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have
not been incurred.

Cumulative results of operations represent the net difference between expenses and losses, and financing sources
(including appropriations, revenue, and gains), since inception. The cumulative results of operations also include
donations and transfers in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases

The DoD has the use of land, buildings, and other overseas facilities that are obtained through various international
treaties and agreements negotiated by the Department of State. The Air Force purchases capital assets overseas with
appropriated funds; however, the host country retains title to the land and capital improvements. Treaty terms generally
allow Air Force continued use of these properties until the treaties expire. In the event treaties or other agreements are
terminated, use of the foreign bases is prohibited and losses are recorded for the value of any nonretrievable capital
assets. The settlement due to the U.S. or host nation is negotiated and takes into account the value of capital investments
and may be offset by the cost of environmental cleanup.

1.W. Undistributed Disbursements and Collections

Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S.
Treasury.

Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements
and collections do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable.
Supported undistributed disbursements and collections are then applied to reduce accounts payable and receivable
accordingly. Unsupported undistributed disbursements are recorded as disbursements in transit and reduce nonfederal
accounts payable. Unsupported undistributed collections are recorded in nonfederal other liabilities.

1.X. Fiduciary Activities

Fiduciary cash and other assets are not assets of the Air Force and are not recognized on the Balance Sheet. Fiduciary
activities are reported on the financial statement note schedules.

1.Y. Military Retirements and Other Federal Employment Benefits

Not applicable.

1.Z. Significant Events

Not applicable.




                                                            25
         United States Air Force
        General Fund
        Notes to the Principal Statements

 Note 2.         Nonentity Assets

                                                                                                    Restated
 As of September 30                                               2011                               2010
 (Amounts in thousands)

 1. Intragovernmental Assets
    A. Fund Balance with Treasury                   $                        126,641    $                        115,067
    B. Accounts Receivable                                                         0                                   0
    C. Other Assets                                                                0                                   0
    D. Total Intragovernmental Assets               $                        126,641    $                        115,067


 2. Nonfederal Assets
    A. Cash and Other Monetary Assets               $                          95,583   $                        108,828

    B. Accounts Receivable                                                   296,028                             299,716

    C. Other Assets                                                          184,825                             184,825
    D. Total Nonfederal Assets                      $                        576,436    $                        593,369


 3. Total Nonentity Assets                          $                        703,077    $                        708,436


 4. Total Entity Assets                             $                    306,065,578    $                    297,227,586



 5. Total Assets                                    $                    306,768,655    $                    297,936,022


Relevant Information for Comprehension

Nonentity assets are assets for which the Air Force maintains stewardship accountability and reporting responsibility but
are not available for the Air Force’s normal operations.

Intragovernmental Fund Balance with Treasury represents amounts in Air Force’s deposit fund and two suspense fund
accounts (Uniformed Services Thrift Savings Plan Suspense and Thrift Savings Plan Suspense) that are not available for
Air Force use.

Nonfederal Accounts Receivable include interest receivable that upon collection is remitted to the U.S. Treasury as
miscellaneous receipts.

Nonfederal Cash and Other Monetary Assets represent disbursing officers’ cash and undeposited collections as reported
on the Statement of Accountability (Standard Form 1219). These assets are held by the Air Force disbursing officers as
agents of the U.S. Treasury. The nonfederal cash and other monetary assets represent a fiduciary capacity held by Air
Force disbursing officers as agents for U.S. Treasury and are not available for use in operations.

Nonfederal Other Assets consist of advances to contractors as part of the advance payment pool agreements with the
Massachusetts Institute of Technology and other nonprofit institutions. These agreements are used for the financing of
cost-type contracts with nonprofit educational research institutions for experimental research and development work when
several contracts or a series of contracts require financing by advance payments. These funds are not available for use in
Air Force operations.


                                                            26
                                                             Annual Financial Statement 2011
                                                                                             General Fund
                                                                          Notes to the Principal Statements

 Note 3.          Fund Balance with Treasury


 As of September 30                                                    2011                               2010
 (Amounts in thousands)


 1. Fund Balances
    A. Appropriated Funds                                $                    109,948,002    $                 107,434,225
    B. Revolving Funds                                                                  0                                0
    C. Trust Funds                                                                 11,635                           15,728
    D. Special Funds                                                                2,046                            1,971
    E. Other Fund Types                                                           126,641                          115,067
    F. Total Fund Balances                               $                    110,088,324    $                 107,566,991



 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                         $                    111,739,128    $                 109,262,653
    B. Fund Balance per Agency                                                110,088,324                      107,566,991

 3. Reconciling Amount                                   $                      1,650,804    $                    1,695,662

Relevant Information for Comprehension

Other Fund Types include balances in deposit accounts which consist of taxes, small escrow accounts and other federal
payroll withholding allotments.

The Air Force shows a reconciling amount of $ (1.6) billion with U.S. Treasury, which is comprised of the net value of the
following:

$23 million in allocation transfers from Air force to the Department of Transportation. These funds are reported in Fund
Balance with Treasury (FBWT) by Air Force but are not included in FBWT at Treasury, because Treasury reports these
balances under Department of Transportation.

$23.7 million in allocation transfers to Air Force from the Department of Agriculture and the Foreign Military Sales-Military
Assistance Program (MAP). An allocation transfer occurs when the Treasury appropriates funds to one federal entity,
which then transfers the authority to execute its funds to another federal entity. Treasury reports these funds as Air Force
in the FBWT, but Air Force does not include in its FBWT because the Departments of Agriculture and MAP report these
balances in their financial statements.

$1.7 million in withdrawal of the FBWT for unavailable receipt accounts at September 30, 2011. These funds are included
in FBWT per Treasury but are not included in FBWT per Air Force.

$1.5 billion in withdrawal of the FBWT in the cancelling appropriations at September 30, 2011. These funds are included
in FBWT per Treasury but are not included in FBWT per Air Force.

$188.3 million of unavailable receipt accounts due to fiduciary activity consisting of the Savings Deposit Program (SDP).
The U.S. Treasury reported these funds as Air Force FBWT, but activity recorded within the SDP must be excluded from
the Air Force FBWT.

$0.4 million in allocation transfers from Department of Transportation to Air Force. Treasury reports these funds as Air
Force in the fund balance with Treasury (FBWT), but Air Force does not include in its FBWT because the Department of
Transportation reports these balances in their financial statements.


                                                             27
         United States Air Force
        General Fund
        Notes to the Principal Statements

 Status of Fund Balance with Treasury

 As of September 30                                               2011                                  2010
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                  $                        34,001,355    $                      32,543,409
    B. Unavailable                                                          4,005,666                            3,546,861

 2. Obligated Balance not yet Disbursed           $                        74,701,468    $                      74,007,637

 3. Nonbudgetary FBWT                             $                            413,385   $                         438,832

 4. NonFBWT Budgetary Accounts                    $                        (3,033,550)   $                      (2,969,748)

 5. Total                                         $                       110,088,324    $                     107,566,991


Relevant Information for Comprehension

The Status of FBWT reflects the budgetary resources to support the FBWT and is a reconciliation between budgetary and
proprietary accounts. It primarily consists of unobligated and obligated balances. The balances reflect the budgetary
authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. The unavailable balance consists primarily of funds invested
in U.S. Treasury securities that are temporarily precluded from obligation by law. Certain unobligated balances are
restricted for future use and are not apportioned for current use. Unobligated balances for trust fund accounts are
restricted for use by the public law that established the funds.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and
those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt
accounts, clearing accounts and nonentity FBWT. The items reported as Nonbudgetary FBWT account comprise the
FBWT for suspense, deposit and receipt accounts.

NonFBWT Budgetary Accounts reduce the Status of FBWT. The items that comprise the amount reported as NonFBWT
receipts are from investments and discounts in U.S. Treasury securities, and unfilled customer orders without advances.

Unobligated balances are segregated to show available and unavailable amounts in the note schedule. Certain
unobligated balances may be restricted to future use and are not apportioned for current use. The Unobligated Balance
Unavailable of $4 billion is not available for new obligations since the period for new obligations established by law has
expired.




                                                             28
                                                                     Annual Financial Statement 2011
                                                                                                              General Fund
                                                                                       Notes to the Principal Statements

 Note 4.             Investments and Related Interest

 As of September 30                                                                     2011
                                                       Amortization               Amortized                                           Market Value
                                             Cost                                                         Investments, Net
                                                           Method             (Premium) / Discount                                      Disclosure
(Amounts in thousands)
 1. Intragovernmental
    Securities
    A. Nonmarketable,
       Market-Based
       1. Military Retirement Fund    $          0                        $                     0    $                      0   $                  0
       2. Medicare Eligible Retiree
       Health Care Fund                          0                                              0                           0                      0
       3. US Army Corps of
       Engineers                                 0                                              0                           0                      0
       4. Other Funds                        1,077   Effective Interest                        (5)                   1,072                   1,072
       5. Total Nonmarketable,
       Market-Based                          1,077                                             (5)                   1,072                   1,072

   B. Accrued Interest                           6                                                                          6                      6
   C. Total
      Intragovernmental
      Securities                      $      1,083                        $                    (5)   $               1,078      $            1,078



 2. Other Investments
    A. Total Other
       Investments                    $          0                        $                     0    $                      0                  N/A



 As of September 30                                                                     2010
                                                     Amortization               Amortized                                           Market Value
                                          Cost                                                           Investments, Net
                                                       Method              (Premium) / Discount                                      Disclosure
 (Amounts in thousands)
 3. Intragovernmental
    Securities
    A. Nonmarketable,
       Market-Based
       1. Military Retirement Fund    $          0                        $                     0    $                      0   $                  0
       2. Medicare Eligible Retiree
       Health Care Fund                          0                                              0                           0                      0
       3. US Army Corps of
       Engineers                                 0                                               0                       0                       0
       4. Other Funds                        1,079   Effective Interest                        (6)                   1,073                   1,087
       5. Total Nonmarketable,
       Market-Based                          1,079                                             (6)                   1,073                   1,087

   B. Accrued Interest                           7                                                                          7                      7
   C. Total
      Intragovernmental
      Securities                      $      1,086                        $                    (6)   $               1,080      $            1,094

 4. Other Investments
    A. Total Other
       Investments                    $          0                        $                     0    $                      0                  N/A




                                                                      29
         United States Air Force
        General Fund
        Notes to the Principal Statements

Relevant Information for Comprehension

The U.S. Treasury securities are issued to the earmarked funds as evidence of its receipt and are an asset to the Air
Force and a liability to the U.S. Treasury. The Federal Government does not set aside assets to pay future benefits or
other expenditures associated with earmarked funds. The cash generated from earmarked funds are deposited in the U.S.
Treasury, which uses the cash for general Government purposes. Since the Air Force and the U.S. Treasury are both part
of the Federal Government, these assets and liabilities offset each other from the standpoint of the Federal Government
as a whole. For this reason, they do not represent an asset or a liability in the U.S. Governmentwide financial statements.

The U.S. Treasury securities provide the Air Force with authority to draw upon the U.S. Treasury to make future benefit
payments or other expenditures. When the Air Force requires redemption of these securities to make expenditures, the
Government will finance them from accumulated cash balances, by raising taxes or other receipts, borrowing from the
public or repaying less debt, or curtailing other expenditures. The Federal Government used the same method to finance
all other expenditures.

Intragovernmental Securities (Other Funds) primarily represents the Air Force Gift Fund investment in U.S. Treasury
Securities.




                                                            30
                                                           Annual Financial Statement 2011
                                                                                           General Fund
                                                                         Notes to the Principal Statements

 Note 5.         Accounts Receivable


 As of September 30                                                     2011
                                                               Allowance For Estimated
                               Gross Amount Due                                                Accounts Receivable, Net
                                                                      Uncollectibles
(Amounts in thousands)
 1. Intragovernmental
    Receivables           $                     588,063                             N/A    $                     588,063
 2. Nonfederal
    Receivables (From
    the Public)           $                     672,052    $                   (305,644)   $                     366,408

 3. Total Accounts
    Receivable            $                   1,260,115    $                   (305,644)   $                     954,471




 As of September 30                                                     2010
                                                                Allowance For Estimated
                                 Gross Amount Due                                              Accounts Receivable, Net
                                                                       Uncollectibles
 (Amounts in thousands)
 1. Intragovernmental
    Receivables            $                     415,493                             N/A   $                     415,493
 2. Nonfederal
    Receivables (From
    the Public)            $                     599,380    $                  (139,592)   $                     459,788

 3. Total Accounts
    Receivable             $                   1,014,873    $                  (139,592)   $                     875,281


Relevant Information for Comprehension

The accounts receivable represent the Air Force’s claim for payment from other entities. The Air Force only recognizes an
allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved in accordance with
the Intragovernmental Business Rules.

There was a change in the method of accounting for the Allowance for Estimated Uncollectibles due from the public.
During FY 2010, and for the first quarter of FY 2011, the allowance was computed based on the average annual write off
over a five-year period. In the second quarter of FY 2011, an analysis of collection experience by fund type was adopted
as the new method for calculating this allowance.




                                                           31
         United States Air Force
        General Fund
        Notes to the Principal Statements

 Note 6.          Other Assets


 As of September 30                                                           2011                          2010
 (Amounts in thousands)


 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                    $                   85,368    $                  93,765
    B. Other Assets                                                                         0                            0
    C. Total Intragovernmental Other Assets                        $                   85,368    $                  93,765

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                     $               11,854,206    $              11,288,053
    B. Advances and Prepayments                                                        69,772                       92,343
    C. Other Assets (With the Public)                                                 184,825                      184,825
    D. Total Nonfederal Other Assets                               $               12,108,803    $              11,565,221


 3. Total Other Assets                                             $               12,194,171    $              11,658,986


Relevant Information for Comprehension

Nonfederal Other Assets (With the Public) is comprised exclusively of Advance Payment Pool Agreements with nonprofit
educational institutions. These agreements are funded under cost-type contract procedures and are mainly for
experimental research and development requirements.

Contract terms and conditions for certain types of contract financing payments convey certain rights to the Federal
Government that protect the contract work from state or local taxation, liens or attachment by the contractor's creditors,
transfer of property, or disposition in bankruptcy. However, these rights should not be misconstrued to mean that
ownership of the contractor’s work has transferred to the Federal Government. The Federal Government does not have
the right to take the work, except as provided in contract clauses related to termination or acceptance, and Air Force is not
obligated to make payment to the contractor until delivery and acceptance

The balance of Outstanding Contract Financing Payments includes both $10.9 billion in contract financing payments and
$875.7 million in estimated future payments to contractors. These future payments are made to contractors upon delivery
and government acceptance of a satisfactory product. See additional discussion in Note 15, Other Liabilities.




                                                             32
                                                            Annual Financial Statement 2011
                                                                                           General Fund
                                                                         Notes to the Principal Statements

 Note 7.         Cash and Other Monetary Assets


 As of September 30                                                   2011                              2010
 (Amounts in thousands)

 1. Cash                                                $                         77,946   $                      95,365
 2. Foreign Currency                                                              17,638                          13,463
 3. Other Monetary Assets                                                              0                               0

 4. Total Cash, Foreign Currency, & Other
    Monetary Assets                                     $                         95,584   $                     108,828


Relevant Information for Comprehension

The amount reported as cash and foreign currency consists primarily of cash held by Disbursing Officers. The foreign
currency amount reported is valued at U.S. Treasury’s prevailing exchange rate, which is the most favorable rate available
to the Government for foreign exchange transactions. Foreign currency is primarily used to make vendor disbursements
and to exchange U.S. dollars for military personnel.

Cash and foreign currency are nonentity assets and, as such, considered restricted assets that are held by the Air Force
but are not available for use in its operations. These assets are held by Air Force Disbursing Officers as agents of U.S.
Treasury. The total balance of $95.5 million is restricted.



 Note 8.         Direct Loans and Loan Guarantees

Not applicable




                                                            33
          United States Air Force
        General Fund
        Notes to the Principal Statements

 Note 9.          Inventory and Related Property


 As of September 30                                                  2011                                  2010
 (Amounts in thousands)

 1. Inventory, Net                                    $                                0     $                             0
 2. Operating Materials & Supplies, Net                                       48,650,905                          49,698,922
 3. Stockpile Materiel, Net                                                            0                                   0

 4. Total                                             $                       48,650,905     $                    49,698,922


Relevant Information for Comprehension

General Composition of OM&S

The Operating Materials and Supplies (OM&S) include weapon systems spares, ammunition, tactical missiles, aerial
target drones, uninstalled aircraft and cruise missile engines, and uninstalled intercontinental ballistic missile motors.

In addition to the account balances shown in Note 9, the federal accounting standard requires disclosure of the amount of
OM&S held for future use. Except for an immaterial amount of munitions, the Air Force is not holding any items for future
use.

Restrictions on the Use of OM&S

The Air Force does not maintain any OM&S restricted assets.

Decision Criteria for Identifying the Category to Which OM&S Items Are Assigned

The category Held for Use includes all materials available for issuance. OM&S classified as such is marked within each
supply or inventory system.

The category Held for Repair generally includes all economically reparable materials as defined by the Military Standard
Transaction Reporting and Accounting Procedures Manual (DoD 4000.25-2-M).

The category Held as Excess, Obsolete, and Unserviceable includes all materials that managers determine to be more
costly to repair than to replace. Items retained for management purposes which are beyond economic repair are coded
“condemned.” These items are held until proper disposal can be made. Excess, Obsolete, and Unserviceable are valued
at zero. This allowance results in a zero value to the Air Force. The category Held for Repair represents suspended,
unserviceable (but reparable) items recorded at Moving Average Cost (MAC) or standard price.

Changes in the Criteria for Identifying the Category to Which OM&S Items Are Assigned

Under current DoD policy, no allowance is made for serviceable, ready-to-issue items (Held for Use). An allowance equal
to 100% of MAC or standard price, however, is made for the category Excess, Obsolete, and Unserviceable. This
allowance results in a net book value of zero to the Air Force. Excess, Obsolete, and Unserviceable are valued at zero.
The category Held for Repair represents suspended, unserviceable (but reparable) items recorded at MAC or standard
price.

Operating Materiel and Supplies (OM&S) Value

The OM&S data reported on the financial statements are derived from logistics systems designed for materials
management purposes. Some of these systems do not maintain the historical cost data necessary to comply with the


                                                              34
                                                           Annual Financial Statement 2011
                                                                                            General Fund
                                                                         Notes to the Principal Statements

valuation requirements of the Statement of Federal Financial Accounting Standards (SFFAS) No. 3, “Accounting for
Inventory and Related Property.”

In general, the Air Force uses the consumption method of accounting for OM&S, since OM&S is defined in SFFAS No. 3
as material that has not yet been issued to the end user. Once issued, the material is expensed. According to federal
accounting standards, the consumption method of accounting should be used to account for OM&S unless: (1) the
amount of OM&S is not significant, (2) OM&S are in the hands of the end user for use in normal operations, or (3) it is cost
beneficial to expense OM&S when purchased (purchase method).

Other Air Force Disclosures

In the past, the Air Force provided only minimal OM&S accounting data that can be used to prepare the financial
statements but has made considerable strides in improving the systems to provide actual transactions for completing the
financial statements. However, in some cases, the data provided still consists of only beginning and ending balances for
each of the asset accounts Held for Use; Excess, Obsolete, and Unserviceable; and Held for Repair. Without the required
additional data (acquisitions, transfers in, amounts consumed, transfers out, trading partner data, etc.), DFAS can only
report the net change between prior period ending balances and the values reported as current period ending balances.




                                                            35
          United States Air Force
        General Fund
        Notes to the Principal Statements




 Inventory, Net
Not applicable

 Operating Materials and Supplies, Net

 As of September 30                                                 2011
                                       OM&S
                                                                                                              Valuation
                                     Gross Value         Revaluation Allowance          OM&S, Net
                                                                                                               Method
 (Amounts in thousands)


 1. OM&S Categories
   A. Held for Use               $         37,183,077    $                     0    $        37,183,077    SP, LAC, MAC
   B. Held for Repair                      11,467,828                          0             11,467,828    SP, LAC, MAC
   C. Excess, Obsolete,
      and Unserviceable                      551,424                    (551,424)                      0         NRV

   D. Total                      $         49,202,329    $              (551,424)   $        48,650,905


 As of September 30                                                 2010
                                       OM&S
                                                                                                              Valuation
                                     Gross Value        Revaluation Allowance           OM&S, Net
                                                                                                               Method
 (Amounts in thousands)


 1. OM&S Categories
   A. Held for Use               $        38,568,458    $                      0    $        38,568,458    SP, LAC, MAC
   B. Held for Repair                     11,130,464                           0             11,130,464    SP, LAC, MAC
   C. Excess, Obsolete,
      and Unserviceable                      628,175                   (628,175)                       0         NRV

   D. Total                      $        50,327,097    $              (628,175)    $        49,698,922

 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                 NRV = Net Realizable Value                  MAC = Moving Average Cost
 SP = Standard Price                           LCM = Lower of Cost or Market
 AC = Actual Cost                              O = Other



 Stockpile Materiel, Net
Not applicable.




                                                               36
                                                                      Annual Financial Statement 2011
                                                                                                     General Fund
                                                                                    Notes to the Principal Statements



Note 10.             General Property, Plant & Equipment, Net


As of September 30                                                                  2011
                                   Depreciation/                                                   (Accumulated
                                                          Service               Acquisition                               Net Book
                                   Amortization                                                     Depreciation/
                                                           Life                     Value                                    Value
                                     Method                                                         Amortization)
(Amounts in thousands)


1. Major Asset Classes
   A. Land                              N/A                 N/A       $           408,291                    N/A    $      408,291
   B. Buildings, Structures, and
      Facilities                        S/L               20 Or 40              64,474,698    $     (32,831,874)         31,642,824

  C.Leasehold Improvements              S/L              Lease Term                 18,460               (5,020)            13,440

  D.Software                            S/L               2-5 Or 10               620,744              (382,707)           238,037

  E. General Equipment                  S/L               5 Or 10               45,957,562          (36,506,073)          9,451,489

  F. Military Equipment                 S/L               Various              296,659,522        (209,083,245)          87,576,277
  G.Shipbuilding
     (Construction-in-Progress)         N/A                 N/A                          0                     0                 0
  H.Assets Under Capital
     Lease                              S/L              Lease Term               372,563              (338,806)            33,757
  I. Construction-in- Progress
     (Excludes Military
     Equipment)                         N/A                 N/A                  5,420,007                   N/A          5,420,007

  J. Other                                                                               0                     0                 0

  K. Total General PP&E                                               $        413,931,847    $   (279,147,725)     $   134,784,122



1 Note 15 for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line       N/A = Not Applicable




                                                                          37
             United States Air Force
        General Fund
        Notes to the Principal Statements

                                                                            Restated
As of September 30
                                                                              2010
                                  Depreciation/                                             (Accumulated
                                                     Service              Acquisition                              Net Book
                                  Amortization                                               Depreciation/
                                                      Life                    Value                                   Value
                                    Method                                                   Amortization)
(Amounts in thousands)



1. Major Asset Classes
   A. Land                             N/A               N/A    $           404,614                   N/A    $      404,614
  B. Buildings, Structures, and
     Facilities                        S/L          20 Or 40              57,590,797    $    (30,869,458)         26,721,339


  C.Leasehold Improvements             S/L         Lease Term                      0                    0                 0


  D.Software                           S/L          2-5 Or 10               609,086             (363,203)           245,883


  E. General Equipment                 S/L           5 or 10              43,050,104         (34,347,120)          8,702,984


  F. Military Equipment                S/L           Various             289,068,304        (201,859,638)         87,208,666
  G.Shipbuilding
    (Construction-in-Progress)         N/A               N/A                       0                    0                 0
  H.Assets Under Capital
     Lease                             S/L         Lease Term               393,002             (341,086)            51,916
  I. Construction-in- Progress
     (Excludes Military
     Equipment)                        N/A               N/A               4,690,532                  N/A          4,690,532


  J. Other                                                                         0                    0                 0


  K. Total General PP&E                                         $        395,806,439    $   (267,780,505)    $   128,025,934



1 Note 15 for additional information on Capital Leases
Legend for Valuation Methods:
S/L = Straight Line       N/A = Not Applicable




                                                                    38
                                                             Annual Financial Statement 2011
                                                                                                General Fund
                                                                            Notes to the Principal Statements

Heritage Assets and Stewardship Land

 Categories                               Measure              Beginning           Additions        Deletions          Ending
                                          Quantity              Balance                                               Balance
 Buildings and Structures                 Each                     8,952                 258              634           8,576
 Archeological Sites                      Each                     2,195                 219                0           2,414
 Museum Collection Items (Objects,        Each                  125,756                3,899               46         129,609
      Not Including Fine Art)
 Museum Collection Items (Objects,        Each                     11,031                 108                 0          11,139
      Fine Art)


                                                 (Acres in Thousands)
 Facility                                                Beginning                                                    Ending
                         Facility Title                                       Additions           Deletions
 Code                                                      Balance                                                   Balance
 9110           Government Owned Land                        1,682                    0                 113            1,569
 9111           State Owned Land                                 0                    0                   0                0
 9120           Withdrawn Public land                        7,607                   52                   0            7,659
                Licensed and Permitted                         233                   15                   0              248
 9130                 Land
 9140           Public Land                                    192                    0                   1                 191
 9210           Land Easement                                  162                    0                   2                 160
 9220           In-leased Land                                  92                    1                   0                  93
 9230           Foreign Land                                   321                    0                  25                 296
 Grand Total                                                                                                             10,216
 TOTAL - All Other Lands                                                                                                  2,366
 TOTAL – Stewardship Lands                                                                                                7,850


Relevant Information for Comprehension

General Property, Plant and Equipment (PP&E)

There are restrictions on the Air Force’s ability to dispose of real property (land and buildings) located outside the
continental United States.

Due to lack of historical data, in the past the Air Force estimated historical values for capitalized military equipment using
current departmental internal records. Currently, the Air Force uses actual acquisition cost for capitalizing military
equipment. A Prior Period Adjustment (PPA) was made during FY 2011 to correct acquisition costs that had been
incorrectly entered into the asset record keeping system. FY 2010 amounts have been restated to reflect correct
Acquisition Values, Accumulated Depreciation, and Net Book Values. Refer to Note 26 for additional information.

Other Air Force Disclosures

The value of the Air Force’s General PP&E real property in the possession of contractors is included in the values
reported for the major asset classes of Land and Buildings, Structures, and Facilities. The value of General PP&E
personal property major asset class of Software and Equipment does not include all of the General PP&E above the DoD
capitalization threshold in the possession of contractors. The Air Force does not report the value of equipment purchased
directly by the contractor. The Inspector General, DoD, and the Air Force are developing new policies and a contractor
reporting process to capture General PP&E information for future reporting purposes in compliance with generally
accepted accounting principles.




                                                              39
          United States Air Force
        General Fund
        Notes to the Principal Statements

Heritage Assets and Stewardship Land

The Air Force’s overall mission is to deliver sovereign options for the Defense of the United States of America and its
global interests to fly, fight, and win in air, space, and cyberspace. As this mission has been executed, Air Force has
become a large-scale owner of historic buildings, structures, archeological sites and artifacts, aircraft, other cultural
resources, and stewardship land. The protection of the nation’s heritage assets and stewardship land is an important
aspect of the Air Force’s mission.

Heritage Assets are PP&E of historical, natural, cultural, educational or artistic significance (e.g. aesthetic); or with
significant architectural characteristics. Heritage Assets and Stewardship Land are resources that protect, restore,
enhance, modernize, preserve and sustain mission capability within the Air Force through effective planning and
management of natural and cultural resources to guarantee access to air, land, and water. These assets are resources
that are managed to provide multiple-use activities for the public benefit. This includes actions to comply with
requirements such as federal laws, Executive Orders, policies, final governing standards, and other binding agreements.
Air Force policy is to promote and preserve indefinitely the identifiable human, environmental or civic value of these
assets.

Stewardship Land comprises land and land rights other than that acquired for or in connection with General PP&E, land
acquired via the public domain, or land acquired at no cost. Air Force policy is to promote and preserve indefinitely the
identifiable human, environmental or civic value of such land

The Air Force has 7,850,000 acres of mission-essential Stewardship Land under its administration. Land purchased by
the Air Force with the intent to construct buildings or facilities is considered PP&E and is reported on the balance sheet.
All stewardship land, as reported, is in an acceptable condition, based on designated use.

Heritage Assets within the Air Force consist of buildings and structures, archeological sites, museum collection items
(objects, not including fine art), and museum collection items (fine art). The Air Force’s accounting systems generally do
not capture information relative to heritage assets separately and distinctly from normal operations. Although the
underlying accounting and recordkeeping systems track the quantities of these assets, and, in some cases, their historical
cost, information regarding their fair market value is not readily available.

Buildings and Structures: Buildings and Structures are listed on, or eligible for listing on the National Register of
Historic Places (NRHP), including multi-use Heritage Assets. These buildings and structures are maintained in
accordance with the National Historic Preservation Act (NHPA) by each base’s civil engineering group as part of their
overall responsibility. The Air Force reported 8,576 buildings and structures on Air Force installations and sites to be
Heritage Assets at the end of FY 2011. This number shows that 258 Heritage Assets were added to the AF inventory in
FY 2011. The increase reflects the ongoing annual responsibility of Air Force to survey and evaluate the NRHP eligibility
of buildings and structures as they approach 50 years of age, as required by the NHPA. There were 634 Heritage Assets
deleted in FY 2011 due to non-Heritage Assets being listed as Heritage Assets on the FY 2010 report. FY 2010 ending
balance total should have been 8,318. This adjustment was determined after several refinements of the data queries were
done in 2011. The number of Heritage Asset buildings and structures is nearly 6% of the total building inventory, which
equals 143,218 buildings and structures owned or controlled by the Air Force.

Heritage Asset buildings and structures are maintained by each base civil engineering group and are considered to be in
good condition. These buildings and structures are subject to the NHPA, Section 106 review and consultation
requirements whenever Air Force undertakings might affect their historic characteristics. Section 106 reviews ensure
State Historic Preservation Officers, tribal, and other party concerns are taken into account when Air Force decides to
adversely affect Heritage Asset buildings and structures.

Archeological Sites: Prehistoric and historic archaeological sites that have been identified, evaluated, and determined to
be eligible for or are listed on the NRHP in accordance with Section 110 NHPA. The Air Force reports 2,414
archeological sites on or eligible for listing on the National Register at the end of FY 2011. This number reflects an
increase of 219 during FY 2011. This cohort of archaeological Heritage Assets is a subset of just nearly 18,000
archaeological sites recorded on Air Force controlled and owned lands in the USA and its Territories.

Museum Collection Items, Objects Not Including Fine Art: This represents the number of objects which meet the
criteria for historical property as defined in Air Force Instruction 84-103 and that have been evaluated, accessioned, and


                                                              40
                                                            Annual Financial Statement 2011
                                                                                               General Fund
                                                                          Notes to the Principal Statements

catalogued in the Air Force national historical collection. The National Museum of the United States Air Force (NMUSAF)
performs inherently governmental functions by fulfilling statutory requirements delegated by the Secretary of the Air Force
for management of the Air Force’s national historic collection. The NMUSAF is fully accredited by the American
Association of Museums.

During the period 1 October 2010 – 30 September 2011 there have been 3,899 objects added to the collection. These
additions are a result of private donations, transfers from Air Force or other federal entities, curatorial administrative
actions, and the continued documentation of newly reported artifacts at Air Force activities worldwide. Among the new
accessions are significant artifacts donated by past Air Force Chief of Staff General Ronald R. Fogleman as well as a C-
130E “Hercules” aircraft with a distinguished combat record including two Air Force Cross decorations for crewmen.
Forty-six objects were deaccessioned from the collection as having been determined not to meet historic property criteria,
were in poor condition, or were transferred to other federal historical activities. As part of the NMUSAF’s active collection
management process, the accession and deaccession of objects is continuous.

The overall condition of the historic collection, which is primarily located at the NMUSAF, is very good as a result of both
the professional care from trained conservators and ever improving exhibit/storage conditions. During FY 2011 restoration
was completed on the museum’s HH-3 “Jolly Green Giant” rescue helicopter with a notable combat history which is now a
centerpiece exhibit in the SEA War Gallery. Detailed restoration work continues on the Douglas A-1H “Skyraider”, the
iconic B-17D “Swoose”, and B-17F “Memphis Belle”.

Museum Collection Items, Fine Art: The art collection contains original oils, drawings, sketches and sculptures. For FY
2011, the Air Force Art Program has received 20 additions from the Air Force Art Program and 88 pieces of fine art from
the National Museum of the United States Air Force. These paintings were in direct result of the artists visiting bases and
operations throughout the Air Force. Included in the above number are fine art paintings inclusive of the NMUSAF holding.

The collection is maintained and kept in good condition. Each year during the annual inventory, Air Force Art Program
Office (AFAPO) requests the condition of the paintings to assure the maintenance continues to be a constant.



 Assets Under Capital Lease

                                                                                                         Restated
As of September 30
                                                                          2011                            2010
(Amounts in thousands)



1. Entity as Lessee, Assets Under Capital Lease
   A. Land and Buildings                                     $                      372,563 $                        393,002

    B. Equipment                                                                           0                               0

    C. Accumulated Amortization                                                    (338,806)                        (341,086)


    D. Total Capital Leases                                  $                       33,757 $                         51,916




                                                             41
         United States Air Force
        General Fund
        Notes to the Principal Statements

 Note 11.         Liabilities Not Covered by Budgetary Resources


 As of September 30                                                         2011                           2010
 (Amounts in thousands)

 1. Intragovernmental Liabilities
    A. Accounts Payable                                        $                           0    $                        0
    B. Debt                                                                                0                             0
    C. Other                                                                         355,740                       396,280
    D. Total Intragovernmental Liabilities                     $                     355,740    $                  396,280

 2. Nonfederal Liabilities
    A. Accounts Payable                                        $                     410,321    $                  732,645
    B. Military Retirement and
       Other Federal Employment Benefits                                            1,118,609                    1,101,149
    C. Environmental Liabilities                                                    9,596,842                    7,920,935
    D. Other Liabilities                                                            3,000,313                    2,695,267
    E. Total Nonfederal Liabilities                            $                   14,126,085   $               12,449,996

 3. Total Liabilities Not Covered by Budgetary
    Resources                                                  $                   14,481,825   $               12,846,276


 4. Total Liabilities Covered by Budgetary Resources           $                   10,285,058   $               11,781,986

 5. Total Liabilities                                          $                   24,766,883   $               24,628,262


Relevant Information for Comprehension

Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional action is needed before
budgetary resources can be provided.

The material amounts and sensitive areas included in Total Liabilities Not Covered by Budgetary Resources are
categorized as not covered because there is no current or immediate appropriation available for liquidation. These
liabilities will require resources funded from future year appropriations. The Air Force fully expects to receive the
necessary resources to cover these liabilities in future years.

Other Intragovernmental Liabilities are primarily comprised of Federal Employees’ Compensation Act (FECA) liabilities to
the Department of Labor and other unfunded employment related liabilities.

Other Nonfederal Liabilities are primarily comprised of the amounts recorded for unpaid leave earned to which an
employee is entitled upon separation and for contingent liabilities which are probable and measurable and will require
resources funded from future years’ appropriations.

Military Retirement and Other Federal Employment Benefits consists of various employee actuarial liabilities not due and
payable during the current fiscal year. These liabilities primarily consist of the amount recorded by employer agencies for
the actuarial present value of future FECA benefits provided to federal employees or their beneficiaries as a result of work
related deaths, disability, or occupational disease. Refer to Note 17, Military Retirement and Other Federal Employment
Benefits, for additional details and disclosures.




                                                             42
                                                           Annual Financial Statement 2011
                                                                                             General Fund
                                                                          Notes to the Principal Statements

 Note 12.        Accounts Payable


 As of September 30                                                              2011

                                                                      Interest, Penalties, and
                                              Accounts Payable                                           Total
                                                                        Administrative Fees

 (Amounts in thousands)

 1. Intragovernmental Payables            $           2,553,974   $                         N/A   $           2,553,974

 2. Nonfederal Payables (to the Public)               3,013,900                              35               3,013,935

 3. Total                                 $           5,567,874   $                          35   $           5,567,909


 As of September 30                                                              2010

                                                                      Interest, Penalties, and
                                              Accounts Payable                                           Total
                                                                        Administrative Fees

 (Amounts in thousands)

 1. Intragovernmental Payables            $           2,375,974   $                         N/A   $           2,375,974

 2. Nonfederal Payables (to the Public)               3,719,716                              18               3,719,734

 3. Total                                 $           6,095,690   $                          18   $           6,095,708


Relevant Information for Comprehension

Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by Air Force.
The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
accounts payable are adjusted to agree with intra-agency seller-side accounts receivable. Accounts Payable were
adjusted by accruing additional accounts payable and expenses.



 Note 13.        Debt

Not applicable




                                                            43
        United States Air Force
      General Fund
      Notes to the Principal Statements

Note 14.       Environmental Liabilities and Disposal Liabilities

As of September 30
                                                                          2011                2010
(Amounts in thousands)


1. Environmental Liabilities--Nonfederal

A. Accrued Environmental Restoration Liabilities
 1. Active Installations—Installation Restoration Program (IRP) and
    Building Demolition and Debris Removal (BD/DR)                    $     6,246,261     $     3,122,970
 2. Active Installations—Military Munitions Response Program (MMRP)           351,864           1,891,588
 3. Formerly Used Defense Sites—IRP and BD/DR                                       0                   0
 4. Formerly Used Defense Sites--MMRP                                               0                   0

B. Other Accrued Environmental Liabilities—Non-BRAC
 1. Environmental Corrective Action                                            15,489              14,772
 2. Environmental Closure Requirements                                      1,253,417           1,253,417
 3. Environmental Response at Operational Ranges                                    0                   0
 4. Asbestos                                                                  888,960             888,960
 5. Non-Military Equipment                                                     34,175              34,175
 6. Other                                                                           0                   0

C. Base Realignment and Closure Installations
 1. Installation Restoration Program                                        1,646,347           1,583,186
 2. Military Munitions Response Program                                        13,073               7,303
 3. Environmental Corrective Action / Closure Requirements                     78,635               6,579
 4. Asbestos                                                                        0                   0
 5. Non-Military Equipment                                                          0                   0
 6. Other                                                                           0                   0

D. Environmental Disposal for Military Equipment / Weapons Programs
 1. Nuclear Powered Military Equipment / Spent Nuclear Fuel                           0                   0
 2. Non-Nuclear Powered Military Equipment                                       36,402              36,402
 3. Other Weapons Systems                                                             0                   0

E. Chemical Weapons Disposal Program
 1. Chemical Demilitarization - Chemical Materials Agency (CMA)                      0                   0
 2. Chemical Demilitarization - Assembled Chemical Weapons
    Alternatives (ACWA)                                                              0                   0
 3. Other                                                                            0                   0

2. Total Environmental Liabilities                                    $    10,564,623     $     8,839,352




                                                        44
                                                            Annual Financial Statement 2011
                                                                                             General Fund
                                                                          Notes to the Principal Statements

Relevant Information for Comprehension

Other Information Related to Environmental Liabilities

An environmental liability is a probable and measurable future outflow or expenditure of resources that exists as of the
financial reporting date for environmental cleanup costs resulting from past transactions or events. The Air Force
acknowledges that liabilities can change for environmental cleanup costs to include (1) costs associated with
environmental restoration of sites funded under the Air Force portion of the Defense Environmental Restorations Program
(DERP); (2) corrective actions funded with other than DERP, Base Realignment and Closure (BRAC); and (3)
environmental costs associated with future closure or disposal of facilities, equipment, asbestos, and weapon systems.
These costs include researching and determining the existence of hazardous waste; removing, containing, and/or
disposing of hazardous waste from property; or material and property that consist of hazardous waste at the time of
shutdown or disposal of the asset. Cleanup costs may include, but are not limited to, decontamination, decommissioning,
site restoration, site monitoring, closure, and post closure costs related to Air Force operations that result in hazardous
waste.

The unrecognized portion of the estimated total cleanup costs associated with general property, plant, and equipment is
$373.0 million.

Applicable Laws and Regulations for Cleanup Requirements

The Air Force is required to clean up contamination resulting from past waste disposal practices, leaks, spills and other
past activity, which has created a public human health or environmental risk. Air Force does this in coordination with
regulatory agencies and, if applicable, with other responsible parties. The Air Force is also required to recognize closure,
post closure and disposal costs for its Property, Plant and Equipment (PP&E) and environmental corrective action costs
for current operations. The Air Force is responsible for tracking and reporting all required environmental information
related to environmental restoration and corrective action, closure and disposal costs of PP&E, and environmental costs
related to BRAC actions that have taken place in prior years. Applicable laws and regulations for cleanup requirements
are:

Comprehensive Environmental Response, Compensation, and Liability Act (CERCLA)
Superfund Amendments and Reauthorization Act (SARA)
Clean Water Act
Safe Drinking Water Act
Clean Air Act
Resource Conservation and Recovery Act (RCRA)
Toxic Substances Control Act (TSCA)
Medical Waste Tracking Act
Atomic Energy Act
Nuclear Waste Policy Act
Low Level Radioactive Waste Policy Amendments Act

Types of Environmental Liabilities Identified

The Air Force has environmental liabilities for cleanup requirements for active installations: Installation Restoration
Program, Building Demolition and Debris Removal, Military Munitions Response Program, and Environmental Corrective
Action. The Air Force also has environmental liabilities for cleanup requirements at BRAC installations. Finally, the Air
Force has identified environmental liabilities for closure and disposal of PP&E to include facilities, general equipment,
asbestos, and weapon systems. All cleanup is done in coordination with regulatory agencies, other responsible parties,
and current property owners.

Method for Assigning Estimated Total Cleanup Costs to Current Operating Periods

The Air Force uses engineering estimates and independently validated models to estimate environmental cleanup costs.
The models are either developed within the Remedial Action Cost Engineering Requirements application, or a historic
comparable project, a specific bid, or an independent government cost estimate is referenced for the current project. The
Air Force validates the models in accordance with DoD Instruction 5000.61 and uses the models to estimate


                                                             45
          United States Air Force
        General Fund
        Notes to the Principal Statements

environmental cleanup costs based on data received during a preliminary assessment and initial site investigation. The Air
Force primarily uses engineering estimates after obtaining data during the remedial investigation/feasibility phase of the
environmental project.

Once the environmental cleanup cost estimates are complete, Air Force will comply with accounting standards to assign
costs to current operating periods. The Air Force Accrued Environmental Restoration Liability is accounted for as a totally
self contained program. All direct and indirect costs of the program are captured and reported. The Air Force has already
expensed the costs for cleanup associated with General PP&E placed into service prior to October 1, 1997, unless the
costs are intended to be recovered through user charges. If the costs are recovered through user charges, the Air Force
expenses cleanup costs associated with that portion of the asset life that has passed since the General PP&E was placed
into service. The Air Force systematically recognizes the remaining cost over the life of the assets.

The accounting standards also require environmental liabilities recognized for closure and disposal requirements. Air
Force has closure requirements or disposal liabilities at active installations. Closure and disposal liabilities for facilities
(including landfills), asbestos, general equipment and weapon systems are estimated for the applicable inventory of real
property, general equipment and weapon systems. Air Force uses a set of historical disposal factors to estimate the
environmental disposal liability for each asset and the estimated closure and monitoring cost for landfills. The current
liability for these classes of assets is determined from the related disposal programs including the resources expected to
be expended in the next year from prior and future budgets.

For General PP&E placed into service after September 30, 1997, the Air Force expenses associated environmental costs
systematically over the life of the asset using two methods: physical capacity for operating landfills and life expectancy in
years for all other assets. The Air Force expenses the full cost to clean up contamination for Stewardship PP&E at the
time the asset is placed into service.

Nature of Estimates and the Disclosure of Information Regarding Possible Changes Due to Inflation, Deflation,
Technology, or Applicable Laws and Regulations

The Air Force is not aware of any pending changes to reported values of Environmental Liabilities but recognizes that
changes may occur in the future due to changes in laws and regulations, changes in agreements with regulatory
agencies, and advances in technology.

Uncertainty Regarding the Accounting Estimates Used to Calculate the Reported Environmental Liabilities

The environmental liabilities for the Air Force are based on accounting estimates, which require certain judgments and
assumptions that are reasonable based upon information available at the time the estimates are calculated. The actual
results may materially vary from the accounting estimates if agreements with regulatory agencies require remediation to a
different degree than anticipated when calculating the estimates. Liabilities can be further affected if investigation of the
environmental sites reveals contamination levels that differ from the estimate parameters.

The Air Force has the potential to incur costs for restoration initiatives in conjunction with returning overseas Defense
facilities to host nations. The Air Force is unable to provide a reasonable estimate at this time because the extent of
required restoration is unknown.




                                                               46
                                                        Annual Financial Statement 2011
                                                                                       General Fund
                                                                     Notes to the Principal Statements

Note 15.        Other Liabilities

As of September 30
                                                                                      2011
                                                                 Current            Noncurrent
                                                                                                         Total
                                                                 Liability           Liability
   (Amounts in thousands)

1. Intragovernmental
   A. Advances from Others                                   $        775,017   $              0     $     775,017
   B. Deposit Funds and Suspense Account Liabilities                  286,744                  0           286,744
   C. Disbursing Officer Cash                                         282,156                  0           282,156
   D. Judgment Fund Liabilities                                        46,327                  0            46,327
   E. FECA Reimbursement to the Department of Labor                   107,062            145,379           252,441
   F. Custodial Liabilities                                                 0            294,281           294,281
   G. Employer Contribution and Payroll Taxes Payable                  35,059                  0            35,059
   H. Other Liabilities                                                57,310                  0            57,310
   I. Total Intragovernmental Other Liabilities              $      1,589,675   $        439,660     $   2,029,335

2. Nonfederal
   A. Accrued Funded Payroll and Benefits                    $      1,038,388   $                0   $   1,038,388
   B. Advances from Others                                             43,375                    0          43,375
   C. Deferred Credits                                                      0                    0               0
   D. Deposit Funds and Suspense Accounts                             130,133                    0         130,133
   E. Temporary Early Retirement Authority                                  0                    0               0
   F. Nonenvironmental Disposal Liabilities
        (1) Military Equipment (Nonnuclear)                                 0                  0                 0
        (2) Excess/Obsolete Structures                                      0                  0                 0
        (3) Conventional Munitions Disposal                                 0                  0                 0
   G. Accrued Unfunded Annual Leave                                 2,645,982                  0         2,645,982
   H. Capital Lease Liability                                           7,155             28,128            35,283
    I. Contract Holdbacks                                             101,974                  0           101,974
   J. Employer Contribution and Payroll Taxes Payable                 226,373                  0           226,373
   K. Contingent Liabilities                                          875,791            354,027         1,229,818
   L. Other Liabilities                                                27,547                  0            27,547
   M. Total Nonfederal Other Liabilities                     $      5,096,718   $        382,155     $   5,478,873

3. Total Other Liabilities                                   $      6,686,393   $        821,815     $   7,508,208




                                                        47
        United States Air Force
      General Fund
      Notes to the Principal Statements

As of September 30
                                                                                      2010
                                                                 Current             Noncurrent
                                                                                                          Total
                                                                 Liability            Liability
(Amounts in thousands)

1. Intragovernmental
   A. Advances from Others                                   $         778,925   $             0      $     778,925
   B. Deposit Funds and Suspense Account Liabilities                   323,765                 0            323,765
   C. Disbursing Officer Cash                                          300,055                 0            300,055
   D. Judgment Fund Liabilities                                         43,850                 0             43,850
   E. FECA Reimbursement to the Department of Labor                    131,294           168,437            299,731
   F. Custodial Liabilities                                                  0           293,314            293,314
   G. Employer Contribution and Payroll Taxes Payable                   88,406                 0             88,406
       H. Other Liabilities                                             53,092                 0             53,092
    I. Total Intragovernmental Other Liabilities             $       1,719,387   $       461,751      $   2,181,138

2. Nonfederal
   A. Accrued Funded Payroll and Benefits                    $       2,389,341   $                0   $   2,389,341
   B. Advances from Others                                              32,344                    0          32,344
   C. Deferred Credits                                                       0                    0               0
   D. Deposit Funds and Suspense Accounts                              115,160                    0         115,160
   E. Temporary Early Retirement Authority                                   0                    0               0
   F. Nonenvironmental Disposal Liabilities
       (1) Military Equipment (Nonnuclear)                                   0                 0                  0
       (2) Excess/Obsolete Structures                                        0                 0                  0
       (3) Conventional Munitions Disposal                                   0                 0                  0
   G. Accrued Unfunded Annual Leave                                  2,572,254                 0          2,572,254
   H. Capital Lease Liability                                            8,262            59,992             68,254
   I. Contract Holdbacks                                               128,311                 0            128,311
   J. Employer Contribution and Payroll Taxes Payable                  263,907                 0            263,907
      K. Contingent Liabilities                                        648,851           117,558            766,409
   L. Other Liabilities                                                 66,722                 0             66,722
   M. Total Nonfederal Other Liabilities                     $       6,225,152   $       177,550      $   6,402,702

3. Total Other Liabilities                                   $       7,944,539   $       639,301      $   8,583,840




                                                        48
                                                           Annual Financial Statement 2011
                                                                                            General Fund
                                                                         Notes to the Principal Statements

Relevant Information for Comprehension

Intragovernmental Other Liabilities represent government contributions for employee benefits and unemployment
compensation.

Nonfederal Other Liabilities reflect accrued moving allowance and miscellaneous expenses to contractors.

Contingent Liabilities include $875.7 million related to contracts authorizing progress payments based on cost as defined
in the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work
vests with the Federal Government when a specific type of contract financing payment is made. This action protects
taxpayer funds in the event of contract nonperformance. These rights should not be misconstrued as rights of ownership.
The Air Force is under no obligation to pay contractors for amounts greater than the amounts authorized in contracts until
delivery and government acceptance. Due to the probability the contractors will complete their efforts and deliver
satisfactory products, and because the amount of potential future payments are estimable, the Air Force has recognized a
contingent liability for estimated future payments which are conditional pending delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs
incurred to date by contractors and amounts authorized to be paid under progress payments based on cost provisions
within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress
payments based on cost by the contract-authorized progress payment rate. The balance of unliquidated progress
payments based on cost is deducted from the estimated total contractor-incurred costs to determine the contingency
amount.

Estimation Methodology

The Air Force General Counsel, through legal determination, assesses and categorizes all contingent legal liability cases
that equal or exceed the materiality threshold set by Department of Defense Inspector General (DoDIG). For the
remaining cases falling below the dollar materiality threshold set by DoDIG, they are considered in aggregate, if the total
amount of the cases equal or exceed the established materiality threshold.

The Air Force General Counsel also solicits case data through quarterly data calls from the Air Force JAC (Judge
Advocate Civil Lawsuits and Litigation Directorate). Air Force financial management personnel use the solicited case data,
which include the current reporting year and each of the prior two years, to estimate the amounts of probable and
reasonably possible contingent liabilities. See Note 16 for detailed disclosure of contingent liabilities.

Air Force financial management personnel use a three-year prior case analysis spreadsheet, which was developed by the
Air Force Audit Agency, to calculate and estimate the amount of contingent liabilities (probable and reasonably possible)
for reporting or disclosing in the quarterly financial statements. In cases where Air Force General Counsel discloses that a
judgment has been awarded against the Air Force, these amounts will be reported on the Balance Sheet and within this
note.




                                                             49
         United States Air Force
        General Fund
        Notes to the Principal Statements

 Capital Lease Liability

 As of September 30
                                                                              2011
                                                                          Asset Category
                                                   Land and
                                                                     Equipment           Other           Total
                                                   Buildings
  (Amounts in thousands)
 1. Future Payments Due
   A. 2012                                     $        36,786   $               0   $           0   $           36,786
   B. 2013                                              13,088                   0               0               13,088
   C. 2014                                               9,462                   0               0                9,462
   D. 2015                                               8,688                   0               0                8,688
   E. 2016                                               8,688                   0               0                8,688
   F. After 5 Years                                          0                   0               0                    0

   G. Total Future Lease Payments Due          $        76,712   $               0   $           0   $           76,712
   H. Less: Imputed Interest Executory Costs            41,429                   0               0               41,429

   I. Net Capital Lease Liability              $        35,283   $               0   $           0   $           35,283

 2. Capital Lease Liabilities Covered by Budgetary Resources                                         $           35,283

 3. Capital Lease Liabilities Not Covered by Budgetary Resources                                     $               0


As of September 30
                                                                              2010
                                                                          Asset Category
                                                   Land and
                                                                     Equipment           Other           Total
                                                   Buildings
 (Amounts in thousands)
1. Future Payments Due
  A. 2011                                      $        36,786   $               0   $           0   $           36,786
  B. 2012                                               13,088                   0               0               13,088
  C. 2013                                                9,462                   0               0                9,462
  D. 2014                                                8,688                   0               0                8,688
  E. 2015                                                8,688                   0               0                8,688
  F. After 5 Years                                           0                   0               0                    0

 G. Total Future Lease Payments Due            $        76,712   $               0   $           0   $           76,712
 H. Less: Imputed Interest Executory Costs               8,458                   0               0                8,458

 I. Net Capital Lease Liability                $        68,254   $               0   $           0   $           68,254

2. Capital Lease Liabilities Covered by Budgetary Resources                                          $           63,104

3. Capital Lease Liabilities Not Covered by Budgetary Resources                                      $            5,150



                                                         50
                                                            Annual Financial Statement 2011
                                                                                              General Fund
                                                                          Notes to the Principal Statements

 Note 16.         Commitments and Contingencies

The Air Force is a party in various administrative proceedings and legal actions related to claims for environmental
damage, equal opportunity matters, and contractual bid protests.

The Air Force has accrued contingent liabilities for legal actions where the Secretary of the Air Force General Counsel
(SAF/GC) considers an adverse decision probable and the amount of loss measurable. In the event of an adverse
judgment against the Government, some of the liabilities may be payable from the U.S. Treasury Judgment Fund. The Air
Force records contingent liabilities in Note 15, Other Liabilities.

Claims and litigation from Civil Law having a reasonably possible liability are estimated at $346.7 million. Neither past
payments nor the current contingent liability estimate provides a basis for accurately projecting the results of any
individual lawsuit or claim. Since monetary judgments paid to civil litigants come from a judgment fund administrated by
U.S. Treasury, it is uncertain that claims will become a liability to the Air Force.

The amounts disclosed for litigation claims and assessments are fully supportable and must agree with Force’s legal
representation letters and management summary schedule.

The amount of obligations related to cancelled appropriations for which the reporting entity has a contractual commitment
for payment is $747.1 million.

The Air Force is a party in numerous individual contracts that contain clauses, such as price escalation, award fee
payments, or dispute resolution, that may or may not result in a future outflow of expenditures. Currently, Air Force has
limited automated system processes by which it captures or assesses these potential contingent liabilities; therefore, the
amounts reported may not fairly present the Air Force’s contingent liabilities.

The estimated probable liability amount of $1.2 billion was recognized in Note 15 as contingent liabilities.

The recognized contingent liability includes $875.8 million in estimated future contract financing payments that will be paid
to contractors upon delivery and government acceptance. See Note 15 for additional details.

In addition, Air Force recognized the total estimated probable liability for claims and litigation against the Air Force,
handled by the Civil Law and Litigation Directorate, as of September 30, 2011, valued at $354 million, included in
Nonfederal Contingent Liabilities. As of September 30, 2011, the Air Force was party to 6,051 claims and litigation
actions. This liability dollar amount recorded in the financial statements is an estimate based on the weighted average
payout rate for the previous three years. There are only two types of cases where U.S. Treasury will seek reimbursements
from the affected agency, the Contract Dispute Act cases and select Federal Government personnel disciplinary matters.

The SAF/GC developed the estimating methodology for the contingent liabilities recognized in Note 15.

In cases where SAF/GC disclosed that a judgment has been awarded against the Air Force, these amounts were reported
on the Balance Sheet and within Note 15.




                                                             51
        United States Air Force
       General Fund
       Notes to the Principal Statements

Note 17.        Military Retirement and Other Federal Employment Benefits


As of September 30                                                                            2011
                                                                                          (Less: Assets
                                                                                                                Unfunded
                                                                       Liabilities       Available to Pay
                                                                                                                Liabilities
                                                                                            Benefits)
(Amounts in thousands)

1. Pension and Health Benefits
  A. Military Retirement Pensions                                  $                 0   $              0   $                 0
  B. Military Pre Medicare-Eligible Retiree Health Benefits                          0                  0                     0
  C. Military Medicare-Eligible Retiree Health Benefits                              0                  0                     0
  D. Total Pension and Health Benefits                             $                 0   $              0   $                 0
2. Other Benefits
  A. FECA                                                          $       1,118,609     $              0   $       1,118,609
  B. Voluntary Separation Incentive Programs                                       0                    0                   0
  C. DoD Education Benefits Fund                                                   0                    0                   0
  D. Other                                                                     7,534              (7,534)                   0
  E. Total Other Benefits                                          $       1,126,143     $        (7,534)   $       1,118,609

3. Total Military Retirement and Other Federal
   Employment Benefits:                                            $       1,126,143     $        (7,534)   $       1,118,609




As of September 30                                                                             2010
                                                                                          (Less: Assets
                                                                                                                Unfunded
                                                                       Liabilities       Available to Pay
                                                                                                                Liabilities
                                                                                            Benefits)
(Amounts in thousands)
1. Pension and Health Benefits
  A. Military Retirement Pensions                                  $                 0   $              0   $                 0
  B. Military Pre Medicare-Eligible Retiree Health Benefits                          0                  0                     0
  C. Military Medicare-Eligible Retiree Health Benefits                              0                  0                     0
  D. Total Pension and Health Benefits                             $                 0   $              0   $                 0
2. Other Benefits
  A. FECA                                                          $       1,101,150     $              0   $       1,101,150
  B. Voluntary Separation Incentive Programs                                       0                    0                   0
  C. DoD Education Benefits Fund                                                   0                    0                   0
  D. Other                                                                     8,213              (8,213)                   0
  E. Total Other Benefits                                          $       1,109,363     $        (8,213)   $       1,101,150

3. Total Military Retirement and Other Federal
   Employment Benefits:                                            $       1,109,363     $        (8,213)   $       1,101,150




                                                              52
                                                            Annual Financial Statement 2011
                                                                                             General Fund
                                                                          Notes to the Principal Statements

Relevant Information for Comprehension

Programs for which actuarial benefits are computed include the Federal Employees’ Compensation Act (FECA); the
expected liability for death, disability, medical, and miscellaneous costs for approved compensation cases; and a
component for incurred but not reported claims.

FECA liability is determined using a method that utilizes historical benefit payment patterns to predict the ultimate
payments. The projected annual benefit payments are then discounted to present value using the Office of Management
and Budget’s economic assumptions for 10-year U.S. Treasury notes and bonds.

Interest rate assumptions utilized for discounting were as follows:

                          Discount Rates

                          3.535% in Year 1
                          4.025% in Year 2
                          and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage
inflation factors [Cost of Living Adjustment (COLA)] and medical inflation factors [Consumer Price Index Medical CPIM)]
were applied to the calculation of projected future benefits. The actual rates for these factors for the charge-back year
(CBY) 2011 were also used to adjust the methodology’s historical payments to current-year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBYs were as follows:

                         CBY              COLA            CPIM

                         2011             N/A             N/A
                         2012             2.10%           3.07%
                         2013             2.53%           3.62%
                         2014             1.83%           3.66%
                         2015             1.93%           3.73%
                         2016             2.00%           3.73%
                         and thereafter

The model’s resulting projections were analyzed to ensure that the estimates were reliable. Analysis was based on four
tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in the
liability amount by agency to the percentage change in the actual incremental payments, (3) a comparison of the
incremental paid losses per case (a measure of case-severity) in CBY 2011 to the average pattern observed during the
most current three charge-back years, and (4) a comparison of the estimated liability per case in FY 2011 projection to the
average pattern for the projections of the most recent three years.

The Air Force’s actuarial liability for workers’ compensation benefits is developed and provided by Department of Labor at
the end of each fiscal year. There is no change on a quarterly basis.

Other Federal Employment Benefits is comprised of additional post employment benefits due and payable to military
personnel.




                                                             53
        United States Air Force
      General Fund
      Notes to the Principal Statements

Note 18.         General Disclosures Related to the Statement of Net Cost

Intragovernmental Costs and Exchange Revenue
                                                                                Restated
As of September 30                                      2011                     2010
(Amounts in thousands)
Military Retirement Benefits
1. Gross Cost
     A. Intragovernmental Cost                 $                       0    $                     0
     B. Nonfederal Cost                                                0                          0
     C. Total Cost                             $                       0    $                     0
2. Earned Revenue
     A. Intragovernmental Revenue              $                       0    $                     0
     B. Nonfederal Revenue                                             0                          0
    C. Total Revenue                           $                       0    $                     0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                       0    $                     0
Total Net Cost                                 $                       0    $                     0

Civil Works
1. Gross Cost
     A. Intragovernmental Cost                 $                       0    $                     0
     B. Nonfederal Cost                                                0                          0
     C. Total Cost                             $                       0    $                     0
2. Earned Revenue
     A. Intragovernmental Revenue              $                       0    $                     0
     B. Nonfederal Revenue                                             0                          0
    C. Total Revenue                           $                       0    $                     0
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                       0    $                     0
Total Net Cost                                 $                       0    $                     0

Military Personnel
1. Gross Cost
     A. Intragovernmental Cost                 $                8,872,534   $           8,719,745
     B. Nonfederal Cost                                        27,518,970              27,501,753
     C. Total Cost                             $               36,391,504   $          36,221,498
2. Earned Revenue
     A. Intragovernmental Revenue              $                (107,779)   $              (364,604)
     B. Nonfederal Revenue                                       (68,735)                   (22,476)
    C. Total Revenue                           $                (176,514)   $              (387,080)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits       $                       0    $                     0
Total Net Cost                                 $               36,214,990   $          35,834,418




                                                   54
                                              Annual Financial Statement 2011
                                                                        General Fund
                                                       Notes to the Principal Statements


Operations, Readiness & Support
1. Gross Cost
    A. Intragovernmental Cost                 $               761,642   $                  (3,335,533)
    B. Nonfederal Cost                                     61,446,276                      59,564,798
    C. Total Cost                             $            62,207,918   $                  56,229,265
2. Earned Revenue
     A. Intragovernmental Revenue             $           (1,906,351)   $                    (544,721)
     B. Nonfederal Revenue                                  (375,944)                        (667,716)
    C. Total Revenue                          $           (2,282,295)   $                  (1,212,437)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                     0   $                           0
Total Net Cost                                $            59,925,623   $                  55,016,828

Procurement
1. Gross Cost
    A. Intragovernmental Cost                 $            18,771,999   $                  17,482,770
    B. Nonfederal Cost                                     17,322,741                      45,709,042
    C. Total Cost                             $            36,094,740   $                  63,191,812
2. Earned Revenue
     A. Intragovernmental Revenue             $             (430,430)   $                   (367,457)
     B. Nonfederal Revenue                                  (275,309)                       (472,616)
    C. Total Revenue                          $             (705,739)   $                   (840,073)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                     0   $                           0
Total Net Cost                                $            35,389,001   $                  62,351,739

Research, Development, Test & Evaluation
1. Gross Cost
    A. Intragovernmental Cost                 $            11,292,973   $                  12,044,026
    B. Nonfederal Cost                                     16,714,772                      17,968,097
    C. Total Cost                             $            28,007,745   $                  30,012,123
2. Earned Revenue
     A. Intragovernmental Revenue             $           (2,907,727)   $                  (3,410,252)
     B. Nonfederal Revenue                                   (53,283)                         (57,264)
    C. Total Revenue                          $           (2,961,010)   $                  (3,467,516)
3. Losses/(Gains) from Actuarial Assumption
Changes for Military Retirement Benefits      $                     0   $                           0
Total Net Cost                                $            25,046,735   $                  26,544,607




                                                  55
         United States Air Force
        General Fund
        Notes to the Principal Statements


 Family Housing & Military Construction
 1. Gross Cost
     A. Intragovernmental Cost                            $                     128,898    $                      54,317
     B. Nonfederal Cost                                                       1,009,750                        1,295,643
     C. Total Cost                                        $                   1,138,648    $                   1,349,960
 2. Earned Revenue
      A. Intragovernmental Revenue                        $                     (15,082)   $                      (6,563)
      B. Nonfederal Revenue                                                            0                                0
     C. Total Revenue                                     $                     (15,082)   $                      (6,563)
 3. Losses/(Gains) from Actuarial Assumption
 Changes for Military Retirement Benefits                 $                            0   $                            0
 Total Net Cost                                           $                   1,123,566    $                   1,343,397

 Consolidated
 1. Gross Cost
     A. Intragovernmental Cost                            $                  39,828,046    $                 34,965,325
     B. Nonfederal Cost                                                     124,012,509                     152,039,333
     C. Total Cost                                        $                 163,840,555    $                187,004,658
 2. Earned Revenue
      A. Intragovernmental Revenue                        $                  (5,367,369)   $                 (4,693,597)
      B. Nonfederal Revenue                                                    (773,271)                     (1,220,072)
      C. Total Revenue                                    $                  (6,140,640)   $                 (5,913,669)
 3. Losses/(Gains) from Actuarial Assumption
 Changes for Military Retirement Benefits                 $                            0   $                            0
 4. Costs Not Assigned to Programs                        $                            0   $                            0
 5. (Less: Earned Revenues) Not Attributed to
 Programs                                                 $                           0    $                          0
 Total Net Cost                                           $                 157,699,915    $                181,090,989


Relevant Information for Comprehension

In 2010 Operations, Readiness & Support reported an abnormal balance for Intragovenmental cost in the amount of $3.3
billion. This is in relation to transfers to and from other government entities. Because of business practices, sometimes
transfers from other Intergovernmental entities are recorded against program cost instead of revenue.

Due to a Prior Period Adjustment, total net cost for 2010 increased by $16.6 billion. The increase was created by a
decrease in Operations Readiness & Support program cost of $133 thousand and an increase in Procurement program
cost of $16.6 billion. See Note 26 for additional information.

The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government that
are supported by appropriations or other means. The intent of SNC is to provide gross and net cost information related to
the amount of output or outcome for a given program or organization administered by a responsible reporting entity. The
DoD’s current processes and systems do not capture and report accumulated costs for major programs based upon the
performance measures as required by the Government Performance and Results Act. The DoD is in the process of
reviewing available data and developing a cost reporting methodology as required by the Statement of Federal Financial
Accounting Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and Standards for the Federal
Government,” as amended by SFFAS No. 30, “Inter-entity Cost Implementation.”

Intragovernmental costs and revenue represent transactions made between two reporting entities within the Federal
Government.


                                                              56
                                                            Annual Financial Statement 2011
                                                                                             General Fund
                                                                          Notes to the Principal Statements


Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The Air Force’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
expenses are adjusted to agree with internal seller-side revenue. Expenses are generally adjusted by accruing additional
accounts payable and expenses. Intradepartment revenues and expenses are then eliminated.

The Air Force does not meet accounting standards. Information presented is based on budgetary obligations,
disbursements, and collection transactions, as well as nonfinancial feeder systems adjusted to record known accruals for
major items such as payroll expenses, accounts payable and environmental liabilities.

The Air Force’s accounting systems generally do not capture information relative to heritage assets separately and
distinctly from normal operations.



 Note 19.         Disclosures Related to the Statement of Changes in Net Position

Other Financing Sources, Other is comprised of unsupported adjustments to reconcile reported intragovernmental
transfers, the majority of which are recorded at the Air Force Component level, as the respective federal partners could
not be identified nor the transfers reconciled.

The Appropriations Received on the Statement of Changes in Net Position (SCNP) do not agree with Appropriations on
the Statement of Budgetary Resources (SBR) in the amount of $5.6 million. The difference is due to additional resources
included in the Appropriations line item on the SBR. Refer to Note 20, Disclosures Related to the Statement of Budgetary
Resources, for further information.

The eliminations column on SCNP will reflect zero dollars. In the SCNP, all offsetting balances (i.e. transfers-in and
transfers-out, revenues and expenses) for intraentity activity between Earmarked Funds and All Other Funds are reported
on the same lines. The eliminations column contains all appropriate elimination entries, which net to zero within each
respective line, except for intraentity imputed financing costs.

For Fiscal Year 2010, there is an increase in the amount of $1.1 billion to the Beginning Balance due to a Prior Period
Adjustment related to Military Equipment. This accounts for variances in years prior to 2010. There is also an increase of
$16.6 billion in Net Cost of Operations for Fiscal Year 2010 related to Military Equipment logistical system issues. The
total change in “Net Position” for fiscal year end 2010 amounts to $15.5 billion.

During fiscal year 2011, the issues were corrected and Air Force Financial Reporting organization was able to reconcile
detailed asset lists from logistical systems to the financial statements. To assure that future financial statements are
presented fairly, the Air Force Financial Reporting organization will continue to reconcile Military Equipment on a quarterly
basis. See Note 26 for additional information.




                                                             57
         United States Air Force
        General Fund
        Notes to the Principal Statements

 Note 20.         Disclosures Related to the Statement of Budgetary Resources


 As of September 30                                                          2011                       2010
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                  $                  79,038,813      $       76,521,166

 2. Available Borrowing and Contract Authority at the End of
    the Period                                                                                0                        0

Relevant Information for Comprehension

Apportionment Categories

Funds are apportioned by three categories: (1) Category A is apportioned quarterly, (2) Category B is apportioned by
activity or project, and (3) Exempt is funds not subject to apportionment. The amounts of direct and reimbursable
obligations incurred are stated in the table.

                               Category A                 Category B                 Exempt
    Direct                     $97.5 billion              $70.1 billion              $7.3 million
    Reimbursable                $6.9 billion               $3.4 billion              $0.2 million

Intraentity Transactions

The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented as
combined.

Permanent Indefinite Appropriations

Permanent indefinite appropriations are as follows (reference Note 23 for additional information):

Department of the Air Force General Gift Fund [10 USC 2601(b)]

Wildlife Conservation Fund [16 USC 670(a)]

Air Force Cadet Fund [37 USC 725(s)]

Legal limitations and time restrictions on the use of unobligated appropriation balances such as upward adjustments are
provided under Public Law.

Appropriations Received

Appropriations on the Statement of Budgetary Resources differ from those reported on the Statement of Changes in Net
Position (SCNP) because Appropriations Received on the SCNP do not include dedicated appropriations and earmarked
receipts. Dedicated appropriations and earmarked receipts are accounted for as either nonexchange revenue or
donations and forfeitures of cash and cash equivalents. This resulted in a $5.6 million difference.




                                                            58
                                                         Annual Financial Statement 2011
                                                                                       General Fund
                                                                      Notes to the Principal Statements

Note 21.       Reconciliation of Net Cost of Operations to Budget



As of September 30                                                                               Restated
                                                                         2011                     2010
(Amounts in thousands)

 Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                           $        177,628,001    $          170,329,389
2. Less: Spending authority from offsetting                                (14,414,018)              (15,397,463)
   collections and recoveries (-)
3. Obligations net of offsetting collections                      $        163,213,983    $          154,931,926
    and recoveries
4. Less: Offsetting receipts (-)                                             (154,152)                 (250,035)
5. Net obligations                                                $        163,059,831    $          154,681,891
Other Resources:
6. Donations and forfeitures of property                                             0                         0
7. Transfers in/out without reimbursement (+/-)                                867,507                   202,939
8. Imputed financing from costs absorbed by others                             855,639                   857,824
9. Other (+/-)                                                               (459,953)                   839,990
10. Net other resources used to finance activities                $          1,263,193    $            1,900,753
11. Total resources used to finance activities                    $        164,323,024    $          156,582,644
Resources Used to Finance Items not Part of the Net
     Cost of Operations:
12. Change in budgetary resources obligated for
    goods, services and benefits ordered but not yet
    provided:
    12a. Undelivered Orders (-)                                   $         (2,517,648)   $               2,680,287
    12b. Unfilled Customer Orders                                             (619,759)                     302,117
13. Resources that fund expenses recognized in prior                          (416,750)                     (59,848)
     Periods (-)
14. Budgetary offsetting collections and receipts that                          154,152                    250,035
     do not affect Net Cost of Operations
15. Resources that finance the acquisition of assets (-)                   (15,963,606)               (7,638,134)
16. Other resources or adjustments to net obligated
     resources that do not affect Net Cost of
     Operations:
     16a. Less: Trust or Special Fund Receipts                                        0                           0
            Related to exchange in the Entity’s Budget (-)
     16b. Other (+/-)                                                         (407,554)               (1,042,928)
17. Total resources used to finance items not part                $        (19,771,165)   $           (5,508,471)
     of the Net Cost of Operations
18. Total resources used to finance the Net Cost                  $        144,551,859    $          151,074,173
     of Operations




                                                             59
        United States Air Force
      General Fund
      Notes to the Principal Statements




As of September 30                                                                   Restated
                                                                  2011                2010
(Amounts in thousands)

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current
    Period:


Components Requiring or Generating Resources in Future
    Period:
19. Increase in annual leave liability                        $        73,728    $         112,556
20. Increase in environmental and disposal liability                1,725,271               22,158
21. Upward/Downward reestimates of credit subsidy                           0                    0
    expense (+/-)
22. Increase in exchange revenue receivable from                            0                    0
    the public (-)
23. Other (+/-)                                                       307,815              487,268
24. Total components of Net Cost of Operations that           $     2,106,814    $         621,982
    will Require or Generate Resources in future
    periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                             $    15,128,148    $      13,290,350
26. Revaluation of assets or liabilities (+/-)                     (1,761,057)           2,776,078
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                         0                    0
    27b. Cost of Goods Sold                                                  0                    0
    27c. Operating Material and Supplies Used                       27,907,673           24,316,312
    27d. Other                                                    (30,233,522)         (10,987,906)
28. Total Components of Net Cost of Operations that           $     11,041,242   $       29,394,834
    will not Require or Generate Resources


29. Total components of Net Cost of Operations                $    13,148,056    $      30,016,816
    that will not Require or Generate Resources in
    the current period

30. Net Cost of Operations                                    $   157,699,915    $     181,090,989




                                                         60
                                                           Annual Financial Statement 2011
                                                                                            General Fund
                                                                         Notes to the Principal Statements

Relevant Information for Comprehension

Due to Air Force financial system limitations, budgetary data do not agree with proprietary expenses and capitalized
assets. The difference between budgetary and proprietary data is a previously identified deficiency. The amount of the
adjustment to the note schedule to bring it into balance with the Statement of Net Cost is ($264.3) million in the Other
Components Not Requiring or Generating Resources category.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of consolidated
due to intraagency budgetary transactions not being eliminated:

    •   Obligations Incurred
    •   Less: Spending Authority from Offsetting Collections and Recoveries
    •   Obligations Net of Offsetting Collections and Recoveries
    •   Less: Offsetting Receipts
    •   Net Obligations
    •   Undelivered Orders
    •   Unfilled Customer Orders

Other Resources Used to Finance Activities consist of other gains to adjust intragovernmental transfers in.

Other Resources Used to Finance Items Not Part of the Net Cost of Operations include adjustments to net obligated
resources that do not affect the Net Cost of Operation such as net transfers in and out without reimbursement, and other
gains and losses to adjust intragovernmental transfers in.

Other Components of the Net Cost of Operations that will not Require or Generate Resources in the Current Period
consist of expenses due to Air Force active military personnel.

Other Components not Requiring or Generating Resources include expenses for Operations and Maintenance,
Procurement, Military Construction and Family Housing.



 Note 22.         Disclosures Related to Incidental Custodial Collections

The Air Force collected $62.9 million of incidental custodial revenues generated primarily from collection of accounts
receivable related to cancelled accounts. These funds are not available for use by Air Force. At the end of each fiscal
year, the accounts are closed and the balances rendered to the U.S. Treasury.




                                                            61
          United States Air Force
         General Fund
         Notes to the Principal Statements

 Note 23.           Earmarked Funds


                                                                                      2011
BALANCE SHEET
                                                                 Medicare
As of September 30                            Military                             Other
                                                              Eligible Retiree
(Amounts in thousands)                       Retirement                          Earmarked       Eliminations       Total
                                                               Health Care
                                               Fund                                Funds
                                                                    Fund
ASSETS
Fund balance with Treasury                   $            0       $          0    $     13,681    $             0   $ 13,681

Investments                                               0                  0           1,077                  0        1,077

Accounts and Interest Receivable                          0                  0               1                  0           1

Other Assets                                              0                  0               5                  0          5
Total Assets                                 $            0       $          0    $     14,764    $             0   $ 14,764


LIABILITIES and NET POSITION
Military Retirement Benefits and Other
Federal Employment Benefits                  $            0       $          0    $          0    $             0   $       0

Other Liabilities                                         0                  0           2,339                  0        2,339
Total Liabilities                            $            0       $          0    $      2,339    $             0   $    2,339



Unexpended Appropriations                                 0                  0               0                  0           0

Cumulative Results of Operations                          0                  0          12,425                  0       12,425



Total Liabilities and Net Position           $            0       $          0    $     14,764    $             0   $ 14,764


STATEMENT OF NET COST
For the period ended September 30
(Amounts in thousands)
Program Costs                                $            0       $          0    $     12,001    $             0   $ 12,001

Less Earned Revenue                                       0                  0           (216)                  0      ( 216)
Net Program Costs                        $                0       $          0    $     11,785    $             0   $ 11,785
Less Earned Revenues Not Attributable to
Programs                                                  0                  0               0                  0           0

Net Cost of Operations                       $            0       $          0    $     11,785    $             0   $ 11,785




                                                                62
                                                             Annual Financial Statement 2011
                                                                                              General Fund
                                                                           Notes to the Principal Statements

                                                                                   2011
STATEMENT OF CHANGES IN NET                                Medicare
POSITION                                      Military                          Other
                                                        Eligible Retiree
For the period ended September 30            Retirement                       Earmarked       Eliminations           Total
                                                         Health Care
(Amounts in thousands)                         Fund                             Funds
                                                              Fund

Net Position Beginning of the Period          $         0     $           0    $    18,568 $                 0   $      18,568

Net Cost of Operations                                  0                 0         11,785                   0          11,785

Budgetary Financing Sources                             0                 0           5,642                  0           5,642
Other Financing Sources                                 0                 0               0                  0               0

Change in Net Position                        $         0     $           0    $    (6,143) $                0   $      (6,143)


Net Position End of Period                    $         0     $           0    $    12,425 $                 0   $      12,425

Relevant Information for Comprehension

Department of the Air Force General Gift Fund [10 USC 2601 (b)]

The Department of the Air Force General Gift Fund accepts, holds, and administers any gift, device, or bequest of real or
personal property, made on the condition that it is used for the benefit (or in connection with the establishment,
maintenance, or operation) of a school, hospital, library, museum, or cemetery under the Air Force’s jurisdiction. The fund
is available to such institutions or organizations subject to the terms of the gift, device, or bequest.

Conditional gifts are invested in U.S. Treasury securities, and any interest earned on these securities is accumulated in
the fund.

Wildlife Conservation Fund [16 USC 670 (a)]

The Wildlife Conservation Fund provides for (1) the conservation and rehabilitation of natural resources on military
installations, (2) the sustainable multipurpose use of the resources which include hunting, fishing, trapping, and
nonconsumptive uses, and (3) the public access to military installations to facilitate its use, subject to safety requirements
and military security. The fund is available to carry out these programs and other such expenses that may be necessary
for the purpose of the cited statute.

Consisting of both appropriated and nonappropriated funding, this fund gives installation commanders the authority to
collect fees from the sale of hunting and fishing permits.

Air Force Cadet Fund [37 USC 725 (s)]

The Air Force Cadet Fund is maintained for the benefit of Air Force Academy cadets. Disbursements are made for the
personal services of cadets such as laundry, arts, and athletics while collections are received from the same cadets at
least equal to any disbursements made.

The Air Force General Gift Fund and Wildlife Conservation Fund are trust funds. The Air Force Cadet Fund is classified as
a special fund. All three funds utilize receipt and expenditure accounts in accounting for and reporting the funds.




                                                              63
          United States Air Force
         General Fund
         Notes to the Principal Statements


                                                                               2010

BALANCE SHEET
                                                           Medicare
As of September 30                            Military                       Other
                                                        Eligible Retiree
(Amounts in thousands)                       Retirement                    Earmarked        Eliminations           Total
                                                         Health Care
                                               Fund                          Funds
                                                              Fund


ASSETS

Fund balance with Treasury                   $         0   $           0   $     17,700      $             0   $      17,700

Investments                                            0               0          1,080                    0           1,080

Accounts and Interest Receivable                       0               0                0                  0                0

Other Assets                                           0               0              5                    0               5
Total Assets                                 $         0   $           0   $     18,785      $             0   $      18,785


LIABILITIES and NET POSITION
Military Retirement Benefits and Other
Federal Employment Benefits                  $         0   $           0   $            0    $             0   $            0

Other Liabilities                                      0               0              217                  0               217
Total Liabilities                            $         0   $           0   $          217    $             0   $           217



Unexpended Appropriations                              0               0                0                  0                0

Cumulative Results of Operations                       0               0         18,568                    0          18,568



Total Liabilities and Net Position           $         0   $           0   $     18,785      $             0   $      18,785


STATEMENT OF NET COST
For the period ended September 30
(Amounts in thousands)
Program Costs                                $         0   $           0   $      4,106      $             0   $       4,106

Less Earned Revenue                                    0               0            (54)                   0           ( 54)
Net Program Costs                        $             0   $           0   $      4,052      $             0   $       4,052
Less Earned Revenues Not Attributable to
Programs                                               0               0                0                  0                0

Net Cost of Operations                       $         0   $           0   $      4,052      $             0   $       4,052




                                                            64
                                                     Annual Financial Statement 2011
                                                                                       General Fund
                                                                     Notes to the Principal Statements


                                                                          2010
STATEMENT OF CHANGES IN NET                          Medicare
POSITION                                Military                         Other
                                                  Eligible Retiree
For the period ended September 30      Retirement                      Earmarked       Eliminations         Total
                                                   Health Care
(Amounts in thousands)                   Fund                            Funds
                                                        Fund

Net Position Beginning of the Period   $         0 $             0 $         10,432 $                 0 $      10,432

Net Cost of Operations                           0               0            4,052                   0         4,052

Budgetary Financing Sources                      0               0           12,188                   0        12,188
Other Financing Sources                          0               0                 0                  0             0

Change in Net Position                 $         0 $             0 $          8,136 $                 0 $       8,136


Net Position End of Period             $         0 $             0 $         18,568 $                 0 $      18,568




                                                       65
         United States Air Force
        General Fund
        Notes to the Principal Statements

 Note 24.         Fiduciary Activities


 Schedule of Fiduciary Activity

 For the period ended September 30                                                                       2010
                                                                     2011
 (Amounts in thousands)

 1. Fiduciary net assets, beginning of year            $                          30,624   $                         25,444
 2. Fiduciary revenues                                                                 0                                  0
 3. Contributions                                                                 53,933                             46,166
 4. Investment earnings                                                            3,434                              2,701
 5. Gain (Loss) on disposition of investments, net                                     0                                  0
 6. Administrative and other expenses                                                  0                                  0
 7. Distributions to and on behalf of beneficiaries                             (50,639)                           (43,688)
 8. Increase/(Decrease) in fiduciary net assets        $                           6,728   $                          5,179

 9. Fiduciary net assets, end of period                $                         37,352    $                         30,623



 Schedule of Fiduciary Net Assets

 For the period ended September 30
                                                                     2011                                2010
 (Amounts in thousands)
 FIDUCIARY ASSETS
 1. Cash and cash equivalents                          $                         37,353    $                         30,624
 2. Investments                                                                       0                                   0
 3. Other Assets                                                                      0                                   0

 FIDUCIARY LIABILITIES
 4. Less: LIABILITIES                                  $                               0   $                               0

 5. TOTAL FIDUCIARY NET ASSETS                         $                         37,353    $                         30,624


Relevant Information for Comprehension

A fiduciary relationship may exist anytime a Federal Government entity collects or receives, and holds or makes
disposition of, assets in which a non-federal individual or entity has an ownership interest that the Federal Government
must uphold. The relationship is based on statute or other legal authority and the fiduciary activity must be in furtherance
of that relationship. The Air Force’s fiduciary activities primarily consist of the Savings Deposit Program (SDP). SDP was
established to provide members of the uniformed services serving in a designated combat zone the opportunity to build
their financial savings.




                                                             66
                                                            Annual Financial Statement 2011
                                                                                              General Fund
                                                                             Notes to the Principal Statements

 Note 25.         Other Disclosures

                                                                        2011
 As of September 30
                                                                    Asset Category
                                Land and Buildings        Equipment                  Other                    Total
 (Amounts in thousands)

 1. ENTITY AS
    LESSEE-Operating
    Leases
  Future Payments Due
    Fiscal Year
        2012                                 39,404                      0                109,861                     149,265
        2013                                 31,094                      0                110,959                     142,053
        2014                                 45,577                      0                112,069                     157,646
        2015                                 43,122                      0                113,190                     156,312
        2016                                 48,433                      0                114,322                     162,755
        After 5 Years                             0                      0                115,465                     115,465

 Total Future Lease
   Payments Due             $              207,630 $                     0 $              675,866 $                   883,496


Relevant Information for Comprehension

Leases in the land and buildings category include costs for operating leased housing facilities for active Air Force in the
United States and overseas. Section 801 Family Housing Program leases are not included in this category.

Other leases consist of Air Force vehicle leases from the General Services Administration and commercial lessors located
in Europe, Southwest Asia, and the United States.




                                                             67
         United States Air Force
        General Fund
        Notes to the Principal Statements

 Note 26.         Restatements

On 1 October 2008, the AF began using the Reliability & Maintainability Information System (REMIS) as the official
system of record for financial accountability for Military Equipment assets. The conversion from Capital Asset
Management System–Military Equipment (CAMS-ME) to REMIS resulted in a variation significant enough to require a
prior period adjustment (PPA) that was done in 2009.

During fiscal year 2010, adjustments were made to correct acquisition costs that had been incorrectly entered into the
asset record keeping system. These adjustments were due to the Military Equipment Valuation (MEV) which was a
Department of Defense (DoD)-wide effort to implement federal accounting standards requiring military equipment,
including modifications and upgrades, to be treated as capitalized assets on the DoD financial statements. When original
acquisition costs were first entered, estimates were used until adequate supporting documentation could be obtained.
The MEV adjustments included removing modification records from the system determined not to meet the capitalization
rules, adding modification records not in the system, and increasing/decreasing acquisition cost to match supporting
documentation.

In addition to the issue with the MEV, the asset system was unable to provide adequate support for the financial
statements. In the process of obtaining adequate support, it was discovered that financial data was incorrectly being sent
to the financial reporting system from the logistical systems. Research was done to determine the cause of the problem
and steps were taken to correct the issues.

The overstatement of the financials as of September 30, 2010 totaled $15.5 billion. This was created by an overstatement
of Military Equipment of $8.7 billion and the understatement of accumulated depreciation of $6.8 billion. The
overstatement is broken down by fiscal year 2010 and pre fiscal year 2010, overstating fiscal year 2010 by $16.6 billion
and understating pre fiscal year 2010 by $1.1 billion. The adjustments created changes in the Balance Sheet,
Consolidated Statement of Net Cost, and Consolidated Statement of Net Position.

The Balance Sheet was affected by a decrease in “General Property, Plant and Equipment, Net” by $15.5 billion for fiscal
year 2010. This also reduced “Cumulative Result of Operations- Other Funds” by $15.5 billion.

The Consolidated Statement of Changes in Net Cost had a decrease in program cost “Operations, Readiness & Support”
of $133 and an increase in program cost “Procurement” of $16.6 billion. The net result was an increase in Net Cost of
Operation by $16.6 billion for fiscal year 2010.

On the Consolidated Statement of Change in Net Position, an increase of $1.1 billion was listed under Prior Period
Adjustments “Corrections of errors” for 2010 and added to the adjusted beginning balance total. The Net Cost of
Operations for 2010 was increased by $16.6 billion thus reducing the Cumulative Results of operations. The ending
balance in Net Position was also decreased by $15.5 billion for fiscal year 2010. In order to account for the 2010 restated
financial statements in 2011, the $15.5 billion from 2010 is entered under Prior Period Adjustment “Corrections of errors”
to adjust the Beginning balance total.

During fiscal year 2011, the issues were corrected and Air Force Financial Reporting organization was able to reconcile
detailed asset lists from logistical systems to the financial statements. To assure that future financial statements are
presented fairly, the Air Force Financial Reporting organization will continue to reconcile Military Equipment on a quarterly
basis.




                                                             68
                     Annual Financial Statement 2011


General Fund
Fiscal Year 2011
Required Supplementary
Stewardship Information




                     69
         United States Air Force
       General Fund
       Required Supplementary Stewardship Information

STEWARSHIP INVESTMENTS

Stewardship investments are substantial investments made by DoD for the benefit of the nation, but are not
physical assets owned by DoD. Stewardship investments include expenses incurred for federally financed, but
not federally owned, physical property (Nonfederal Physical Property) and federally financed research and
development (Research and Development).

NONFEDERAL PHYSICAL PROPERTY

Nonfederal Physical Property investments are expenses included in calculating net cost incurred by the
reporting entity for the purchase, construction or major renovation of physical property owned by state and local
governments. The expenses include the costs identified for major additions, alterations and replacements,
purchases of major equipment, and purchases or improvements of other nonfederal assets. In addition,
Nonfederal Physical Property Investments include federally owned physical property transferred to state and
local governments.


                                  NONFEDERAL PHYSICAL PROPERTY
                                Yearly Investment in State and Local Governments
                                   For the Current and Four Preceding Fiscal Years
                                                      ($ in millions)
    Categories                                         FY 2011 FY 2010 FY 2009           FY 2008     FY 2007
    1. Transferred Assets:
        National Defense Mission Related                      0           0          0          0            0
    2. Funded Assets:
        National Defense Mission Related                $ 12.0      $ 11.5     $ 19.6      $ 2.8       $   8.5
    Totals                                              $ 12.0      $ 11.5     $ 19.6      $ 2.8       $   8.5


The Air National Guard investments in Nonfederal Physical Property are strictly through the Military
Construction Cooperative Agreements (MCCAs). These agreements involve the transfer of money only and
allow joint participation with States, Counties, and Airport Authorities for construction or repair of airfield
pavements and facilities required to support the flying mission assigned at these civilian airfields.

Investment values included in this report are based on Nonfederal Physical Property outlays (expenditures).
Outlays are used because current DoD systems are unable to capture and summarize costs in accordance with
the Federal GAAP requirements.




                                                        70
                                                        Annual Financial Statement 2011
                                                                                      General Fund
                                                    Required Supplementary Stewardship Information

RESEARCH AND DEVELOPMENT

Research and Development investments are incurred in the search for new or refined knowledge and ideas, for
the application or use of such knowledge and ideas for the development of new or improved products and
processes with the expectation of maintaining or increasing national economic productive capacity or yielding
other future benefits.

                          INVESTMENTS IN RESEARCH AND DEVELOPMENT
                              Yearly Investment in Research and Development
                                For the Current and Four Preceding Fiscal Years
                                                   ($ in millions)
   Categories                                       FY 2011 FY 2010 FY 2009               FY 2008    FY 2007
   1. Basic Research                                 $ 498        $ 449 $ 418             $ 389      $ 383
   2. Applied Research                                  1,187      1,074      1,069         1,051      1,032
   3. Development:
       Advanced Technology Development                        514       658        635        611        937
       Advanced Component Development
         and Prototypes                                   1,608       1,858      2,022      2,423      2,310
       System Development and Demonstration               2,739       3,101      3,542      3,654      4,094
       Research, Development, Test and Evaluation
         Management Support                               1,075        1,237      1,296      1,323      1,286
       Operational Systems Development                   19,189       15,380     14,793     12,459     11,481
   Totals                                              $ 26,810     $ 23,757   $ 23,775   $ 21,910   $ 21,523

Basic Research is the systematic study to gain knowledge or understanding of the fundamental aspects of
phenomena and of observable facts without specific applications, processes, or products in mind. Basic
Research involves the gathering of a fuller knowledge or understanding of the subject under study. Major
outputs are scientific studies and research papers.

Applied Research is the systematic study to gain knowledge or understanding necessary for determining the
means by which a recognized and specific need may be met. It is the practical application of such knowledge or
understanding for the purpose of meeting a recognized need. This research points toward specific military
needs with a view toward developing and evaluating the feasibility and practicality of proposed solutions and
determining their parameters. Major outputs are scientific studies, investigations, research papers, hardware
components, software codes, and limited construction of, or part of, a weapon system, to include nonsystem
specific development efforts.

Development takes what has been discovered or learned from basic and applied research and uses it to establish
technological feasibility, assessment of operability, and production capability. Development is comprised of the
following five stages:

    1. Advanced Technology Development is the systematic uses of the knowledge or understanding gained
from research directed towards proof of technological visibility and assessment of operational and productivity
rather than the development of hardware for service use. Employs demonstration activities intended to prove or
test a technology or method.

   2. Advanced Component Development and Prototypes evaluates integrated technologies in as realistic an
operating environment as possible to assess the performance or cost reduction potential of advanced technology.
Programs in this phase are generally system specific. Major outputs of Advanced Component Development and



                                                         71
         United States Air Force
       General Fund
       Required Supplementary Stewardship Information

Prototypes are hardware and software components, or complete weapon systems, ready for operational and
developmental testing and field use.

    3. System Development and Demonstration concludes the program or project and prepares it for
production. It consists primarily of preproduction efforts, such as logistics and repair studies. Major outputs
are weapon systems finalized for complete operational and developmental testing.

    4. Research, Development, Test and Evaluation Management Support is support for installations and
operations for general research and development use. This category includes costs associated with test ranges,
military construction maintenance support for laboratories, operations and maintenance of test aircraft and
ships, and studies and analyses in support of the R&D program.

   5. Operational Systems Development is concerned with development projects in support of programs or
upgrades still in engineering and manufacturing development, which have received approval for production, for
which production funds have been budgeted in subsequent fiscal years.

The following are representative program examples for each of the above major categories:

Basic Research
AFRL-funded researchers recently achieved several unique breakthroughs in atomic layer deposition, or ALD, a
method that puts down a layer of "paint" one-atom thick. The ALD method offers a tremendous range of
applications including coating aircraft canopies, particles and nano-particles; creating insulators in integrated
circuits; and controlling catalysts and sensors. The ALD application process also offers the revolutionary
ability to coat micro-electro-mechanical systems the size of a micron or smaller.

AFRL also funded research in laser light technology that will help the Military create new forms of metal that
may guide, attract, and repel liquids and cool small electronic devices. The research team discovered a way to
transform a shiny piece of metal into one that is pitch black, not by paint, but by using incredibly intense bursts
of laser light. The resulting black metal absorbs all radiation that shines upon it. With the creation of this black
metal, an entirely new class of material becomes available which may open up an entirely new horizon for
various applications. Additional research has centered on creating technology that may enable the Air Force to
create an additional kind of metal by using the femtosecond laser to alter the surface of metal and create unique
nano - and micro-scale structures.

Applied Research
The Real-time Active Imaging in 3-D at Extended Range (RAIDER) system is a turreted, 3-D imaging ladar
providing terrain mapping and high resolution imaging for combat identification. The system was completed,
integrated in the flight turret and successfully conducted multiple missions in support of the CLEAN SWEEP
program. RAIDER demonstrated high confidence identification of a wide variety of targets in diverse
backgrounds completing the CLEAN SWEEP integrated capability for wide area detection, identification and
prosecution of military vehicles.

Munitions scientists from the Air Force Research Laboratory (AFRL) and Lawrence Livermore National
Laboratory (LLNL) aggressively designed and tested an advanced warhead to provide precision lethality with
low collateral damage. AFRL’s 5-month Precision Lethality Mk82 (PL82) Risk Reduction program accelerated
Technology Readiness Level (TRL) growth from 5 to 6 through successful warhead blast and target penetration
demonstrations. This quickly provided the technical maturity needed for immediate transition to the BLU-


                                                         72
                                                      Annual Financial Statement 2011
                                                                                   General Fund
                                                 Required Supplementary Stewardship Information

129/B Quick Reaction Capability (QRC) program at the Air Armament Center (AAC), Eglin Air Force Base,
Florida, and has been designated as the BLU-129/B warhead.

Advanced Technology Development
The Counter-Electronics High Power Microwave Advanced Missile Project (CHAMP) successfully executed
the pointing demonstration during a flight test recently at the Utah Test and Training Range. A major
milestone, the test demonstrated the navigational and pointing accuracy of CHAMP's aerial platform and
integrated high power microwave (HPM) beam, which can disrupt or damage targeted electronic circuits and
components, as well as its ability to correctly trigger the payload with great timing accuracy. CHAMP provides
the warfighter a non-lethal, low collateral damage capability against targets and helps keep post-conflict
reconstruction costs to a minimum.

Gotcha Radar Exploitation Program (GREP) Data Collect Demonstration: The main goal of the Gotcha Radar
Exploitation Program (GREP) data collect demonstration that took place on 26 and 29 September 2011 was to
generate real-time (1 second to generate a frame of each of the following) video synthetic aperture radar (SAR),
coherent change detection (CCD), and non-coherent change detection (NCD) on a 1.25 km by 1.25 km spot at
1/3 m resolution. This goal was accomplished. It was also possible to generate real time (1 frame per second)
video SAR on a 4 km by 4 km spot at 1/3 m resolution and display this video on a touchscreen display. By
drawing a box on the screen it was possible (within 30-45 seconds) to do a three dimensional reconstruction
using all of the available data up to that point in the demonstration (i.e., all 360 degrees or less). Data
transmission from the radar to the Desch supercomputer was accomplished by using the AOptix (optical)
datalink. All of this data was kept so further analysis could be done in the future. This system provides a step
to the capability to use real-time SAR video to look at change detection and two and three dimensional imaging
which could be very useful to the warfighter. Furthermore, by keeping the data, forensic analysis can be done if
an incident happens and it is necessary to ascertain what, or who, caused the incident.

Demonstration and Validation (Advanced Component Development and Prototypes)
The Air Force’s Advanced Component Development and Prototypes programs are comprised of system specific
advanced technology integration efforts accomplished in an operational environment to help expedite transition
from the effort. In FY 2004, the Air Force successfully demonstrated Fighter Aircraft Command and Control
Enhancement (FACE). FACE provides an improved, beyond-line-of-sight (BLOS) command and control link
with fighter aircraft by integrating Iridium telephone communications equipment with existing aircraft
communications equipment. BLOS capability has traditionally been provided by low-density, high-demand
airborne platforms acting as communications relays. FACE provides relief for these overworked assets, while
allowing combatant commanders to maintain positive control of the battle space. FACE has been approved for
deployment to Afghanistan through the Air Force's Rapid Response Process, and has the potential for extensive
use in virtually any area of responsibility, including Homeland Defense.

In FY 2005, the Air Force restructured and refocused the Space Radar (SR) program (formerly Space Based
Radar) to address congressional concerns with technical risk, affordability, and DoD-IC integration. In January
2005 the Secretary of Defense and the Director of Central Intelligence signed a joint memo designating the SR
program as the single space radar capability for the nation. In May 2007, the Deputy Secretary of Defense and
the Principal Deputy Director of National Intelligence signed the Joint Radar Enterprise Memorandum, agreeing
to a joint funding arrangement, acquisition strategy, and management structure. The details of this arrangement
are being captured in the Joint Radar Enterprise Management Plan. The SR Initial Capabilities Document
(ICD) was approved by the IC Mission Requirements Board (MRB) in December 2005 and the DoD Joint
Requirements Oversight Council (JROC) in January 2006. The Capability Development Document is being


                                                       73
        United States Air Force
       General Fund
       Required Supplementary Stewardship Information

prepared in parallel with the SR system concept of operations (CONOPS); both are on track for MRB and
JROC approval in 1st Quarter, FY 2009. The SR program implemented a demonstration framework approach to
system development. This approach will further technology maturity risk reduction and CONOPS
experimentation through a mix of space, air, and land-based demonstration activities that will maximize existing
assets. The SR program continues to make significant advancement towards the System Requirements Review
milestone. The SR program will provide day/night, all-weather global surface moving target indications (MTI),
SAR, and high-resolution terrain information (HRTI) capabilities from a space-based platform. Initial launch
capability is planned for 4th Quarter, FY 2016.

System Development and Demonstration
The F-35 Joint Strike Fighter (JSF) program is developing a family of strike fighter aircraft for the Air Force,
Navy, Marine Corps and our allies, with maximum commonality among the variants to minimize life cycle
costs. The Air Force Conventional Takeoff and Landing (CTOL) variant will be a multi-role, primary air-to-
ground aircraft to replace the F-16 and A-10, and complement the F-22. While the F-22 will establish air
dominance, the F-35 with its combination of stealth, large internal payloads and multi-spectral avionics will
provide persistent stealth and precision engagement to future battle space. The F-35 is in the 10th year of a 17-
year Engineering and Manufacturing Development (EMD) effort. President’s Budget, FY 2011, significantly
restructured the F-35 program, decreasing procurement by 122 aircraft across the FYDP and extending EMD to
March 2016. Following a Critical Nunn-McCurdy breach in March 2010, the program initiated a detailed
bottoms-up Technical Baseline Review (TBR). The program office spent much of 2011 rebaselining the entire
F-35 program, informed by the TBR and SECDEF guidance. As part of this effort, the program reassessed
block capabilities, test priorities, and major milestones to complete EMD. In addition, this led to a complete
rework of the integrated master schedule (IMS). The results of the IMS will inform the Services on their effort
to reassess initial operational capability (IOC) dates. Significant program accomplishments in FY 2011
include:

            •   19 of 20 flight and ground test aircraft have been produced and delivered
            •   8 flight test aircraft ferried: 1 STOVL, 2 CTOLs, 3 CVs; 2 Low Rate Initial Production (LRIP)
                CTOL aircraft ferried to Edwards AFB to augment the test and evaluation program
            •   First training aircraft ferried to Eglin AFB on 14 Jul 11
            •   604 of 559 planned flight test sorties and 4830 of 4350 planned test points as of 31 Aug 2011
            •   LRIP Lot 4 contracts for 10 AF CTOLs, 16 Navy STOVLs, and 4 Navy CVs awarded to
                Lockheed in Nov 10.

The Space Based Infrared System (SBIRS) program is designed to replace the Defense Support Program (DSP)
satellite constellation, meeting an increased set of requirements. The SBIRS system includes spacecraft in
geosynchronous orbit (GEO) and hosted payloads in highly elliptical earth orbits (HEO), consolidated ground
control stations, and mobile processors. The state-of-the-art SBIRS sensors provide timely, highly accurate
missile warning, missile defense, battlespace awareness and technical intelligence data to deployed warfighters,
national leadership, and U.S. allies. These high sensitivity sensors collect and downlink infrared events in
multiple spectral wavebands in order to simultaneously support multiple mission areas. SBIRS will deliver
unprecedented, global and persistent infrared surveillance capabilities for the United States and its allies.

FY 2011 marked a significant milestone for the SBIRS program with the launch of the first geosynchronous
satellite, GEO-1, on May 7, 2011, from Cape Canaveral Air Force Station, Fla., joining the HEO-1&2 satellites
already on orbit. The spacecraft has been fully deployed and is functioning normally in geosynchronous orbit.
The spacecraft bus and payload are undergoing testing to characterize and tune the integrated GEO system in

                                                       74
                                                      Annual Financial Statement 2011
                                                                                     General Fund
                                                  Required Supplementary Stewardship Information

preparation for operational acceptance and system certification in 2012. GEO-2 is scheduled for delivery in FY
2012 and launch in FY 2013.

Research, Development, Test and Evaluation Management Support
The Air Force’s Research, Development, Test and Evaluation (RDT&E) Management Support efforts include
projects directed toward support of installations and operations required for testing at the Air Force Major
Range and Test Facility Base (MRTFB) Activities.

 The effort to enhance the TSPI post processing software to accept data from multiple reference receivers
continued. The software modifications are needed to utilize a network of reference receivers to provide precise
correction data for post mission processing. This effort will provide a much needed capability to automatically
process reference receiver data over expanded coverage areas. The development of the technology to re-
architect the ground sensor processing software is complete. This effort allows the software to be transported
from obsolete computers. A proof of concept for an Auto-tuning capability has been developed and will be
reviewed to understand the utility of the concept. Development of the data visualization package is in progress.
Code is nearing completion. The data visualization capability is a critical enabler to reduce post processing data
turnaround time necessary to meet F-35 fly rates.

The program successfully completed the factory ATP and the hardware delivered. The contractor completed
documentation. EMI/EMC and Environmental testing is complete. System software and static tests are
complete. The program resolved EMI/EMC issues and provided the capability to be used on ground movers in
austere environments.

The Digital Integrated Air Defense System (DIADS) is a digital, mission-level Integrated Air Defense System
(IADS) simulation incorporating a software representation of the fusion algorithms used by modern enemy air
defense systems deployed or projected to be operational in the 21st century. It is unique in its detailed
implementation of threat representative Command and Control (C2) algorithms and its ability to simulate the
threat’s perception of the “air picture.” DIADS can function as a stand-alone constructive digital simulation,
operate in real-time with man-in-the-loop (MITL) and/or synthetic operators, or integrate with actual hardware
using hardware-in-the-loop (HITL) interfaces.

The DIADS Upgrades program builds off the simulation produced during the DIADS Laboratory Capabilities
Program. The upgrade program focuses on upgrading the architecture of DIADS in a phased approach by re-
engineering one component at a time. The upgrade program adds new players and enhances existing IADS C2
players based on the latest intelligence. The program also uses standard DoD radar and surface to air missile
models as part of the upgrade to minimize duplication of effort and insure consistent modeling. The DIADS
Upgrades program actively seeks out commercial off the shelf (COTS) and government off the shelf (GOTS)
software to replace existing DIADS components that have reached the end of their useful life or are no longer
compatible with the modern computing hardware used to support the architecture upgrade. The program
exclusively uses COTS hardware to support the simulation upgrade.

DIADS personnel continued data analysis for validation of the new tracker within DIADS to support the
MALD-J program. DIADS has received non-jamming data and is completing steps to receive jamming data.

DIADS also supported F-22 ACS Inc 3.1 FOT&E Event throughout June 2011. DIADS personnel identified
key workarounds to issues as they arose, enabled effective assessments on weapons systems, and provided
support and troubleshooting for key test consoles.


                                                       75
        United States Air Force
       General Fund
       Required Supplementary Stewardship Information


Operational Systems Development
The Air Force’s operational system efforts include projects in support of development acquisition programs or
upgrades. The F-22 Raptor program continued full rate production, and will maintain its role as the key enabler
of joint air dominance through an incremental modernization program funded through Operational Systems
Development activities. 173 aircraft have been delivered through end of FY 2011. Increment 2 is resident in
delivered aircraft and represents the first upgrade over initial operational capability. The modernization
program will enhance the air vehicle, engine, and training systems to improve F-22A weapons,
communications, and Intelligence Surveillance Reconnaissance (ISR) capabilities to further enhance Global
Strike capabilities. FY 2011 activities included initiation of FOT&E for the Increment 3.1 suite and
development of the Increment 3.2A suite A Capability Requirements Review (CRR) for Increment 3.2 focused
on dramatically improving the F-22A Raptor’s Air-to-Air and Air-to-Ground attack capabilities with AIM-9X,
AIM-120D, full, Small Diameter Bomb capability, electronic protection updates.

The Advanced Medium Range Air-to-Air Missile (AMRAAM) Phase 3 (AIM-120C-7) was approved for
fielding in December 2007. Production for this variant began in 4th Quarter, FY 2004, and was completed in
3rd Quarter, FY 2009. The AIM-120C-7 provides a major upgrade over the AIM-120C-6 guidance section,
particularly in the use of circular processor cards over previously used rectangular cards. These cards provide
significant space savings within the missile for added capability, in addition to providing greater processing
power.

AMRAAM Phase 4 (AIM-120D) builds on the AIM-120C-7 capability and is progressing. This new AIM-
120D missile will add a GPS/INU and a 2-way Data Link to enhance accuracy and control, and thus, increase
weapon effectiveness. In addition, the AIM-120D will have increased range and third party targeting which
expands the High Off-boresight launch envelope. The SDD contract was awarded in December 2003. Captive
flight testing is going-on on the F/A-18C/D and F-15C/D. EMD was accomplished in September 2009 with the
completion of the Functional Configuration Audit (FCA). Proof-of-design units and proof-of-manufacturing
units are being used to support simulation/integration labs, production test equipment development, and ground
and flight tests. Production for AIM-120D started in 2nd Quarter, FY 2009 and will continue through FY 2024.
Operational testing began in Jan 10 with a combined DT/OT program to mature missile and aircraft operational
flight programs (OFP). Three of three DT/OT shots were successfully accomplished – one a direct hit and two
lethal fuzes. Operational Test Readiness Review (OTRR) has been delayed until several issues have been
resolved and the program receives Program Executive Officer (PEO) approval to proceed.

The SDB I Focused Lethality Munition (FLM), a variant of SDB I, is a Joint Capabilities Technology
Development (JCTD) program that effectively demonstrates the military utility for prosecuting high-value
targets by generating near-field blast effects in a high collateral risk environment. The SDB I FLM has a
composite-cased warhead with a Multi-phase Blast Explosive to reduce fragmentation effects while increasing
blast effects. This low collateral damage warhead was integrated into the SDB I weapon. The Military Utility
Assessment was successfully completed in June 2008 with positive feedback in all areas. The FLM capability
will increase combatant commanders’’ strike options, particularly in an urban environment, while decreasing
collateral damage risk. This JCTD fully leverages the SDB I program to facilitate rapid acquisition, with
delivery of 50 residual assets in February 2008. An additional 100 residual assets were delivered in FY10, with
the final 100 scheduled for delivery in FY11.

Reaper (MQ-9) UAV Program completed Block 30 Ground Control Station (GCS) development that provides
new STORM cockpit with touch screen interfaces, adjustable rudder pedals, ergonomic seat, improved High


                                                       76
                                                     Annual Financial Statement 2011
                                                                                   General Fund
                                                 Required Supplementary Stewardship Information

Definition displays, and Human Machine Interface (HMI) improvements for safety of flight. Fielding begins in
FY12. The MQ-9 Reaper UAV program is continuing development of the capability to instantaneously derive
and disseminate JDAM-quality coordinates from the aimpoint of its electro-optical/infra-red (EO/IR) full
motion video sensor. Sensor improvements include development of a precise attitude reference system coupled
with an off-the-shelf two color eye-safe laser rangefinder/designator plus development of an accurately timed
metadata system. Aircraft will be modified with a new guidance system incorporating differential GPS.
Fielding is scheduled to begin in FY13. Follow-on development will provide a capability for instantaneous
JDAM-quality data for all pixels within the EO/IR image.

In December 2011 the Global Hawk (RQ-4) flight test program completed Initial Operational Test and
Evaluation (IOT&E). The Air Force provided the RQ-4B Global Hawk Block 30 to the Warfighter prior to the
completion of an IOT&E report because the Warfighter requested and needed that capability. Most findings
identified during IOT&E were quickly addressed to support a fielding decision and were resolved by the time
the report was published. The Block 40 aircraft continued developmental flight tests with the Radar
Technology Insertion Program (RTIP) sensor in 2011. The first production Block 40 aircraft was delivered in
September 2011. In support of JUON 336, the Battlefield Airborne Communications Node (BACN)
development and flight testing was completed and the first BACN equipped Global Hawk was deployed to
CENTCOM in October 2011.

The Airborne Warning and Control System (AWACS) aircraft continues to modernize its mission
capabilities to remain an effective airborne battle management and surveillance system for command and
control of combat forces. The Block 40/45 Upgrade improves the quality and timeliness of sensor data for
shooters, improves combat identification, supports a Single Integrated Air Picture (SIAP) through multi-sensor
integration, improves the AWACS contribution to Time Critical Targeting via Data Link Infrastructure,
improves electronic support measures processing, and enables more effective, faster upgrades via an open
system, Ethernet-based architecture. Block 40/45 began modifying its first LRIP aircraft in Nov 2010.
RDT&E activities for Block 40/45 also included the development of maintenance and crew training systems.
The Next Generation Identification Friend or Foe (NGIFF) effort provides AWACS with a secure Mode 5
capability. NGIFF worked to resolve discrepancies in the Block 30/35 variant noted during flight test in
preparation for a Milestone C in 2012. The Block 40/45 variant continued software development and added
Mode S. The AWACS program completed technology development for the Diminishing Manufacturing
Sources (DMS) Replacement of Avionics for Global Operations and Navigation (DRAGON) modification and
awarded the Phase 1 EMD contract in July 2011. Phase 2 EMD will be awarded in FY12. DRAGON’s EMD
effort is a cooperative development effort with the NATO AWACS program, which will provide aircraft that
satisfy international airspace and air traffic control mandates. The AWACS program is also continuing risk
reduction efforts on multiple fronts to satisfy the high bandwidth and Beyond Line of Sight (BLOS)
requirements of the battle space. These efforts will assure that AWACS remains a relevant combat partner on
the joint battlefield.




                                                      77
United States Air Force


General Fund
Fiscal Year 2011
Required Supplementary Information




                          78
                                                                                                           Annual Financial Statement 2011
                                                                                                                                                                  General Fund
                                                                                                                              Required Supplementary Information
                                                                                      Department of Defense
                                                                                    Department of the Air Force
                                                                    STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                                                        For the periods ended September 30, 2011 and 2010
                                                                                         ($ in Thousands)

                                                              Research, Development,                        Military            Family Housing &            Operations,
                                                                                        Procurement                                                                            2011 Combined       2010 Combined
                                                                 Test & Evaluation                         Personnel           Military Construction    Readiness & Support

BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1               $            4,825,674    $    26,339,667    $        348,084    $           2,587,932     $         1,988,914   $     36,090,271    $     29,211,348
Recoveries of prior year unpaid obligations                                  646,599            862,150             261,357                  102,271               2,615,776          4,488,152           4,573,888
Budget authority
     Appropriation                                                        27,001,787         42,957,084         36,193,645                 1,582,844              59,901,373        167,636,733         165,422,165
     Spending authority from offsetting collections
            Earned
                 Collected                                                 3,037,762            635,490             461,749                   16,102               5,568,057          9,719,161          10,302,406
                 Change in receivables from Federal sources                  (54,360)           (10,304)             32,110                        0                859,018             826,464             219,051
            Change in unfilled customer orders
                 Advance received                                             47,227             19,762                  0                  (15,605)                 91,515             142,899               9,782
                 Without advance from Federal sources                       (405,573)           (89,529)                35                    (2,450)              (265,141)           (762,658)            292,336
     Subtotal                                                             29,626,843         43,512,503         36,687,539                 1,580,891              66,154,822        177,562,599         176,245,740
Nonexpenditure transfers, net, anticipated and actual                      1,277,777          (529,279)          (121,160)                  (81,424)                226,899             772,813              86,734
Permanently not available                                                  (569,004)         (1,345,770)      (234,206)                    (130,858)               (998,974)         (3,278,813)      (3,698,050)
Total Budgetary Resources                                     $           35,807,889    $    68,839,271    $ 36,941,614        $           4,058,812     $        69,987,437   $    215,635,022    $ 206,419,660
Status of Budgetary Resources:
Obligations incurred:
     Direct                                                   $           26,823,534    $    41,499,425    $ 36,163,578        $           1,730,711     $        61,038,940   $    167,256,189    $ 159,256,720
     Reimbursable                                                          2,995,602            451,267             487,651                    5,505               6,431,787         10,371,812          11,072,669
     Subtotal                                                             29,819,136         41,950,692         36,651,229                 1,736,216              67,470,727        177,628,001         170,329,389
Unobligated balance:
     Apportioned                                                           5,567,536         25,861,681             126,580                2,171,600                262,788          33,990,184          32,529,681
     Exempt from apportionment                                                     0                  0                  0                         0                 11,170              11,170              13,729
     Subtotal                                                              5,567,536         25,861,681             126,580                2,171,600                273,958          34,001,354          32,543,410
Unobligated balance not available                                            421,216          1,026,899         163,804                      150,997               2,242,750          4,005,667        3,546,861
Total status of budgetary resources                           $           35,807,888    $    68,839,272    $ 36,941,613        $           4,058,813     $        69,987,435   $    215,635,022    $ 206,419,660
Change in Obligated Balance:
Obligated balance, net
     Unpaid obligations, brought forward, October 1           $           11,430,709    $    28,820,443    $     2,727,881     $           3,677,885     $        27,350,719   $     74,007,637    $     76,097,415
     Less: Uncollected customer payments                                    (883,116)           (80,332)           (69,049)                        0             (1,936,188)         (2,968,685)         (2,457,299)
     from Federal sources, brought forward, October 1
     Total unpaid obligated balance                                       10,547,593         28,740,111          2,658,832                 3,677,885              25,414,531         71,038,952          73,640,116
Obligations incurred net (+/-)                                            29,819,136         41,950,692         36,651,229                 1,736,216              67,470,727        177,628,001         170,329,389
Less: Gross outlays                                                      (29,078,083)       (38,882,752)       (37,122,312)               (2,469,560)           (64,893,311)       (172,446,017)       (167,845,279)
Obligated balance transferred, net
     Actual transfers, uncollected customer                                        0                  0                  0                         0                      0                   0                  (2)
       payments from Federal sources (+/-)
     Total Unpaid obligated balance transferred, net                               0                  0                  0                         0                      0                   0                  (2)
Less: Recoveries of prior year  unpaid obligations, actual                  (646,599)         (862,150)          (261,357)                 (102,271)             (2,615,776)         (4,488,153)         (4,573,888)
Change in uncollected customer                                               459,934             99,832            (32,145)                    2,450               (593,876)            (63,806)           (511,385)
       payments from Federal sources (+/-)
Obligated balance, net, end of  period
     Unpaid obligations                                                   11,525,163         31,026,233          1,995,442                 2,842,271              27,312,359         74,701,468          74,007,637
     Less: Uncollected customer payments (+/-)                              (423,182)            19,500          (101,194)                     2,450             (2,530,064)         (3,032,491)         (2,968,686)
       from Federal sources (-)
     Total, unpaid obligated balance, net, end of period                  11,101,981         31,045,733          1,894,248                 2,844,721              24,782,295         71,668,977          71,038,951
Net Outlays
Net Outlays:
     Gross outlays                                                        29,078,083         38,882,752         37,122,312                 2,469,560              64,893,311        172,446,017         167,845,279
     Less: Offsetting collections                                         (3,084,989)         (655,252)          (461,749)                     (497)             (5,659,571)         (9,862,060)        (10,312,190)
     Less: Distributed Offsetting receipts                                         0                  0               0                            0               (154,152)          (154,152)        (250,035)
        Net Outlays                                           $           25,993,094    $    38,227,500    $ 36,660,563        $           2,469,063     $        59,079,588   $    162,429,805    $ 157,283,054




                                                                                                               79
         United States Air Force
        General Fund
        Required Supplementary Information

DISAGGREGATED STATEMENT OF BUDGETARY RESOURCES

The Air Force has performance measures based on missions and outputs. The Air Force is unable to accumulate
costs for major programs based on those performance measures because its financial processes and systems
were not designed to collect and report this type of cost information. Until the processes and systems are
upgraded, the Air Force will break out programs by major appropriation groupings.

STEWARDSHIP PLANT, PROPERTY, AND EQUIPMENT (PP&E)

                                              HERITAGE ASSETS
                                   For Fiscal Year Ended September 30, 2011
                                           Measurement        As of                                  As of
         Heritage Asset Categories                                      Additions    Deletions
                                            Quantity         9/30/10                                9/30/11
    Buildings and Structures                    Each            8,952         258          634           8,576
    Archaeological Sites                        Sites           2,195         219            0           2,414
    Museum Collection Items (Objects,
    Not Including Fine Art)                     Each         125,756        3,899           46         129,609
    Museum Collection Items (Fine Art)          Each          11,031          108            0          11,139

Heritage Assets are items of historical, natural, cultural, educational, or artistic significance (e.g., aesthetic), or
items with significant architectural characteristics.

1. Buildings and Structures

Buildings and Structures are those that are listed on, or eligible for listing on the National Register of Historic
Places (NRHP), and include multi-use Heritage Assets. These buildings and structures are maintained in
accordance with the National Historic Preservation Act (NHPA) by each base’s civil engineering group as part
of their overall responsibility. The Air Force reported 8,576 buildings and structures on Air Force installations
and sites to be Heritage Assets as of Aug 2011. This number shows that 258 Heritage Assets were added to the
AF inventory in FY11 (638 were deleted because the FY 2010 ending number was revised downward after
several refinements of the data query in 2011). The increase reflects the ongoing annual responsibility of Air
Force to survey and evaluate the NRHP eligibility of buildings and structures as they approach 50 years of age,
as required by the NHPA. The number of Heritage Asset buildings and structures is nearly 6% of the total
building inventory, which equals 143,218 buildings and structures owned or controlled by the Air Force.

Heritage Asset buildings and structures are maintained by each base civil engineering group and are considered
to be in good condition. These buildings and structures are subject to National Historic Preservation Act,
Section 106 review and consultation requirements whenever Air Force undertakings might affect their historic
characteristics. Section 106 reviews ensure State Historic Preservation Officers, tribal, and other party concerns
are taken into account when Air Force decides to adversely affect Heritage Asset buildings and structures.

2. Archaeological Sites

Prehistoric and historic archaeological sites have been identified, evaluated, and determined to be eligible for, or
are listed on the National Register of Historic Places in accordance with Section 110 National Historical
Preservation Act. The Air Force reports 2,414 archeological sites on or eligible for listing on the National


                                                           80
                                                       Annual Financial Statement 2011
                                                                                     General Fund
                                                               Required Supplementary Information

Register as of Aug 2011, up 219 from FY 2010. This cohort of archaeological Heritage Assets is a subset of
nearly 18,000 archaeological sites recorded on Air Force controlled and owned lands in the USA and its
territories.

3. Museum Collection Items, Objects Not Including Fine Art

This represents the number of objects that meet the criteria for historical property as defined in Air Force
Instruction 84-103 and that have been evaluated, accessioned, and catalogued in the Air Force national
historical collection. The National Museum of the United States Air Force (NMUSAF) performs inherently
governmental functions by fulfilling statutory requirements delegated by the Secretary of the Air Force for
management of the Air Force’s national historic collection. The NMUSAF is fully accredited by the American
Association of Museums.

From 1 October 2010 to 30 September 2011, there have been 3,899 objects added to the collection. These
additions are a result of private donations, transfers from Air Force or other federal entities, curatorial
administrative actions, and the continued documentation of newly reported artifacts at Air Force activities
worldwide. Among the new accessions are significant artifacts donated by past Air Force Chief of Staff General
Ronald R. Fogleman, as well as a C-130E “Hercules” aircraft with a distinguished combat record including two
Air Force Cross decorations for crewmen. There were 46 objects deaccessioned from the collection as having
been determined not to meet historic property criteria, were in poor condition, or were transferred to other
federal historical activities. As part of the NMUSAF’s active collection management process, the accession and
deaccession of objects is continuous.

The overall condition of the historic collection, which is primarily located at the NMUSAF, is very good as a
result of both the professional care from trained conservators and ever improving exhibit/storage conditions.
During FY 2011, restoration was completed on the museum’s HH-3 “Jolly Green” rescue helicopter, which is
now a centerpiece exhibit in the SEA War Gallery. Detailed restoration work continues on the Douglas A-1H
“Skyraider” as well the iconic B-17D “Swoose” and B-17F “Memphis Belle.”

4.   Museum Collection Items, Fine Art

The art collection contains original oils, drawings, sketches and sculptures. The additions are a direct result of
the artists visiting bases and operations throughout the Air Force. This represents 20 additions from the Air
Force Art Program and 88 pieces of fine art from the National Museum of the United States Air Force. Included
in the number above are fine art paintings inclusive of the National Museum of the United States Air Force
holdings.

The collection is maintained and kept in good condition. Each year during the annual inventory, the Air Force
Art Program Office requests the condition of the paintings as well. Maintenance continues to be a constant.




                                                        81
        United States Air Force
       General Fund
       Required Supplementary Information


Stewardship Land

                                        STEWARDSHIP LAND
                               For Fiscal Year Ended September 30, 2011
                                          (Acres in Thousands)
    Facility                                         As of                                   As of
                     Facility Title                            Additions     Deletions
     Code                                           9/30/10                                 9/30/10
   9110        Government Owned Land                    1,682          0              113       1,569
   9111        State Owned Land                             0          0                0           0
   9120        Withdrawn Public land                    7,607         52                0       7,659
   9130        Licensed and Permitted Land                233         15                0         248
   9140        Public Land                                192          0                1         191
   9210        Land Easement                              162          0                2         160
   9220        In-leased Land                              92          1                0          93
   9230        Foreign Land                               321          0               25         296
                                                                             Grand Total       10,216
                                                                        Total - All Lands       2,366
                                                              Total - Stewardship Lands         7,850

Stewardship Land represents land rights owned by the Federal Government but not acquired for, or in
connection with, items of General Property, Plant, and Equipment (PP&E). “Acquired for or in connection
with” is defined as including land acquired with the intent to construct general PP&E and land acquired in
combination with general PP&E. Without exception, all land provided to the Air Force from the public domain,
or at no cost, shall be classified as Stewardship Land, regardless of its use.

The Air Force has 7,850,000 acres of mission-essential Stewardship Land under its administration. Land
purchased by the Air Force with the intent to construct buildings or facilities is considered PP&E and is
reported on the balance sheet. All stewardship land, as reported, is in acceptable condition, based on designated
use.




                                                       82
                                                       Annual Financial Statement 2011
                                                                                       General Fund
                                                               Required Supplementary Information

REAL PROPERTY DEFERRED MAINTENANCE

                                      Real Property Deferred Maintenance
                                    For Fiscal Year Ended September 30, 2011
                                                  ($ in Millions)
                                    Plant Replacement           Required Work
           Property Type                   Value            (Deferred Maintenance)            Percentage
    Category 1: Buildings,
    Structures, and Utilities
    (Enduring Facilities)                        $215,185                    $22,321             10%
    Category 2: Buildings,
    Structures, and Utilities
    (Excess Facilities or Planned
    for Replacement)
                                                  $12,186                      $268               2%
    Category 3: Buildings,
    Structures, and Utilities
    (Heritage Assets)                              $9,206                     $1,118             12%


Use of Q-Rating versus Facilities Sustainment Model (FSM) to reflect Deferred Sustainment

The figures in column one were calculated based off of the current aggregate Plant Replacement Value (PRV)
of all facilities (buildings, structures, and utilities) in the Air Force Real Property inventory of which the DoD
has ownership interest broken down by enduring, excess, and heritage. The deferred maintenance figures in
column two consist of the known maintenance and repair requirements needed to correct facility deficiencies in
our inventory.

The calculation method is the same as the previous report for deferred maintenance; however, the PRV figures
have been calculated slightly differently. The previous report calculated PRV for just those facilities with
known maintenance and repair requirements. Upon close examination of the reporting requirements in the DoD
FMR Vol. 06b-12, we included the PRV of all facilities with DoD ownership interest. Therefore, the PRV
figures have increased.

Ownership interest is defined as those assets that Air Force holds title to, as opposed to those assets owned by
foreign governments, leased facilities, out-grants, or other federal and non-federal entities.

The use of Q-Rating as a basis for calculated deferred maintenance is not prudent. The Service’s Q-Rating
database has not sufficiently matured compared with the FSM dataset.

At this stage of Q-Rating planning and development, facility Q-Ratings cannot be readily tied to actual
obligations nor do they provide a consistent service-wide metric based on commercial standards.

Based on previous submissions, the use of FSM to benchmark facility requirements has proven itself in the Air
Force Corporate Structure (AFCS) process by yielding data constancy and high fidelity. FSM can be linked to
actual obligations, is consistent across the services, and uses commercial standards in its development, which
provides the stability and credibility needed to defend program funding requirements in AFCS.



                                                        83
         United States Air Force
       General Fund
       Required Supplementary Information

The inclusion of the “A” factor to represent “acceptable operating condition” is not currently valid. At this time,
there is no dataset which can be used to underpin target Q-Rating percentages or to identify acceptable
operating conditions for specific Air Force facilities.

At A=100%, the FY 2011 accumulated deferred sustainment based on Q-Ratings is $22.3 billion as noted
above. Although a backlog of $22.3 billion obviously appears significant, this considerably large requirement
adds little value to AFCS decision-making process. From our experience, AFCS will immediately question such
a large backlog if used to defend our budget shortfalls. Variable "A" factors would need to be developed to
make the proposed deferred maintenance concept feasible.




                                     Military Equipment Deferred Maintenance
                                     For Fiscal Year Ended September 30, 2011
                                              ($ in Thousands)
                                                                      OP30
    Major Categories                                                Amounts     Adjustments         Total
    1. Aircraft                                                    $ 1,614,516   ($758,677 )       $ 855,839
    2. Automotive Equipment                                              25,182         (87)          25,095
    3. Combat Vehicles                                                        0            0               0
    4. Construction Equipment                                                 0            0               0
    5. Electronic and Communications Systems                           283,637      (18,346)         265,291
    6. Missiles                                                          41,075            0          41,075
    7. Ships                                                                  0            0               0
    8. Ordnance Weapons and Munitions                                    11,601            0          11,601
    9. General Purpose Equipment                                         15,647      (1,000)          14,647
    10. All Other Items Not Identified to Above Categories               27,510            0          27,510
    Total                                                          $ 2,019,168    ($778,110)      $1,241,058

The figures presented are projected deferred maintenance amounts for FY 2011 as reported in the FY 2012
Program Budget Review. FY 2011 Overseas Contingency Operations (OCO) supplemental funding is included
in the Adjustments column. Adjusted totals do not include Deferred Funding for Contract Logistics Support
(CLS) which contains depot maintenance, but do include Deferred Funding for Depot Purchased Equipment
Maintenance (DPEM).




                                                        84
                   Annual Financial Statement 2011


General Fund
Fiscal Year 2011
Audit Opinion




                   85
            United States Air Force
          General Fund
          Audit Opinion

                                     INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                     400 ARMY NAVY DRIVE
                                ARLINGTON, VIRGINIA 22202-4704
                                                                                      November 9, 2011

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Air Force General Fund FY 2011 and FY 2010
         Basic Financial Statements (Report No. DODIG-2012-010)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense
Inspector General to audit the accompanying Air Force General Fund Consolidated Balance
Sheet as of September 30, 2011 and 2010, and the Consolidated Statement of Net Cost,
Consolidated Statement of Changes in Net Position, Combined Statement of Budgetary
Resources, and related notes for the fiscal years then ended. The financial statements are the
responsibility of Air Force management. The Air Force is also responsible for implementing
effective internal control and for complying with laws and regulations.

We are unable to express an opinion on the Air Force General Fund FY 2011 and FY 2010 Basic
Financial Statements because of limitations on the scope of our work. Thus, the financial
statements may be unreliable. In addition to our disclaimer of opinion on the financial
statements, we are including the required Report on Internal Control and Compliance With Laws
and Regulations (Report). The Report is an integral part of our disclaimer of opinion on the
financial statements and should be considered in assessing the results of our work.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Air Force (Financial Management and Comptroller)
acknowledged to us that the Air Force General Fund FY 2011 and FY 2010 Basic Financial
Statements would not substantially conform to accounting principles generally accepted in the
United States of America (U.S. GAAP) and that Air Force financial management and feeder
systems were unable to adequately support material amounts on the financial statements as of
September 30, 2011. Section 1008(d) of the FY 2002 National Defense Authorization Act limits
the Department of Defense Inspector General to performing only those audit procedures required
by generally accepted government auditing standards that are consistent with the representations
made by management. Accordingly, we did not perform auditing procedures required by U.S.
Government Accountability Office, “Government Auditing Standards,” and Office of
Management and Budget (OMB) Bulletin No. 07-04, “Audit Requirements for Federal Financial
                         *
Statements,” as amended, to determine whether material amounts on the financial statements
were presented fairly.

Prior audits have identified, and the Air Force has acknowledged, the long-standing material
internal control weaknesses identified in the Summary of Internal Control. These pervasive
________________________
*
    OMB Memorandum No. 09-33, Technical amendments to OMB Bulletin No. 07-04, “Audit Requirements for
    Federal Financial Statements,” September 23, 2009.


                                                     86
                                        Annual Financial Statement 2011
                                                                       General Fund
                                                                         Audit Opinion

material weaknesses may affect the reliability of certain information contained in the Basic
Financial Statements. Therefore, we are unable to express, and we do not express, an opinion on
the Basic Financial Statements. Additionally, the purpose of the audit was not to express an
opinion on Management’s Discussion and Analysis, Required Supplementary Stewardship
Information, Required Supplementary Information, and Other Accompanying Information
presented with the Basic Financial Statements. Accordingly, we express no opinion on
that information.

As discussed in Note 26, Air Force restated its financial statements as of September 30, 2010, to
correct General Plant, Property, and Equipment and Cumulative Results of Operations. The
previously issued financial statements were materially misstated; however, our auditor’s report is
unchanged because of the disclaimer of opinion on the September 30, 2010 financial statements.

Summary of Internal Control
In planning our work, we considered the Air Force internal control over financial reporting and
compliance with applicable laws and regulations. We did this to determine our procedures for
auditing the financial statements and to comply with OMB guidance, but our purpose was not to
express an opinion on internal control.

Accordingly, we do not express an opinion on internal control over financial reporting and
compliance with applicable laws and regulations. However, previously identified material
weaknesses continued to exist in the following areas.

       •   Financial Management Systems
       •   Fund Balance with Treasury
       •   Operating Materials and Supplies
       •   General Property, Plant, and Equipment
       •   Government Property in Possession of Contractors
       •   Environmental Liabilities
       •   Statement of Net Cost
       •   Intragovernmental Eliminations
       •   Accounting Entries
       •   Reconciliation of Net Cost of Operations to Budget

A material weakness is a deficiency, or a combination of deficiencies, in internal control such
that there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis.

A significant deficiency is a deficiency or a combination of deficiencies, in internal control, that
is less severe than a material weakness, yet important enough to merit attention by those charged
with governance.



                                                 87
           United States Air Force
       General Fund
       Audit Opinion

The following previously identified significant deficiencies continued to exist.

       •    Accounts Receivable Financial Reporting
       •    Accounts Payable Financial Reporting
       •    Reimbursable Programs

Internal control work that we conducted as part of our prior audits did not necessarily disclose all
significant deficiencies. The Attachment offers additional details on significant deficiencies and
material weaknesses in internal control.

The Air Force reported the above weaknesses in its FY 2011 Statement of Assurance, except for
the material weaknesses involving Fund Balance with Treasury, the Statement of Net Cost and
Reconciliation of Net Cost of Operations to Budget and the significant deficiency involving
Reimbursable Programs.

Summary of Compliance With Laws and Regulations
We limited our work to determining compliance with selected provisions of applicable laws and
regulations related to financial reporting because management acknowledged that instances of
noncompliance identified in prior audits continued to exist. The Assistant Secretary of the
Air Force (Financial Management and Comptroller) acknowledged to us that the Air Force
financial management systems do not substantially comply with Federal financial management
system requirements, U.S. GAAP, and the U.S. Government Standard General Ledger at the
transaction level. Therefore, we did not determine whether the Air Force complied with all
applicable laws and regulations related to financial reporting. Providing an opinion on
compliance with certain provisions of laws and regulations was not an objective of our audit, and
accordingly, we do not express such an opinion. See the Attachment for additional details on
compliance with laws and regulations.

Management’s Responsibilities
Management is responsible for:

   •   preparing the financial statements in conformity with U.S. GAAP;

   •   establishing, maintaining, and assessing internal control to provide reasonable assurance
       that the broad control objectives of the Federal Managers’ Financial Integrity Act are
       met; and

   •   complying with applicable laws and regulations.




                                                 88
                                       Annual Financial Statement 2011
                                                                    General Fund
                                                                     Audit Opinion

We provided a draft of this report to the Assistant Secretary of the Air Force (Financial
Management and Comptroller), who did not provide technical comments to our report.
Air Force officials expressed their continuing commitment to addressing the problems this report
outlines.




                                             Amy J. Frontz, CPA
                                             Principal Assistant Inspector General
                                               for Audit
Attachment:
As stated




                                               89
        United States Air Force
       General Fund
       Audit Opinion


               Report on Internal Control and
            Compliance With Laws and Regulations
Internal Control
Management is responsible for implementing and maintaining effective internal control and for
providing reasonable assurance that accounting data are accumulated, recorded, and reported
properly; that the requirements of applicable laws and regulations are met; and that assets are
safeguarded against misappropriation and abuse. Our purpose was not to, and we do not, express
an opinion on internal control over financial reporting. However, we have identified the
following material weaknesses and significant deficiencies, which could adversely affect the
Air Force financial management operations.

Previously Identified Material Weaknesses
Management acknowledged that previously identified material weaknesses continued to exist in
the following areas.

Financial Management Systems
Statement of Federal Financial Accounting Concepts No. 1, “Objectives of Federal Financial
Reporting,” requires that financial management system controls be adequate to ensure that
transactions are executed in accordance with budgetary and financial laws and other
requirements, are consistent with the purposes authorized, and are recorded in accordance with
Federal accounting standards. This statement also requires that financial management system
controls ensure the proper safeguarding of assets to deter fraud, waste, and abuse and provide
adequate support for performance measurement information. The Assistant Secretary of the
Air Force (Financial Management and Comptroller) acknowledged that many Air Force financial
management systems did not substantially comply with Federal financial management system
requirements. The design of the Air Force financial management and feeder systems did not
allow them to collect and record financial information based on a full-accrual accounting basis.
Until these systems are able to collect and report financial information in compliance with
U.S. GAAP, the Air Force proprietary financial reporting will be largely based on budgetary
transactions and nonfinancial feeder systems.

Fund Balance With Treasury
During an evaluation of internal controls, the Air Force discovered and confirmed deficiencies in
the reconciliation of the Fund Balance with Treasury between the Air Force accounting records
and the corresponding balances reported by Treasury. The Air Force did not have assurance that
it can reconcile its reported balance of Fund Balance with Treasury to the balance the Treasury
maintains because it currently did not receive transaction-level data from other DoD Components
processing collection and disbursement data on its behalf. Air Force management completed an
assertion subsequent to 2011 fiscal year-end, that it has developed internal reconciliation
processes to mitigate this weakness in accordance with the DoD Financial Improvement and
Audit Readiness Guidance. We will conduct audit procedures on management’s assertion during
fiscal year 2012.

                                                                                       Attachment
                                                                                       Page 1 of 5
                                               90
                                        Annual Financial Statement 2011
                                                                     General Fund
                                                                       Audit Opinion
Operating Materials and Supplies
The Air Force is required by Statement of Federal Financial Accounting Standards No. 3,
“Accounting for Inventory and Related Property,” to use historical cost to value its Operating
Materials and Supplies inventory. This statement also requires that an expense be recorded for
Operating Materials and Supplies when the user consumes such items. The Air Force has
acknowledged that significant amounts of Operating Materials and Supplies were valued using
standard prices, and it did not always use the consumption method to recognize the related
expense. Accordingly, management was not certain that the Operating Materials and Supplies
balances reported in its Basic Financial Statements were accurate.

General Property, Plant, and Equipment
Statement of Federal Financial Accounting Standards No. 6, “Accounting for Property, Plant,
and Equipment,” requires the Air Force to record General Property, Plant, and Equipment using
acquisition cost, capitalized improvement costs, and depreciation expense. However, the
Air Force has acknowledged that despite its implementation of a new system to improve its
controls over recording real property, construction-in-progress, and related expenses, additional
corrective actions including improving supporting documentation were required prior to the
validation of real property financial reporting. This validation was required to ensure real
property reporting did not materially misstate General Property, Plant, and Equipment.

Government Property in Possession of Contractors
Statement of Federal Financial Accounting Standards No. 23, “Accounting for Property, Plant,
and Equipment,” requires that entities report on its Balance Sheet the property owned by
reporting entities in the possession of federal contractors. The Air Force has acknowledged that
its balance did not include the cost of all Government-furnished material in the hands of
contractors where such value exceeds the capitalization threshold. As a result, the Air Force did
not reliably report the value of its property and material in the possession of contractors.

Environmental Liabilities
The Air Force was not able to support its environmental clean-up cost estimates as recorded in
the Air Force Real Property Agency management information system. This system provides
unsupported cost information for reporting in the annual financial statements.

Statement of Net Cost
Statement of Federal Financial Accounting Concepts No. 2, “Entity and Display,” requires that
that Statement of Net Cost present gross and net cost information for major organization and
programs and data related to their outputs and outcomes. The Air Force acknowledged that it
accumulates the amounts reported in its Statement of Net Cost by major appropriation groups
funded by Congress and not by major organization and programs, as required. In addition, the
Air Force did not accumulate cost information in accordance with U.S. GAAP. It presented the
amounts for the General Fund based on budgetary obligations, disbursements, and collections,
with adjustments made for only major items of known accruals and imputed expenses. Thus, the
Statement of Net Cost may not report all actual costs or may report costs not actually incurred.




                                                                                        Attachment
                                                                                        Page 2 of 5
                                                91
        United States Air Force
       General Fund
       Audit Opinion

Intragovernmental Eliminations
Air Force accountants could not always identify intragovernmental trading partners when
recording transactions. Thus, the Air Force could not properly eliminate all transactions among
its internal organizational elements. In addition, the Air Force could not reconcile
intragovernmental accounts receivable, accounts payable, and revenues for transactions between
its DoD and other Federal trading partners. This may prevent the Air Force from properly
eliminating all of its intragovernmental transactions.

Accounting Entries
The Air Force acknowledged that it continued to enter material amounts of accounting
adjustments without adequate detailed transaction support. Additionally, there were material
transactions that the Air Force has not properly recorded in the accounting records underlying the
Basic Financial Statements or the notes to the Basic Financial Statements. The lack of adequate
supporting documentation for material adjustments prevents an audit of the related financial
statement amounts.

Reconciliation of Net Cost of Operations to Budget
Statement of Federal Financial Accounting Standards No. 7, “Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting,” states
that the Reconciliation of Net Costs of Operations to Budget (in the footnotes to the Basic
Financial Statements) should reconcile resources obligated during the accounting period to the
net cost of operations for that period. However, as stated in preceding paragraphs, the amounts
presented in the Consolidated Statement of Net Costs and assets and liabilities reported in the
Balance Sheet may be inaccurate. The Air Force did not reconcile budgetary amounts to actual
proprietary expenses and assets and liabilities.

Previously Identified Significant Deficiencies
Previously identified significant deficiencies continued to exist in the following areas.

Accounts Receivable Financial Reporting
The Air Force could not ensure the accuracy of its Accounts Receivable financial statement line
item because of weaknesses in the intragovernmental trading partner eliminations, Foreign
Military Sales, and supporting documentation. These deficiencies resulted in the inability to
properly reconcile and support the validity of Accounts Receivable.

Accounts Payable Financial Reporting
The Air Force could not ensure the accuracy of the amount of Accounts Payable reported in the
Basic Financial Statements because of the financial system internal control weaknesses. Because
of these weaknesses, the Air Force could not support entries to Accounts Payable or reconcile the
reported balance to transaction detail.

Reimbursable Programs
Statement of Federal Financial Accounting Concepts (SFFAC) No. 1, “Objectives of Federal
Financial Reporting,” requires the Air Force to track the cost of performing work reimbursed by


                                                                                            Attachment
                                                                                            Page 3 of 5
                                                 92
                                         Annual Financial Statement 2011
                                                                        General Fund
                                                                         Audit Opinion

other Government entities or by non-Federal customers. SFFAC No. 1 defines costs as a
measure of resources (personnel, material, and equipment) used to accomplish the work. The
Air Force has acknowledged that its reimbursable programs may not recover all billable costs
incurred in the fulfillment of reimbursable orders. Specifically, the Air Force was not always
able to identify logistical, contractual, or labor costs incurred in support of reimbursable orders;
therefore, such costs were not properly billed to the customer.

These financial management deficiencies may cause inaccurate management information. As a
result, Air Force management decisions based in whole or in part on this information may be
adversely affected. Financial information reported by DoD may also contain misstatements
resulting from these deficiencies.

Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial
reporting. We limited our work to determining compliance with selected provisions of the
applicable laws and regulations because management acknowledged instances of noncompliance,
and previously reported instances of noncompliance continued to exist. Therefore, we did not
determine whether the Air Force complied with selected provisions of all applicable laws and
regulations related to financial reporting. Our objective was not to, and we do not, express an
opinion on overall compliance with applicable laws and regulations.

Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 (FFMIA) requires DoD to
establish and maintain financial management systems that comply substantially with Federal
financial management system requirements, applicable Federal accounting standards, and the
U.S. Government Standard General Ledger at the transaction level. For FY 2011, the Air Force
did not fully comply with FFMIA. The Air Force acknowledged that many of its critical
financial management and feeder systems did not substantially comply with Federal financial
management system requirements, Federal accounting standards, and the U.S. Government
Standard General Ledger at the transaction level as of September 30, 2011.

Antideficiency Act
Section 1341, title 31, United States Code (31 U.S.C. § 1341[1990]) limits the Air Force and its
agents to making or authorizing only expenditures or obligations that do not exceed the available
appropriations or funds. Additionally, the Air Force and its agents may not contract or obligate
for the payment of money before an appropriation is made available for that contract or
obligation unless otherwise authorized by law. According to 31 U.S.C. § 1351 (2004), if an
officer or employee of an executive agency violates the Antideficiency Act (ADA), the head of
the agency must report immediately to the President and Congress all relevant facts and a
statement of actions taken. During FY 2011, the Air Force General Fund reported three cases of
violation of ADA. Therefore, the Air Force did not comply with 31 U.S.C. § 1341.




                                                                                           Attachment
                                                                                           Page 4 of 5
                                                 93
        United States Air Force
       General Fund
       Audit Opinion

Audit Disclosures
The Assistant Secretary of the Air Force (Financial Management and Comptroller)
acknowledged to us on April 1, 2011, that the Air Force financial management and feeder
systems could not provide adequate evidence supporting various material amounts on the
financial statements and that previously identified material weaknesses continued to exist.
Therefore, we did not perform detailed testing related to previously identified material
weaknesses. In addition, we did not perform audit work related to the following selected
provisions of laws and regulations: Government Performance and Results Act, Improper
Payments Information Act, Federal Credit Reform Act, Pay and Allowance System for Civilian
Employees, Prompt Payment Act, and Provisions Governing Claims of the United States
Government (including provisions of the Debt Collection Improvement Act).

This report does not include recommendations to correct the material internal control weaknesses
and instances of noncompliance with laws and regulations because previous audit reports
contained recommendations for corrective actions or because audit projects currently in progress
will include appropriate recommendations.




                                                                                      Attachment
                                                                                      Page 5 of 5
                                              94
                                              Annual Financial Statement 2011


Working Capital Fund
Principal Statements
Fiscal Year 2011
The FY 2011 Department of the Air Force Working Capital Fund Principal Statements and
related notes are presented in the format prescribed by the Department of Defense Financial
Management Regulation 7000.14-R, Volume 6B. The statements and related notes summarize
financial information for individual activity groups and activities within the Working Capital
Fund for the fiscal year ending September 30, 2011, and are presented on a comparative basis
with information previously reported for the fiscal year ending September 30, 2010.
The following statements comprise the Department of the Air Force Working Capital Fund
Principal Statements:
Consolidated Balance Sheet
The Consolidated Balance Sheet presents as of September 30, 2011 and 2010 those resources
owned or managed by the Air Force which are available to provide future economic benefits
(assets); amounts owed by the Air Force that will require payments from those resources or
future resources (liabilities); and residual amounts retained by the Air Force, comprising the
difference (net position)

Consolidated Statement of Net Cost
The Consolidated Statement of Net Cost presents the net cost of the Air Force’s operations for
the years ended September 30, 2011 and 2010. The Air Force’s net cost of operations includes
the gross costs incurred by the Air Force less any exchange revenue earned from Air Force
activities.
Consolidated Statement of Changes in Net Position
The Consolidated Statement of Changes in Net Position presents the change in the Air Force’s
net position resulting from the net cost of Air Force’s operations, budgetary financing sources
other than exchange revenues, and other financing sources for the years ended September 30,
2011 and 2010.
Combined Statement of Budgetary Resources
The Combined Statement of Budgetary Resources presents the budgetary resources available to
the Air Force during FY 2011 and 2010, the status of these resources at September 30, 2011 and
2010, and the outlay of budgetary resources for the years ended September 30, 2011 and 2010.
The Principal Statements and related notes have been prepared to report financial position
pursuant to the requirements of the Chief Financial Officers Act of 1990, the Government
Management Reform Act of 1994, and the Office of Management and Budget’s Circular A-136,
“Financial Reporting Requirements.”




                                               95
        United States Air Force
       Working Capital Fund
       Principal Statements
                                                     Department of Defense
                                                Air Force Working Capital Fund
                                               CONSOLIDATED BALANCE SHEET
                                               As of September 30, 2011 and 2010
                                                        ($ in Thousands)


                                                                              2011 Consolidated                    2010 Consolidated

ASSETS (Note 2)
     Intragovernmental:
       Fund Balance with Treasury (Note 3)                                $                   670,929          $                311,557
       Accounts Receivable (Note 5)                                                           933,040                           819,796
       Other Assets (Note 6)                                                                  111,126                                  0
       Total Intragovernmental Assets                                     $                 1,715,095          $              1,131,353


     Accounts Receivable,Net (Note 5)                                                            3,710                           13,057
     Inventory and Related Property,Net (Note 9)                                           26,813,221                        28,294,357
     General Property, Plant and Equipment,Net (Note 10)                                    1,458,929                         1,353,836
     Other Assets (Note 6)                                                                    336,601                           525,087
TOTAL ASSETS                                                              $                30,327,556          $             31,317,690
STEWARDSHIP PROPERTY, PLANT & EQUIPMENT (Note 10)


LIABILITIES (Note 11)
     Intragovernmental:
       Accounts Payable (Note 12)                                         $                   226,029          $                144,788
       Other Liabilities (Note 15 & 16)                                                        55,730                            18,180
       Total Intragovernmental Liabilities                                $                   281,759          $                162,968


     Accounts Payable (Note 12)                                           $                   694,713          $                715,535
     Military Retirement and Other Federal                                                    214,927                           198,905
     Employment Benefits (Note 17)
     Other Liabilities (Note 15 and Note 16)                                                  239,258                           429,769
TOTAL LIABILITIES                                                         $                 1,430,657          $              1,507,177


COMMITMENTS AND CONTINGENCIES (NOTE 16)
NET POSITION
    Unexpended Appropriations - Other Funds                                                    36,975                            24,173
    Cumulative Results of Operations - Other Funds                                         28,859,924                        29,786,340
TOTAL NET POSITION                                                        $                28,896,899          $             29,810,513


TOTAL LIABILITIES AND NET POSITION                                        $                30,327,556          $             31,317,690




                                  The accompanying notes are an integral part of these financial statements.

                                                                     96
                                                                    Annual Financial Statement 2011
                                                                                               Working Capital Fund
                                                                                                     Principal Statements
                                                       Department of Defense
                                                  Air Force Working Capital Fund
                                           CONSOLIDATED STATEMENT OF NET COST
                                        For the periods ended September 30, 2011 and 2010
                                                         ($ in Thousands)


                                                                                      2011 Consolidated             2010 Consolidated


Program Costs
     Gross Costs                                                                  $             13,099,620      $            11,822,543
      Operations, Readiness & Support                                                           13,099,620                   11,822,543



     (Less: Earned Revenue)                                                                    (11,852,895)                 (10,328,350)
     Net Cost before Losses/(Gains) from Actuarial Assumption Changes                             1,246,725                   1,494,193
     for Military Retirement Benefits
     Net Program Costs Including Assumption Changes                                               1,246,725                   1,494,193
Net Cost of Operations                                                            $               1,246,725     $             1,494,193




                                  The accompanying notes are an integral part of these financial statements.

                                                                     97
         United States Air Force
       Working Capital Fund
       Principal Statements
                                               Department of Defense
                                          Air Force Working Capital Fund
                            CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                For the periods ended September 30, 2011 and 2010
                                                 ($ in Thousands)

                                                                               2011
                                                                                            2011 All             2011             2011
                                                                            Earmarked
                                                                                          Other Funds        Eliminations     Consolidated
                                                                              Funds
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                      $           0 $     29,786,340 $                0 $     29,786,340
Beginning balances, as adjusted                                                     0       29,786,340                  0       29,786,340
Budgetary Financing Sources:
    Appropriations used                                                             0            54,059                 0           54,059
    Transfers-in/out without reimbursement                                          0                 0                 0                0
Other Financing Sources:
    Transfers-in/out without reimbursement (+/-)                                    0         (10,561)                  0         (10,561)
    Imputed financing from costs absorbed by others                                 0          191,388                  0          191,388
    Other (+/-)                                                                     0           85,423                  0           85,423
Total Financing Sources                                                             0          320,309                  0          320,309
Net Cost of Operations (+/-)                                                        0        1,246,725                  0        1,246,725
Net Change                                                                          0        (926,416)                  0        (926,416)
Cumulative Results of Operations                                                    0       28,859,924                  0       28,859,924
UNEXPENDED APPROPRIATIONS
Beginning Balances                                                      $           0 $          24,173 $               0 $         24,173
Beginning balances, as adjusted                                                     0            24,173                 0           24,173
Budgetary Financing Sources:
    Appropriations received                                                         0           66,861                  0           66,861
    Other adjustments (rescissions, etc)                                            0                0                  0                0
    Appropriations used                                                             0         (54,059)                  0         (54,059)
Total Budgetary Financing Sources                                                   0           12,802                  0           12,802
Unexpended Appropriations                                                           0           36,975                  0           36,975
Net Position                                                                        0       28,896,899                  0       28,896,899




                                The accompanying notes are an integral part of these financial statements.

                                                                   98
                                                                  Annual Financial Statement 2011
                                                                                             Working Capital Fund
                                                                                                   Principal Statements
                                               Department of Defense
                                          Air Force Working Capital Fund
                            CONSOLIDATED STATEMENT OF CHANGES IN NET POSITION
                                For the periods ended September 30, 2011 and 2010
                                                 ($ in Thousands)

                                                                               2010
                                                                                            2010 All             2010             2010
                                                                            Earmarked
                                                                                          Other Funds        Eliminations     Consolidated
                                                                              Funds
CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                      $           0 $     31,669,370 $                0 $     31,669,370
Beginning balances, as adjusted                                                     0       31,669,370                  0       31,669,370
Budgetary Financing Sources:
    Appropriations used                                                             0            46,100                 0           46,100
    Transfers-in/out without reimbursement                                          0         (297,535)                 0        (297,535)
Other Financing Sources:
    Transfers-in/out without reimbursement (+/-)                                    0        (310,795)                  0         (310,795)
    Imputed financing from costs absorbed by others                                 0          188,664                  0           188,664
    Other (+/-)                                                                     0         (15,271)                  0          (15,271)
Total Financing Sources                                                             0        (388,837)                  0         (388,837)
Net Cost of Operations (+/-)                                                        0        1,494,193                  0         1,494,193
Net Change                                                                          0      (1,883,030)                  0       (1,883,030)
Cumulative Results of Operations                                                    0       29,786,340                  0        29,786,340
UNEXPENDED APPROPRIATIONS
Beginning Balances                                                      $           0 $           1,016 $               0 $          1,016
Beginning balances, as adjusted                                                     0             1,016                 0            1,016
Budgetary Financing Sources:
    Appropriations received                                                         0           69,443                  0           69,443
    Other adjustments (rescissions, etc)                                            0            (186)                  0            (186)
    Appropriations used                                                             0         (46,100)                  0         (46,100)
Total Budgetary Financing Sources                                                   0           23,157                  0           23,157
Unexpended Appropriations                                                           0           24,173                  0           24,173
Net Position                                                                        0       29,810,513                  0       29,810,513




                                The accompanying notes are an integral part of these financial statements.

                                                                   99
         United States Air Force
        Working Capital Fund
        Principal Statements
                                           Department of Defense
                                      Air Force Working Capital Fund
                          COMBINED STATEMENT OF BUDGETARY RESOURCES
                            For the periods ended September 30, 2011 and 2010
                                             ($ in Thousands)
                                                                           2011 Combined                                        2010 Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES

Unobligated balance, brought forward, October 1                                                    $             532,408    $          373,638
Recoveries of prior year unpaid obligations                                                                      103,939                33,765
Budget authority
     Appropriation                                                                                                66,861                69,443
     Contract authority                                                                                        7,989,074             7,757,396
     Spending authority from offsetting collections
            Earned
                 Collected                                                                                    13,036,493            11,598,599
                 Change in receivables from Federal sources                                                      113,710              (13,963)
            Change in unfilled customer orders
                 Advance received                                                                                (12,139)              (11,153)
                 Without advance from Federal sources                                                           (387,634)               206,018
     Subtotal                                                                                                  20,806,365            19,606,340
Nonexpenditure transfers, net, anticipated and actual                                                                   0             (297,535)
Permanently not available                                                                                     (8,511,828)           (7,103,433)
Total Budgetary Resources                                                                          $           12,930,884   $        12,612,775
Status of Budgetary Resources:
Obligations incurred:
     Reimbursable                                                                                  $          12,375,556    $       12,080,367
     Subtotal                                                                                                 12,375,556            12,080,367
Unobligated balance:
     Apportioned                                                                                                 555,328                     0
     Exempt from apportionment                                                                                         0               532,408
     Subtotal                                                                                                    555,328               532,408
Total status of budgetary resources                                                                $          12,930,884    $       12,612,775
Change in Obligated Balance:
Obligated balance, net
     Unpaid obligations, brought forward, October 1                                                $        7,824,540       $         7,522,917
     Less: Uncollected customer payments from Federal sources, brought forward, October 1                 (3,893,169)               (3,701,113)
     Total unpaid obligated balance                                                                         3,931,371                 3,821,804
Obligations incurred net (+/-)                                                                             12,375,556                12,080,367
Less: Gross outlays                                                                                      (12,731,843)              (11,744,979)
Less: Recoveries of prior year  unpaid obligations, actual                                                  (103,939)                  (33,765)
Change in uncollected customer payments from Federal sources (+/-)                                            273,922                 (192,055)
Obligated balance, net, end of  period
     Unpaid obligations                                                                                         7,364,314             7,824,540
     Less: Uncollected customer payments from Federal sources (-)                                             (3,619,247)           (3,893,168)
     Total, unpaid obligated balance, net, end of period                                                        3,745,067             3,931,372
Net Outlays
Net Outlays:
     Gross outlays                                                                                         12,731,843                11,744,979
     Less: Offsetting collections                                                                        (13,024,352)              (11,587,446)
     Net Outlays                                                                                   $        (292,509)       $           157,533

                                 The accompanying notes are an integral part of these financial statements.

                                                                   100
                                              Annual Financial Statement 2011


Working Capital Fund
Fiscal Year 2011
Notes to the Principal Statements
Notes to the financial statements communicate information essential for fair presentation
of the financial statements that is not displayed on the face of the financial statements.




                                              101
          United States Air Force
        Working Capital Fund
        Notes to the Principal Statements

 Note 1.          Significant Accounting Policies

1.A. Basis of Presentation
These financial statements have been prepared to report the financial position and results of operations of the Air Force
Working Capital Fund (AFWCF), as required by the Chief Financial Officers Act of 1990, expanded by the Government
Management Reform Act of 1994, and other appropriate legislation. The financial statements have been prepared from
the books and records of the AFWCF in accordance with, and to the extent possible, U.S. generally accepted accounting
principles (USGAAP) promulgated by the Federal Accounting Standards Advisory Board; the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements; and the Department of Defense (DoD), Financial
Management Regulation (FMR). The accompanying financial statements account for all resources for which the AFWCF
is responsible unless otherwise noted.

The AFWCF is unable to fully implement all elements of USGAAP and the OMB Circular No. A-136, due to limitations of
financial and nonfinancial management processes and systems that support the financial statements. The AFWCF
derives reported values and information for major asset and liability categories largely from nonfinancial systems, such as
inventory and logistic systems. These systems were designed to support reporting requirements for maintaining
accountability over assets and reporting the status of federal appropriations rather than preparing financial statements in
accordance with USGAAP. The AFWCF continues to implement process and system improvements addressing these
limitations.

The AFWCF currently has eight auditor identified financial statement material weaknesses: (1) Financial and nonfinancial
feeder systems do not contain an adequate audit trail for the proprietary and budgetary accounts; (2) AFWCF may have
material amounts of account adjustments that are not adequately supported; (3) AFWCF cannot accurately identify all
intragovernmental transactions by customer, which is required for eliminations when preparing consolidated financial
statements; (4) The value of the AFWCF government furnished and contractor acquired material and equipment may not
be accurately reported; (5) AFWCF General Property, Plant, and Equipment (PP&E) may not be accurately valued; (6)
Operating Materials and Supplies (OM&S) are not reflected at historical cost; (7) Cost of goods sold and work in progress
are not recorded in accordance with the Statement of Federal Financial Accounting Standards (SFFAS) No. 3,
"Accounting for Inventory and Related Property;" and (8) Supply management systems do not provide sufficient audit
trails to confirm and value the in-transit inventory reported as part of inventory held for sale on the Consolidated Balance
Sheet.

1.B. Mission of the Reporting Entity
The United States Air Force was created on September 18, 1947, by the National Security Act of 1947. The National
Security Act Amendments of 1949 established the DoD and made the Air Force a department within DoD. The overall
mission of the United States Air Force is to fly, fight and win...in air, space and cyberspace. Our priorities are:
(1) Continue to strengthen the nuclear enterprise; (2) Partner with the Joint and Coalition team to win today’s fight; (3)
Develop and care for Airmen and their families; (4) Modernize our air and space inventories, organizations, and training;
and (5) Recapture acquisition excellence.

The stock and industrial revolving fund accounts were created by the National Security Act of 1947, as amended in 1949
and codified in United States Code 10 Section 2208. The revolving funds were established as a means to more effectively
control the cost of work performed by DoD. The DoD began operating under the revolving fund concept on July 1, 1951.

Effective FY 2009, AFWCF operations consist of two major activity groups: Consolidated Sustainment Activity Group
(CSAG) and the Supply Management Activity Group - Retail (SMAG-R). All AFWCF CSAG and SMAG-R activities
establish rates based on full cost recovery. If an operating loss or gain is incurred, the activity will make the appropriate
adjustment in following years’ prices to recoup the loss or return the gain to their customers.

The mission of CSAG is supply management of reparable and consumable items, and maintenance activities. The CSAG
combines the activities of the previous Material Support Division (MSD) of the Supply Management Activity Group and the
Depot Maintenance Activity Group (DMAG). Under CSAG, business operations formerly known as DMAG are now related
to the Maintenance Division. Likewise, business operations formerly known as MSD are now referred to as the Supply
Division.



                                                              102
                                                           Annual Financial Statement 2011
                                                                                 Working Capital Fund
                                                                         Notes to the Principal Statements

Supply Division activities of CSAG are authorized to procure and manage reparable and consumable items for which the
Air Force is the Inventory Control Point. The Supply Division manages more than 106 thousand items that are generally
related to weapon systems and ground support, and include both depot level reparables and non-depot level reparables.

Maintenance Division activities of CSAG are authorized to perform: (a) overhaul, conversion, reclamation, progressive
maintenance, modernization, software development, storage, modification, and repair of aircraft, missiles, engines,
accessories, components, and equipment; (b) the manufacture of parts and assemblies required to support the foregoing;
and (c) the furnishing of other authorized services or products for the Air Force and other agencies of the DoD. As
directed by the Air Force Materiel Command or higher authority, the Maintenance Division may furnish the above
mentioned products or services to agencies of other departments or instrumentalities of the U.S. Government, and to
private parties and other agencies, as authorized by law.

The SMAG-R consists of three business divisions: General Support Division (GSD), Medical-Dental Division, and Air
Force Academy Division. GSD procures and manages nearly 1.1 million consumable supply items related to
maintenance, flying hour program, and installation functions. The majority are used in support of field and depot
maintenance of aircraft, ground and airborne communication systems, and other support systems and equipment. The
Medical-Dental Division procures and manages nearly 9 thousand different medical supply items and equipment
necessary to maintain an effective Air Force Health Care system for the active military, retirees and their dependents. The
Air Force Academy Division procures and manages a retail inventory of uniforms, academic supplies and other recurring
issue requirements for the Cadet Wing of the United States Air Force Academy. Inventory procurement is only for
mandatory items as determined by the Cadet Uniform Board.

1.C. Appropriations and Funds
The AFWCF receives appropriations and funds as general and working capital (revolving) funds. The AFWCF uses these
appropriations and funds to execute its missions and subsequently report on resource usage.

Working Capital Funds (WCF) received funding to establish an initial corpus through an appropriation or a transfer of
resources from existing appropriations or funds. The corpus finances operations and transactions that flow through the
fund. The WCF resources the goods and services sold to customers on a reimbursable basis and maintains the corpus.
Reimbursable receipts fund future operations and generally are available in their entirety for use without further
congressional action. At various times, Congress provides additional appropriations to supplement WCF as an infusion of
cash when revenues are inadequate to cover costs within the corpus.

1.D. Basis of Accounting
The AFWCF financial management systems are unable to meet all full accrual accounting requirements. Many of the
AFWCF financial and nonfinancial feeder systems and processes were designed and implemented prior to the issuance
of USGAAP. These systems were not designed to collect and record financial information on the full accrual accounting
basis as required by USGAAP. Most of AFWCF’s financial and nonfinancial legacy systems were designed to record
information on a budgetary basis.

The AFWCF financial statements and supporting trial balances are compiled from the underlying financial data and trial
balances of AFWCF sub-entities. The underlying data is largely derived from budgetary transactions (obligations,
disbursements, and collections), from nonfinancial feeder systems, and accruals made for major items such as payroll
expenses, accounts payable, and environmental liabilities. Some of the sub-entity level trial balances may reflect known
abnormal balances resulting largely from business and system processes. At the consolidated AFWCF level these
abnormal balances may not be evident. Disclosures of abnormal balances are made in the applicable footnotes, but only
to the extent that the abnormal balances are evident at the consolidated level.

The DoD is determining the actions required to bring its financial and nonfinancial feeder systems and processes into
compliance with USGAAP. One such action is the current revision of accounting systems to record transactions based on
the U.S. Standard General Ledger (USSGL). Until all AFWCF’s financial and nonfinancial feeder systems and processes
are updated to collect and report financial information as required by USGAAP, AFWCF’s financial data will be derived
from budgetary transactions, data from nonfinancial feeder systems, and accruals.

1.E. Revenues and Other Financing Sources
The CSAG Maintenance Division recognizes revenue according to the percentage of completion method. The CSAG
Supply Division and SMAG-R recognize revenue based on flying hours executed and the sale of inventory items.


                                                           103
         United States Air Force
        Working Capital Fund
        Notes to the Principal Statements


1.F. Recognition of Expenses
For financial reporting purposes, DoD policy requires the recognition of operating expenses in the period incurred. Current
financial and nonfinancial feeder systems were not designed to collect and record financial information on the full accrual
accounting basis. Estimates are made for major items such as payroll expenses, accounts payable, and unbilled revenue.
In the case of OM&S, the consumption method is used. Under the consumption method, OM&S would be expensed when
consumed. Due to system limitations, in some instances expenditures for capital and other long-term assets may be
recognized as operating expenses. The AFWCF continues to implement process and system improvements to address
these limitations.

1.G. Accounting for Intragovernmental Activities
Accounting standards require that an entity eliminates intraentity activity and balances from consolidated financial
statements in order to prevent overstatement for business with itself. However, the AFWCF cannot accurately identify
intragovernmental transactions by customer because AFWCF’s systems do not track buyer and seller data at the
transaction level. Generally, seller entities within the DoD provide summary seller-side balances for revenue, accounts
receivable, and unearned revenue to the buyer-side internal DoD accounting offices. In most cases, the buyer-side
records are adjusted to agree with DoD seller-side balances and are then eliminated. The DoD is implementing
replacement systems and a standard financial information structure that will incorporate the necessary elements that will
enable DoD to correctly report, reconcile, and eliminate intragovernmental balances.

The U.S. Treasury’s Federal Intragovernmental Transactions Accounting Policy Guide and Treasury Financial Manual
Part 2 – Chapter 4700, Agency Reporting Requirements for the Financial Report of the United States Government,
provide guidance for reporting and reconciling intragovernmental balances. While AFWCF is unable to fully reconcile
intragovernmental transactions with all federal agencies, AFWCF is able to reconcile balances pertaining to Federal
Employees’ Compensation Act transactions with the Department of Labor, and benefit program transactions with the
Office of Personnel Management.

The DoD’s proportionate share of public debt and related expenses of the Federal Government is not included. The
Federal Government does not apportion debt and its related costs to federal agencies. The DoD’s financial statements do
not report any public debt, interest or source of public financing, whether from issuance of debt or tax revenues.

Generally, financing for the construction of DoD facilities is obtained through appropriations. To the extent this financing
ultimately may have been obtained through the issuance of public debt, interest costs have not been capitalized since the
U.S. Treasury does not allocate such costs to DoD.

1.H. Transactions with Foreign Governments and International Organizations
Each year, AFWCF sells defense articles and services to foreign governments and international organizations under the
provisions of the Arms Export Control Act of 1976. Under the provisions of the Act, DoD has authority to sell defense
articles and services to foreign countries and international organizations generally at no profit or loss to the Federal
Government. Payment in U.S. dollars is required in advance.

1.I. Funds with the U.S. Treasury
The AFWCF’s monetary resources are maintained in U.S. Treasury accounts. The disbursing offices of Defense Finance
and Accounting Service (DFAS), the Military Departments, the U.S. Army Corps of Engineers (USACE), and the
Department of State’s financial service centers process the majority of the AFWCF’s cash collections, disbursements, and
adjustments worldwide. Each disbursing station prepares monthly reports to the U.S. Treasury on checks issued,
electronic fund transfers, interagency transfers, and deposits.

In addition, DFAS sites and USACE Finance Center submit reports to the U.S. Treasury by appropriation on interagency
transfers, collections received, and disbursements issued. The U.S. Treasury records these transactions to the applicable
Fund Balance with Treasury (FBWT) account. On a monthly basis, AFWCF’s FBWT is adjusted to agree with the U.S.
Treasury accounts.

1.J. Cash and Foreign Currency
Not applicable.




                                                            104
                                                            Annual Financial Statement 2011
                                                                                  Working Capital Fund
                                                                          Notes to the Principal Statements

1.K. Accounts Receivable
Accounts receivable from other federal entities or the public include: accounts receivable, claims receivable, and refunds
receivable. Allowances for uncollectible accounts due from the public are based upon analysis of collection experience by
fund type. The DoD does not recognize an allowance for estimated uncollectible amounts from other federal agencies.
Claims against other federal agencies are to be resolved between the agencies in accordance with dispute resolution
procedures defined in the Intragovernmental Business Rules published in the Treasury Financial Manual.

1.L. Direct Loans and Loan Guarantees
Not applicable.

1.M. Inventories and Related Property
The AFWCF values approximately 99% of its resale inventory using the moving average cost method and reports the
remaining 1% of resale inventories at an approximation of historical cost using latest acquisition cost adjusted for holding
gains and losses. The latest acquisition cost method is used because legacy inventory systems were designed for
materiel management rather than accounting. Although these systems provide visibility and accountability over inventory
items, they do not maintain historical cost data necessary to comply with SFFAS No. 3, Accounting for Inventory and
Related Property. Additionally, these systems cannot produce financial transactions using the USSGL, as required by the
Federal Financial Management Improvement Act of 1996 (PL 104-208). The AFWCF is continuing to transition the
balance of the inventories to the moving average cost method through the use of new inventory systems. Most
transitioned balances, however, were not baselined to auditable historical cost and remain noncompliant with SFFAS No.
3.

The AFWCF manages only military or government-specific materiel under normal conditions. Materiel is a unique term
that relates to military force management, and includes items such as ships, tanks, self-propelled weapons, aircraft, etc.,
and related spares, repair parts, and support equipment. Items commonly used in and available from the commercial
sector are not managed in AFWCF’s materiel management activities. Operational cycles are irregular and the military
risks associated with stock-out positions have no commercial parallel. The AFWCF holds materiel based on military need
and support for contingencies. The DoD is currently developing a methodology to be used to account for “inventory held
for sale” and “inventory held in reserve for future sale.”

Related property includes OM&S which is valued at purchase price. The AFWCF uses the consumption method of
accounting for OM&S.

The AFWCF recognizes excess, obsolete, and unserviceable inventory and OM&S at a net realizable value of $0 pending
development of an effective means of valuing such material.

Inventory available and purchased for resale includes consumable spare and repair parts and repairable items owned and
managed by AFWCF. This inventory is retained to support military or national contingencies. Inventory held for repair is
damaged inventory that requires repair to make it suitable for sale. Often, it is more economical to repair these items
rather than to procure them. The AFWCF often relies on weapon systems and machinery no longer in production. As a
result, AFWCF supports a process that encourages the repair and rebuilding of certain items. This repair cycle is essential
to maintaining a ready, mobile, and armed military force. Work in process balances include (1) costs related to the
production or servicing of items, including direct material, labor, and applied overhead; (2) the value of finished products
or completed services that are yet to be placed in service; and (3) munitions in production and depot maintenance work
with its associated costs incurred in the delivery of maintenance services.

1.N. Investments in U.S. Treasury Securities
Not applicable.

1.O. General Property, Plant and Equipment
The DoD’s General Property, Plant, and Equipment (PP&E) capitalization threshold is $100 thousand except for real
property, which is $20 thousand. The AFWCF has not fully implemented the threshold for real property; therefore, DoD is
primarily using the capitalization threshold of $100 thousand for General PP&E, and most real property.

The WCF capitalizes all PP&E used in the performance of its mission. These assets are capitalized as General PP&E,
whether or not they meet the definition of any other PP&E category.



                                                            105
          United States Air Force
        Working Capital Fund
        Notes to the Principal Statements

When it is in the best interest of the government, the AFWCF provides government property to contractors to complete
contract work. The AFWCF either owns or leases such property, or it is purchased directly by the contractor for the
government based on contract terms. When the value of contractor-procured General PP&E meets or exceeds the DoD
capitalization threshold, federal accounting standards require that it be reported on AFWCF’s Balance Sheet.

The DoD developed policy and a reporting process for contractors with government furnished equipment that provides
appropriate General PP&E information for financial statement reporting. The DoD requires AFWCF to maintain, in their
property systems, information on all property furnished to contractors. These actions are structured to capture and report
the information necessary for compliance with federal accounting standards. The AFWCF has not fully implemented this
policy primarily due to system limitations.

1.P. Advances and Prepayments
When advances are permitted by law, legislative action, or presidential authorization, DoD’s policy is to record advances
or prepayments in accordance with USGAAP. As such, payments made in advance of the receipt of goods and services
should be reported as an asset on the Balance Sheet. The DoD’s policy is to expense and/or properly classify assets
when the related goods and services are received. The AFWCF has implemented this policy.

1.Q. Leases
Not applicable.

1.R. Other Assets
Other assets includes those assets, such as military and civil service employee pay advances, travel advances, and
certain contract financing payments, that are not reported elsewhere on AFWCF’s Balance Sheet.

The AFWCF conducts business with commercial contractors under two primary types of contracts: fixed price and cost
reimbursable. To alleviate the potential financial burden on the contractor that long-term contracts can cause, AFWCF
may provide financing payments. Contract financing payments are defined in the Federal Acquisition Regulations, Part 32,
as authorized disbursements to a contractor prior to acceptance of supplies or services by the Government. Contract
financing payments clauses are incorporated in the contract terms and conditions and may include advance payments,
performance-based payments, commercial advances and interim payments, progress payments based on cost, and
interim payments under certain cost-reimbursement contracts. It is DoD policy to record certain contract financing
payments as other assets. The AFWCF has not fully implemented this policy primarily due to system limitations.

Contract financing payments do not include invoice payments, payments for partial deliveries, lease and rental payments,
or progress payments based on a percentage or stage of completion. The Defense Federal Acquisition Regulation
Supplement authorizes progress payments based on a percentage or stage of completion only for construction of real
property, shipbuilding, and ship conversion, alteration, or repair. Progress payments based on percentage or stage of
completion are reported as Construction in Progress.

1.S. Contingencies and Other Liabilities
The SFFAS No. 5, Accounting for Liabilities of the Federal Government, as amended by SFFAS No. 12, Recognition of
Contingent Liabilities Arising from Litigation, defines a contingency as an existing condition, situation, or set of
circumstances that involves an uncertainty as to possible gain or loss. The uncertainty will be resolved when one or more
future events occur or fail to occur. The AFWCF recognizes contingent liabilities when past events or exchange
transactions occur, a future loss is probable, and the loss amount can be reasonably estimated.

Financial statement reporting is limited to disclosure when conditions for liability recognition do not exist but there is at
least a reasonable possibility of incurring a loss or additional losses. The AFWCF’s risk of loss and resultant contingent
liabilities arise from pending or threatened litigation or claims and assessments due to events such as aircraft, ship and
vehicle accidents; medical malpractice; property or environmental damages; and contract disputes.

1.T. Accrued Leave
The AFWCF reports liabilities for military leave and accrued compensatory and annual leave for civilians. Sick leave for
civilians is expensed as taken. The liabilities are based on current pay rates.

1.U. Net Position
Net position consists of unexpended appropriations and cumulative results of operations.


                                                              106
                                                           Annual Financial Statement 2011
                                                                                  Working Capital Fund
                                                                         Notes to the Principal Statements


Unexpended appropriations represent the amounts of budget authority that are unobligated and have not been rescinded
or withdrawn. Unexpended appropriations also represent amounts obligated for which legal liabilities for payments have
not been incurred.

Cumulative results of operations represent the net difference between expenses and losses, and financing sources
(including appropriations, revenue, and gains), since inception. The cumulative results of operations also include
donations and transfers in and out of assets that were not reimbursed.

1.V. Treaties for Use of Foreign Bases
Not applicable.

1.W. Undistributed Disbursements and Collections
Undistributed disbursements and collections represent the difference between disbursements and collections matched at
the transaction level to specific obligations, payables, or receivables in the source systems and those reported by the U.S.
Treasury.

Supported disbursements and collections are evidenced by corroborating documentation. Unsupported disbursements
and collections do not have supporting documentation for the transaction and most likely would not meet audit scrutiny.

The DoD policy is to allocate supported undistributed disbursements and collections between federal and nonfederal
categories based on the percentage of distributed federal and nonfederal accounts payable and accounts receivable.
Supported undistributed disbursements and collections are then applied to reduce accounts payable and receivable
accordingly. Unsupported undistributed disbursements are recorded as disbursements in transit and reduce nonfederal
accounts payable. Unsupported undistributed collections are recorded in nonfederal other liabilities.

1.X. Fiduciary Activities
Not applicable.


1.Y. Military Retirement and Other Federal Employment Benefits
Not applicable.

1.Z. Significant Events
Not applicable.




                                                            107
         United States Air Force
        Working Capital Fund
        Notes to the Principal Statements

 Note 2.          Nonentity Assets


 As of September 30                                                 2011                                 2010
 (Amounts in thousands)

 1. Intragovernmental Assets
    A. Fund Balance with Treasury                    $                                 0   $                                0
    B. Accounts Receivable                                                             0                                    0
    C. Other Assets                                                                    0                                    0
    D. Total Intragovernmental Assets                $                                 0   $                                0


 2. Nonfederal Assets
    A. Cash and Other Monetary Assets                $                                 0   $                                0

    B. Accounts Receivable                                                           296                               693

    C. Other Assets                                                                    0                                 0
    D. Total Nonfederal Assets                       $                               296   $                           693


 3. Total Nonentity Assets                           $                               296   $                           693


 4. Total Entity Assets                              $                       30,327,260    $                    31,316,997



 5. Total Assets                                     $                       30,327,556    $                    31,317,690



Asset accounts are categorized as either entity or nonentity. Entity accounts consist of resources that are available for
use in the operations of the entity.

Nonentity assets are assets for which the AFWCF maintains stewardship accountability and reporting responsibility, but
are not available for the AFWCF’s normal operations.

These nonentity assets are interest, penalties and administrative fees that will be forwarded to the General Fund of the
U.S. Treasury upon collection.




                                                            108
                                                          Annual Financial Statement 2011
                                                                             Working Capital Fund
                                                                     Notes to the Principal Statements

 Note 3.         Fund Balance with Treasury



 As of September 30                                                2011                            2010
 (Amounts in thousands)


 1. Fund Balances
    A. Appropriated Funds                             $                            0   $                          0
    B. Revolving Funds                                                       670,929                        311,557
    C. Trust Funds                                                                 0                              0
    D. Special Funds                                                               0                              0
    E. Other Fund Types                                                            0                              0
    F. Total Fund Balances                            $                      670,929   $                    311,557



 2. Fund Balances Per Treasury Versus Agency
    A. Fund Balance per Treasury                      $                    1,026,251   $                    944,664
    B. Fund Balance per AFWCF                                                670,929                        311,557

 3. Reconciling Amount                                $                      355,322   $                    633,107


The reconciling amount represents $355.3 million for the United States Transportation Command (USTC), which is
reported by the U.S. Treasury as part of the AFWCF. However, for the purposes of Audited Financial Statements (AFS),
USTC is included with the Other Defense Organizations reporting which is separate from the AFWCF. Therefore, USTC
funds are not included in the AFWCF AFS.




                                                          109
         United States Air Force
        Working Capital Fund
        Notes to the Principal Statements

 Status of Fund Balance with Treasury


 As of September 30                                              2011                                2010
 (Amounts in thousands)
 1. Unobligated Balance
    A. Available                                 $                          555,328    $                        532,408
    B. Unavailable                                                                0                                   0


 2. Obligated Balance not yet Disbursed          $                        7,364,315    $                      7,824,540


 3. Nonbudgetary FBWT                            $                                 0   $                                  0


 4. NonFBWT Budgetary Accounts                   $                      (7,248,714)    $                     (8,045,391)


 5. Total                                        $                          670,929    $                        311,557


The Status of Fund Balance with Treasury (FBWT) reflects the budgetary resources to support FBWT and is a
reconciliation between budgetary and proprietary accounts. It primarily consists of unobligated and obligated balances.
The balances reflect the budgetary authority remaining for disbursement against current or future obligations.

Unobligated Balance is classified as available or unavailable and represents the cumulative amount of budgetary authority
that has not been set aside to cover outstanding obligations. The unavailable balance consists of funds temporarily
precluded from obligation by law. Certain unobligated balances may be restricted to future use and are not apportioned
for current use. The AFWCF has no restrictions on unobligated balances.

Obligated Balance not yet Disbursed represents funds that have been obligated for goods and services not received, and
those received but not paid.

Nonbudgetary FBWT includes accounts that do not have budgetary authority, such as deposit funds, unavailable receipt
accounts, clearing accounts, and nonentity FBWT. The AFWCF currently does not have a Nonbudgetary FBWT.

NonFBWT Budgetary Accounts reduces the Status of FBWT. The amount reported as NonFBWT Budgetary Accounts is
comprised of contract authority, unfilled orders without advance from customers, and accounts receivable.



 Note 4.         Investments and Related Interest

AFWCF has no Investments and Related Interest.




                                                           110
                                                          Annual Financial Statement 2011
                                                                                  Working Capital Fund
                                                                          Notes to the Principal Statements

 Note 5.         Accounts Receivable


 As of September 30                                                        2011
                                                                  Allowance For Estimated
                                  Gross Amount Due                                                  Accounts Receivable, Net
                                                                         Uncollectibles
ts in thousands)
  1. Intragovernmental
     Receivables             $                    933,040                             N/A       $                    933,040
  2. Nonfederal
     Receivables (From
     the Public)             $                     12,405    $                     (8,695)      $                       3,710

 3. Total Accounts
    Receivable               $                    945,445    $                     (8,695)      $                    936,750




 As of September 30                                                        2010
                                                                  Allowance For Estimated
                                  Gross Amount Due                                                  Accounts Receivable, Net
                                                                         Uncollectibles
 (Amounts in thousands)
 1. Intragovernmental
    Receivables              $                    819,796                             N/A       $                    819,796
 2. Nonfederal
    Receivables (From
    the Public)              $                     13,057    $                              0   $                      13,057

 3. Total Accounts
    Receivable               $                    832,853    $                              0   $                    832,853


The accounts receivable represent the AFWCF’s claim for payment from other entities. The AFWCF only recognizes an
allowance for uncollectible amounts from the public. Claims with other federal agencies are resolved in accordance with
the Intragovernmental Business Rules.




                                                            111
         United States Air Force
        Working Capital Fund
        Notes to the Principal Statements

 Note 6.          Other Assets


 As of September 30                                                           2011                          2010
 (Amounts in thousands)


 1. Intragovernmental Other Assets
    A. Advances and Prepayments                                    $                        4    $                            0
    B. Other Assets                                                                   111,122                                 0
    C. Total Intragovernmental Other Assets                        $                  111,126    $                            0

 2. Nonfederal Other Assets
    A. Outstanding Contract Financing Payments                     $                  164,286    $                  194,341
    B. Advances and Prepayments                                                       172,083                       130,371
    C. Other Assets (With the Public)                                                     232                       200,375
    D. Total Nonfederal Other Assets                               $                  336,601    $                  525,087


 3. Total Other Assets                                             $                  447,727    $                  525,087


Contract terms and conditions for certain types of contract financing payments convey certain rights to the Government
that protect the contract work from state or local taxation, liens or attachment by the contractor's creditors, transfer of
property, or disposition in bankruptcy. However, these rights should not be misconstrued to mean that ownership of the
contractor’s work has transferred to the Federal Government. The Federal Government does not have the right to take
the work, except as provided in contract clauses related to termination or acceptance, and AFWCF is not obligated to
make payment to the contractor until delivery and acceptance.

The balance in Outstanding Contract Financing Payments includes $139.7 million in contract financing payments and an
additional $24.6 million in estimated future payments to contractors upon delivery and government acceptance of a
satisfactory product. See additional discussion in Note 15, Other Liabilities.

The $111.1 million in Intragovernmental Other Assets - Other Assets and the $.2 million balance in Nonfederal Other
Assets – Other Assets (With the Public) are comprised of Supply Management Activity Group’s assets returned to
vendors for which credit is pending. There will be no dollar payments received for this credit but vendor billings will be
offset.

 Note 7.          Cash and Other Monetary Assets

AFWCF has no Cash and Other Monetary Assets.

 Note 8.          Direct Loans and Loan Guarantees

AFWCF has no Direct Loans and Loan Guarantee Programs.




                                                             112
                                                             Annual Financial Statement 2011
                                                                                    Working Capital Fund
                                                                            Notes to the Principal Statements

 Note 9.          Inventory and Related Property


 As of September 30                                                  2011                                  2010
 (Amounts in thousands)

 1. Inventory, Net                                    $                       26,675,393     $                    28,171,171
 2. Operating Materials & Supplies, Net                                          137,828                             123,186
 3. Stockpile Materiel, Net                                                            0                                   0

 4. Total                                             $                       26,813,221     $                    28,294,357


Restrictions

There are no restrictions on the use, sale, or disposition of inventory except for War Reserve Materiel and nuclear related
spare parts.


General Composition of Inventory

Inventory includes weapon system consumable and reparable parts, base supply items, and medical-dental supplies.
Inventory is tangible personal property that is held for sale or held for repair for eventual sale, in the process of production
for sale, or to be consumed in the production of goods for sale or in the provision of services for a fee.

Definitions

Inventory Available and Purchased for Resale includes consumable and reparable parts owned and managed by AFWCF.

Inventory Held for Repair is damaged inventory that requires repair to make it suitable for sale. Many of the inventory
items are more economical to repair than to procure. In addition, because AFWCF often relies on weapon systems and
machinery no longer in production, AFWCF supports a process that encourages the repair and rebuilding of certain items.
This repair cycle is essential to maintaining a ready, mobile, and armed military force.

Excess, Obsolete, and Unserviceable inventory consists of obsolete, excess to requirements, or items that cannot be
economically repaired and are awaiting disposal.

Work in Process balances include costs related to the production or servicing of items, including direct material, direct
labor, applied overhead, and other direct costs. Work in Process also includes the value of finished products or
completed services pending the submission of bills to the customer.




                                                              113
         United States Air Force
       Working Capital Fund
       Notes to the Principal Statements

Inventory, Net

As of September 30                                                2011
                                    Inventory,                                                                Valuation
                                    Gross Value            Revaluation Allowance         Inventory, Net
                                                                                                               Method
(Amounts in thousands)

1. Inventory Categories
   A. Available and
      Purchased for Resale      $          16,726,636      $                  (17,269)          16,709,367     LAC,MAC
   B. Held for Repair                      13,916,093                      (3,987,787)           9,928,306     LAC,MAC
   C. Excess, Obsolete, and
      Unserviceable                              171,099                    (171,099)                    0      NRV
   D. Raw Materials                                    0                            0                    0    MAC,SP,LA
   E. Work in Process                             37,720                            0               37,720           AC


   F. Total                     $          30,851,548      $               (4,176,155)          26,675,393




As of September 30                                                2010
                                    Inventory,                                                                Valuation
                                    Gross Value            Revaluation Allowance         Inventory, Net
                                                                                                               Method
(Amounts in thousands)

1. Inventory Categories
   A. Available and
      Purchased for Resale      $          17,703,154      $                  (14,657)          17,688,497     LAC,MAC
   B. Held for Repair                      14,754,093                      (4,298,962)          10,455,131     LAC,MAC
   C. Excess, Obsolete, and
      Unserviceable                              136,355                    (136,355)                    0      NRV
   D. Raw Materials                                    0                            0                    0    MAC,SP,LA
   E. Work in Process                             27,543                            0               27,543           AC


   F. Total                     $          32,621,145      $               (4,449,974)          28,171,171

Legend for Valuation Methods:
LAC = Latest Acquisition Cost              NRV = Net Realizable Value                    MAC = Moving Average Cost
SP = Standard Price                        LCM = Lower of Cost or Market
AC = Actual Cost                           O = Other




                                                           114
                                                            Annual Financial Statement 2011
                                                                                     Working Capital Fund
                                                                              Notes to the Principal Statements

 Operating Materials and Supplies, Net

 As of September 30                                                           2011
                                                    OM&S
                                                                          Revaluation                              Valuation
                                                  Gross Value                                   OM&S, Net
                                                                          Allowance                                 Method

 (Amounts in thousands)

 1. OM&S Categories
   A. Held for Use                            $          137,828      $                 0   $        137,828      SP, LAC, MAC
   B. Held for Repair                                          0                        0                  0      SP, LAC, MAC
   C. Excess, Obsolete, and Unserviceable                      0                        0                  0           NRV


   D. Total                                   $          137,828      $                 0   $        137,828



 As of September 30                                                           2010
                                                    OM&S
                                                                          Revaluation                              Valuation
                                                  Gross Value                                   OM&S, Net
                                                                          Allowance                                 Method

 (Amounts in thousands)

 1. OM&S Categories
   A. Held for Use                            $            123,186    $                 0   $        123,186      SP, LAC, MAC
   B. Held for Repair                                            0                      0                  0      SP, LAC, MAC
   C. Excess, Obsolete, and Unserviceable                        0                      0                  0           NRV


   D. Total                                   $            123,186    $                 0   $        123,186

 Legend for Valuation Methods:
 LAC = Latest Acquisition Cost                NRV = Net Realizable Value                         MAC = Moving Average Cost
 SP = Standard Price                          LCM = Lower of Cost or Market
 AC = Actual Cost                             O = Other


General Composition of Operating Materials and Supplies

Operating Materials and Supplies (OM&S) includes consumable parts and supplies used to remanufacture spare parts
and repair weapons systems.

Restrictions

There are no restrictions on the use, sale, or disposition of OM&S.

Definition

Held for Use includes consumable parts and supplies.

 Stockpile Materiel, Net
AFWCF has no Stockpile Materiel.




                                                            115
              United States Air Force
         Working Capital Fund
         Notes to the Principal Statements

 Note 10.             General Property, Plant & Equipment, Net


As of September 30
                                                                                          2011
                                                Depreciation/                                                (Accumulated
                                                                  Service           Acquisition                                            Net Book
                                                Amortization                                                  Depreciation/
                                                                   Life                 Value                                                 Value
                                                  Method                                                      Amortization)
(Amounts in thousands)

1. Major Asset Classes
   A. Land                                           N/A           N/A       $                 0                       N/A        $              0
   B. Buildings, Structures, and Facilities           SL         20 Or 40            1,195,805     $             (707,649)                  488,156
   C.Leasehold Improvements                          S/L        Lease Term                     0                           0                     0
   D.Software                                        S/L         2-5 Or 10           1,150,082                 (1,010,668)                  139,414
   E. General Equipment                              S/L          5 Or 10            2,819,068                 (2,012,299)                  806,769
   F. Military Equipment                             S/L         Various                       0                           0                     0
   G.Shipbuilding (Construction-in-Progress)         N/A           N/A                         0                           0                     0
   H.Assets Under Capital Lease                      S/L        Lease Term                     0                           0                     0
   I. Construction-in- Progress (Excludes
      Military Equipment)                            N/A           N/A                  24,590                         N/A                   24,590
   J. Other                                                                                    0                           0                     0

   K. Total General PP&E                                                     $       5,189,545     $           (3,730,616)        $       1,458,929



As of September 30
                                                                                          2010
                                                Depreciation/                                              (Accumulated
                                                                 Service         Acquisition                                          Net Book
                                                Amortization                                               Depreciation/
                                                                  Life             Value                                               Value
                                                  Method                                                   Amortization)
(Amounts in thousands)

1. Major Asset Classes
   A. Land                                          N/A            N/A       $                 0                           N/A    $              0
   B. Buildings, Structures, and Facilities          S/L        20 Or 40              1,012,030        $          (691,103)                 320,927
   C.Leasehold Improvements                          S/L        lease term                     0                              0                  0
   D.Software                                        S/L        2-5 Or 10             1,149,812                   (952,917)                 196,895
   E. General Equipment                              S/L         5 or 10              2,752,843                 (1,942,028)                 810,815
   F. Military Equipment                             S/L         Various                       0                              0                  0
   G.Shipbuilding (Construction-in-Progress)        N/A            N/A                         0                              0                  0
   H.Assets Under Capital Lease                      S/L        lease term                     0                              0                  0
   I. Construction-in- Progress
        (Excludes Military Equipment)               N/A            N/A                   25,199                            N/A               25,199
   J. Other                                                                                    0                              0                  0

   K. Total General PP&E                                                     $        4,939,884        $        (3,586,048)       $       1,353,836

 1 Note 15 for additional information on Capital Leases
 Legend for Valuation Methods:
 S/L = Straight Line       N/A = Not Applicable

AFWCF does not have any restrictions on the use or convertibility of General PP&E.


                                                                      116
                                                              Annual Financial Statement 2011
                                                                                     Working Capital Fund
                                                                            Notes to the Principal Statements

 Assets Under Capital Lease
AFWCF has no Assets Under Capital Lease.

 Note 11.         Liabilities Not Covered by Budgetary Resources


 As of September 30                                                           2011                             2010
 (Amounts in thousands)

 1. Intragovernmental Liabilities
    A. Accounts Payable                                          $                             0   $                         0
    B. Debt                                                                                    0                             0
    C. Other                                                                              48,504                             0
    D. Total Intragovernmental Liabilities                       $                        48,504   $                         0

 2. Nonfederal Liabilities
    A. Accounts Payable                                          $                             0   $                         0
    B. Military Retirement and
       Other Federal Employment Benefits                                                 214,927                        198,905
    C. Environmental Liabilities                                                               0                              0
    D. Other Liabilities                                                                       0                              0
    E. Total Nonfederal Liabilities                              $                       214,927   $                    198,905

 3. Total Liabilities Not Covered by Budgetary
    Resources                                                    $                       263,431   $                    198,905


 4. Total Liabilities Covered by Budgetary Resources             $                     1,167,226   $                  1,308,272

 5. Total Liabilities                                            $                     1,430,657   $                  1,507,177


Liabilities Not Covered by Budgetary Resources includes liabilities for which congressional action is needed before
budgetary resources can be provided.

The $48.5 million in Intragovernmental Liabilities - Other Liabilities is comprised of the portion of the total Air Force
Federal Employee’s Compensation Act (FECA) liability allocated to the AFWCF.

Military Retirement and Other Federal Employment Benefits consists of FECA actuarial liabilities not due and payable
during the current fiscal year. Refer to Note 17, Military Retirement and Other Federal Employment Benefits, for additional
details and disclosures.




                                                              117
            United States Air Force
        Working Capital Fund
        Notes to the Principal Statements

 Note 12.        Accounts Payable


 As of September 30                                                               2011

                                                                       Interest, Penalties, and
                                              Accounts Payable                                            Total
                                                                         Administrative Fees

 (Amounts in thousands)

 1. Intragovernmental Payables            $              226,029   $                         N/A      $           226,029

 2. Nonfederal Payables (to the Public)                  694,713                                  0               694,713

 3. Total                                 $              920,742   $                              0   $           920,742



 As of September 30                                                               2010

                                                                       Interest, Penalties, and
                                              Accounts Payable                                            Total
                                                                         Administrative Fees

 (Amounts in thousands)

 1. Intragovernmental Payables            $              144,788   $                         N/A      $           144,788

 2. Nonfederal Payables (to the Public)                  715,535                                  0               715,535

 3. Total                                 $              860,323   $                              0   $           860,323



Accounts Payable include amounts owed to federal and nonfederal entities for goods and services received by AFWCF.
The AFWCF’s systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
accounts payable are adjusted to agree with intraagency seller-side accounts receivable. Accounts payable was adjusted
by reclassifying amounts between federal and nonfederal accounts payable.

 Note 13.        Debt

AFWCF has no Debt.

 Note 14.        Environmental Liabilities and Disposal Liabilities

AFWCF has no Environmental Liabilities or Disposal Liabilities.




                                                           118
                                                        Annual Financial Statement 2011
                                                                              Working Capital Fund
                                                                     Notes to the Principal Statements

Note 15.        Other Liabilities

As of September 30
                                                                                    2011
                                                              Current             Noncurrent
                                                                                                         Total
                                                              Liability            Liability
   (Amounts in thousands)


1. Intragovernmental
   A. Advances from Others                              $                 0   $               0    $              0
   B. Deposit Funds and Suspense Account Liabilities                      0                   0                   0
   C. Disbursing Officer Cash                                             0                   0                   0
   D. Judgment Fund Liabilities                                           0                   0                   0
   E. FECA Reimbursement to the Department of Labor                  20,571              27,932              48,503
   F. Custodial Liabilities                                             296                   0                 296
   G. Employer Contribution and Payroll Taxes Payable                 6,931                   0               6,931
   H. Other Liabilities                                                   0                   0                   0
   I. Total Intragovernmental Other Liabilities         $            27,798   $          27,932    $         55,730

2. Nonfederal
   A. Accrued Funded Payroll and Benefits               $           139,025   $                0   $        139,025
   B. Advances from Others                                           25,022                    0             25,022
   C. Deferred Credits                                                    0                    0                  0
   D. Deposit Funds and Suspense Accounts                                 0                    0                  0
   E. Temporary Early Retirement Authority                                0                    0                  0
   F. Nonenvironmental Disposal Liabilities
        (1) Military Equipment (Nonnuclear)                               0                   0                   0
        (2) Excess/Obsolete Structures                                    0                   0                   0
        (3) Conventional Munitions Disposal                               0                   0                   0
   G. Accrued Unfunded Annual Leave                                       0                   0                   0
   H. Capital Lease Liability                                             0                   0                   0
    I. Contract Holdbacks                                             1,199                   0               1,199
   J. Employer Contribution and Payroll Taxes Payable                     0                   0                   0
   K. Contingent Liabilities                                              0              24,605              24,605
   L. Other Liabilities                                              49,407                   0              49,407
   M. Total Nonfederal Other Liabilities                $           214,653   $          24,605    $        239,258

3. Total Other Liabilities                              $           242,451   $          52,537    $        294,988




                                                        119
        United States Air Force
      Working Capital Fund
      Notes to the Principal Statements

As of September 30
                                                                                        2010
                                                              Current                 Noncurrent
                                                                                                           Total
                                                              Liability                Liability
(Amounts in thousands)


1. Intragovernmental
   A. Advances from Others                              $                  217    $                0   $             217
   B. Deposit Funds and Suspense Account Liabilities                         0                     0                   0
   C. Disbursing Officer Cash                                                0                     0                   0
   D. Judgment Fund Liabilities                                              0                     0                   0
   E. FECA Reimbursement to the Department of Labor                          0                     0                   0
   F. Custodial Liabilities                                                693                     0                 693
   G. Employer Contribution and Payroll Taxes Payable                 17,270                       0               17,270
   H. Other Liabilities                                                      0                     0                   0
    I. Total Intragovernmental Other Liabilities        $             18,180      $                0   $           18,180

2. Nonfederal
   A. Accrued Funded Payroll and Benefits               $           198,884       $                0   $       198,884
   B. Advances from Others                                            33,529                       0               33,529
   C. Deferred Credits                                                       0                     0                   0
   D. Deposit Funds and Suspense Accounts                                    0                     0                   0
   E. Temporary Early Retirement Authority                                   0                     0                   0
   F. Nonenvironmental Disposal Liabilities
       (1) Military Equipment (Nonnuclear)                                   0                     0                   0
       (2) Excess/Obsolete Structures                                        0                     0                   0
       (3) Conventional Munitions Disposal                                   0                     0                   0
   G. Accrued Unfunded Annual Leave                                          0                     0                   0
   H. Capital Lease Liability                                                0                     0                   0
   I. Contract Holdbacks                                                  2,947                    0                2,947
   J. Employer Contribution and Payroll Taxes Payable                        0                     0                   0
      K. Contingent Liabilities                                              0               27,437                27,437
   L. Other Liabilities                                             166,972                        0           166,972
   M. Total Nonfederal Other Liabilities                $            402,332      $          27,437    $       429,769

3. Total Other Liabilities                              $            420,512      $          27,437    $       447,949




                                                        120
                                                            Annual Financial Statement 2011
                                                                                   Working Capital Fund
                                                                          Notes to the Principal Statements

The $49.4 million in the Nonfederal Other Liabilities balance consist of accrued liabilities established in the Consolidated
Sustainment Activity Group (CSAG) Supply as an offset to the asset established when foreign government provide funds
to buy their respective share of inventory that is owned and managed by the Air Force under a Cooperative Logistics
Supply Support Agreement (CLSSA).

Contingent liabilities include $24.6 million related to contracts authorizing progress payments based on cost as defined in
the Federal Acquisition Regulation (FAR). In accordance with contract terms, specific rights to the contractors’ work vests
with the Federal Government when a specific type of contract financing payment is made. This action protects taxpayer
funds in the event of contract nonperformance. These rights should not be misconstrued as the rights of ownership. The
AFWCF is under no obligation to pay contractors for amounts greater than the amounts authorized in contracts until
delivery and government acceptance. Due to the probability the contractors will complete their efforts and deliver
satisfactory products, and because the amount of potential future payments are estimable, the AFWCF has recognized a
contingent liability for estimated future payments which are conditional pending delivery and government acceptance.

Total contingent liabilities for progress payments based on cost represent the difference between the estimated costs
incurred to date by contractors and amounts authorized to be paid under progress payments based on cost provisions
within the FAR. Estimated contractor-incurred costs are calculated by dividing the cumulative unliquidated progress
payments based on cost by the contract-authorized progress payment rate. The balance of unliquidated progress
payments based on cost is deducted from the estimated total contractor-incurred costs to determine the contingency
amount.

 Capital Lease Liability
AFWCF has no Capital Leases.

 Note 16.         Commitments and Contingencies

The AFWCF is a party in various administrative proceedings and legal actions, related to claims for environmental
damage, equal opportunity matters, and contractual bid protests. The AFWCF’s Office of the General Counsel considers
the possibility of the AFWCF sustaining any losses on these legal actions to be remote.

The AFWCF is a party in numerous individual contracts that contain clauses, such as price escalation, award fee
payments, or dispute resolution, that may result in a future outflow of expenditures. Currently, AFWCF has limited
automated system processes by which it captures or assesses these potential contingent liabilities; therefore no
associated liabilities are recognized or disclosed.




                                                             121
        United States Air Force
       Working Capital Fund
       Notes to the Principal Statements

Note 17.        Military Retirement and Other Federal Employment Benefits


As of September 30                                                                               2011
                                                                                               (Less: Assets
                                                                                                                         Unfunded
                                                                        Liabilities           Available to Pay
                                                                                                                         Liabilities
                                                                                                 Benefits)
(Amounts in thousands)

1. Pension and Health Benefits
  A. Military Retirement Pensions                                   $                 0   $                      0   $                 0
  B. Military Pre Medicare-Eligible Retiree Health Benefits                           0                          0                     0
  C. Military Medicare-Eligible Retiree Health Benefits                               0                          0                     0
  D. Total Pension and Health Benefits                              $                 0   $                      0   $                 0
2. Other Benefits
  A. FECA                                                           $          214,927    $                      0   $       214,927
  B. Voluntary Separation Incentive Programs                                         0                           0                 0
  C. DoD Education Benefits Fund                                                     0                           0                 0
  D. Other                                                                           0                           0                 0
  E. Total Other Benefits                                           $          214,927    $                      0   $       214,927

3. Total Military Retirement and Other Federal
   Employment Benefits:                                             $          214,927    $                      0   $       214,927




As of September 30                                                                               2010
                                                                                               (Less: Assets
                                                                                                                         Unfunded
                                                                        Liabilities           Available to Pay
                                                                                                                         Liabilities
                                                                                                 Benefits)
(Amounts in thousands)
1. Pension and Health Benefits
  A. Military Retirement Pensions                                   $                 0   $                      0   $                 0
  B. Military Pre Medicare-Eligible Retiree Health Benefits                           0                          0                     0
  C. Military Medicare-Eligible Retiree Health Benefits                               0                          0                     0
  D. Total Pension and Health Benefits                              $                 0   $                      0   $                 0
2. Other Benefits
  A. FECA                                                           $          198,905    $                      0   $       198,905
  B. Voluntary Separation Incentive Programs                                         0                           0                 0
  C. DoD Education Benefits Fund                                                     0                           0                 0
  D. Other                                                                           0                           0                 0
  E. Total Other Benefits                                           $          198,905    $                      0   $       198,905

3. Total Military Retirement and Other Federal
   Employment Benefits:                                             $          198,905    $                      0   $       198,905




                                                              122
                                                             Annual Financial Statement 2011
                                                                                   Working Capital Fund
                                                                           Notes to the Principal Statements

Federal Employees Compensation Act (FECA)

The AFWCF actuarial liability for workers’ compensation benefits is developed by the Department of Labor and is updated
at the end of each fiscal year. The liability includes the expected liability for death, disability, medical, and miscellaneous
costs for approved compensation cases, plus a component for incurred but not reported claims. The liability is determined
using a method that utilizes historical benefit payment patterns related to a specific incurred period to predict the ultimate
payments related to that period. Consistent with past practice, these projected annual benefit payments have been
discounted to present value using the Office of Management and Budget’s (OMB’s) economic assumptions for 10-year
Treasury notes and bonds. Interest rate assumptions utilized for discounting were as follows:

                2011
                3.56% in Year 1
                4.03% in Year 2
                and thereafter

To provide more specifically for the effects of inflation on the liability for future workers’ compensation benefits, wage
inflation factors (cost of living adjustments or COLAs) and medical inflation factors (consumer price index medical or
CPIMs) were applied to the calculation of projected future benefits. The actual rates for these factors for the charge back
year (CBY) 2011 were also used to adjust the methodology’s historical payments to current year constant dollars.

The compensation COLAs and CPIMs used in the projections for various CBY were as follows:

                CBY               COLA            CPIM
                2011              N/A             N/A
                2012              2.10%           3.07%
                2013              2.53%           3.62%
                2014              1.83%           3.66%
                2015              1.93%           3.73%
                2016+             2.00%           3.73%
                and thereafter

The model’s resulting projections were analyzed to insure that the estimates were reliable. The analysis was based on
four tests: (1) a sensitivity analysis of the model to economic assumptions, (2) a comparison of the percentage change in
the liability amount by agency to the percentage change in the actual incremental payments, (3) a comparison of the
incremental paid losses per case (a measure of case-severity) in CBY 2011 to the average pattern observed during the
most current three charge back years, and (4) a comparison of the estimated liability per case in the 2011 projection to the
average pattern for the projections of the most recent three years.




                                                             123
         United States Air Force
        Working Capital Fund
        Notes to the Principal Statements

 Note 18.         General Disclosures Related to the Statement of Net Cost

 Intragovernmental Costs and Exchange Revenue

 As of September 30                                                   2011                            2010
 (Amounts in thousands)

 Operations, Readiness & Support
 1. Gross Cost
     A. Intragovernmental Cost                           $                    1,711,508   $                   1,579,885
     B. Nonfederal Cost                                                      11,388,112                      10,242,658
     C. Total Cost                                       $                   13,099,620   $                  11,822,543
 2. Earned Revenue
      A. Intragovernmental Revenue                       $                 (11,501,527)   $                (10,196,806)
      B. Nonfederal Revenue                                                   (351,368)                       (131,544)
     C. Total Revenue                                    $                 (11,852,895)   $                (10,328,350)
 3. Losses/(Gains) from Actuarial Assumption
 Changes for Military Retirement Benefits                $                            0   $                           0
 Total Net Cost                                          $                    1,246,725   $                   1,494,193

 Consolidated
 1. Gross Cost
     A. Intragovernmental Cost                           $                    1,711,508   $                   1,579,885
     B. Nonfederal Cost                                                      11,388,112                      10,242,658
     C. Total Cost                                       $                   13,099,620   $                  11,822,543
 2. Earned Revenue
      A. Intragovernmental Revenue                       $                 (11,501,527)   $                (10,196,806)
      B. Nonfederal Revenue                                                   (351,368)                       (131,544)
      C. Total Revenue                                   $                 (11,852,895)   $                (10,328,350)
 3. Losses/(Gains) from Actuarial Assumption
 Changes for Military Retirement Benefits                $                            0   $                           0
 4. Costs Not Assigned to Programs                       $                            0   $                           0
 5. (Less: Earned Revenues) Not Attributed to
 Programs                                                $                            0   $                           0
 Total Net Cost                                          $                    1,246,725   $                   1,494,193


The Statement of Net Cost (SNC) represents the net cost of programs and organizations of the Federal Government that
are supported by appropriations or other means. The intent of SNC is to provide gross and net cost information related to
the amount of output or outcome for a given program or organization administered by a responsible reporting entity. The
DoD’s current processes and systems do not capture and report accumulated costs for major programs based upon the
performance measures as required by the Government Performance and Results Act. The DoD is in the process of
reviewing available data and developing a cost reporting methodology as required by the Statement of Federal Financial
Accounting Standards (SFFAS) No. 4, Managerial Cost Accounting Concepts and Standards for the Federal Government,
as amended by SFFAS No. 30,
Inter-entity Cost Implementation.




                                                          124
                                                           Annual Financial Statement 2011
                                                                                 Working Capital Fund
                                                                         Notes to the Principal Statements

Intragovernmental costs and revenue are represent transactions made between two reporting entities within the Federal
Government.

Public costs and revenues are exchange transactions made between the reporting entity and a nonfederal entity.

The AFWCF's systems do not track intragovernmental transactions by customer at the transaction level. Buyer-side
expenses are adjusted to agree with internal seller-side revenues. Expenses are generally adjusted by reclassifying
amounts between federal and nonfederal expenses. Intradepartmental revenues and expenses are then eliminated.

The AFWCF records transactions on an accrual basis. The AFWCF may not have all the actual costs and revenues input
into the system in time for reporting. Accrual estimates based upon budget information and historical data are made as
required by generally accepted accounting principles. These estimates reverse as actual costs or revenues are recorded.

 Note 19.         Disclosures Related to the Statement of Changes in Net Position

The $85.4 million in Other Financing Sources, Other consists primarily of other gains and losses due to the reclassification
of intragovernmental transfers in or out without reimbursement for which Air Force could not determine the trading
partners.



 Note 20.         Disclosures Related to the Statement of Budgetary Resources


 As of September 30                                                          2011                          2010
 (Amounts in thousands)

 1. Net Amount of Budgetary Resources Obligated for
    Undelivered Orders at the End of the Period                   $                 6,429,727   $                 6,758,887

 2. Available Borrowing and Contract Authority at the End of
    the Period                                                                              0                            0


The AFWCF reported reimbursable obligations of $12.4 billion in category B.

The Statement of Budgetary Resources (SBR) includes intraentity transactions because the statements are presented as
combined.




                                                            125
         United States Air Force
        Working Capital Fund
        Notes to the Principal Statements

 Note 21.        Reconciliation of Net Cost of Operations to Budget



As of September 30
                                                                       2011                    2010
(Amounts in thousands)

 Resources Used to Finance Activities:
Budgetary Resources Obligated:
1. Obligations incurred                                            $       12,375,556      $      12,080,367
2. Less: Spending authority from offsetting                              (12,854,369)           (11,813,266)
   collections and recoveries (-)
3. Obligations net of offsetting collections                       $          (478,813)    $           267,101
    and recoveries
4. Less: Offsetting receipts (-)                                                      0                      0
5. Net obligations                                                 $          (478,813)    $           267,101
Other Resources:
6. Donations and forfeitures of property                                              0                       0
7. Transfers in/out without reimbursement (+/-)                                (10,561)               (310,795)
8. Imputed financing from costs absorbed by others                              191,388                 188,664
9. Other (+/-)                                                                   85,423                (15,271)
10. Net other resources used to finance activities                 $            266,250    $          (137,402)
11. Total resources used to finance activities                     $          (212,563)    $            129,699
Resources Used to Finance Items not Part of the Net
     Cost of Operations:
12. Change in budgetary resources obligated for
    goods, services and benefits ordered but not yet
    provided:
    12a. Undelivered Orders (-)                                    $            329,160    $          (482,739)
    12b. Unfilled Customer Orders                                             (399,773)                 194,866
13. Resources that fund expenses recognized in prior                             (1,731)                      0
     Periods (-)
14. Budgetary offsetting collections and receipts that                                0                      0
     do not affect Net Cost of Operations
15. Resources that finance the acquisition of assets (-)                  (5,907,746)            (5,240,399)
16. Other resources or adjustments to net obligated
     resources that do not affect Net Cost of
     Operations:
     16a. Less: Trust or Special Fund Receipts                                        0                      0
            Related to exchange in the Entity’s Budget (-)
     16b. Other (+/-)                                                        (74,862)                326,066
17. Total resources used to finance items not part                 $      (6,054,952)      $     (5,202,206)
     of the Net Cost of Operations
18. Total resources used to finance the Net Cost                   $      (6,267,515)      $     (5,072,507)
     of Operations




                                                             126
                                                       Annual Financial Statement 2011
                                                                     Working Capital Fund
                                                              Notes to the Principal Statements




As of September 30
                                                                   2011                      2010
(Amounts in thousands)

Components of the Net Cost of Operations that will
not Require or Generate Resources in the Current
    Period:


Components Requiring or Generating Resources in
    Future Period:
19. Increase in annual leave liability                 $                           0    $                  0
20. Increase in environmental and disposal liability                               0                       0
21. Upward/Downward reestimates of credit subsidy                                  0                       0
    expense (+/-)
22. Increase in exchange revenue receivable from                                 259                 (12,368)
    the public (-)
23. Other (+/-)                                                               66,258                    5,195
24. Total components of Net Cost of Operations that    $                      66,517    $             (7,173)
    will Require or Generate Resources in future
    periods

Components not Requiring or Generating Resources:
25. Depreciation and amortization                      $                     179,031    $             152,225
26. Revaluation of assets or liabilities (+/-)                             2,732,182                1,851,847
27. Other (+/-)
    27a. Trust Fund Exchange Revenue                                                0                       0
    27b. Cost of Goods Sold                                                 9,261,101               8,871,549
    27c. Operating Material and Supplies Used                                   7,531                  29,515
    27d. Other                                                            (4,732,122)             (4,331,263)
28. Total Components of Net Cost of Operations that    $                    7,447,723   $           6,573,873
    will not Require or Generate Resources


29. Total components of Net Cost of Operations         $                   7,514,240    $           6,566,700
    that will not Require or Generate Resources in
    the current period

30. Net Cost of Operations                             $                   1,246,725    $           1,494,193




                                                       127
         United States Air Force
        Working Capital Fund
        Notes to the Principal Statements

Due to the AFWCF’s financial system limitations, budgetary data do no agree with proprietary expenses and capitalized
assets. The difference between budgetary and proprietary data is a previously identified deficiency.

A $253.9 million adjustment was made to the Resources That Finance the Acquisition of Assets in order to align the note
schedule with the amount reported on the Statement of Net Cost.

The following Reconciliation of Net Cost of Operations to Budget lines are presented as combined instead of consolidated
due to intraagency budgetary transactions not being eliminated:

 •      Obligations Incurred
 •      Less: Spending Authority from Offsetting Collections and Recoveries
 •      Obligations Net of Offsetting Collections and Recoveries
 •      Less: Offsetting Receipts
 •      Net Obligations
 •      Undelivered Orders
 •      Unfilled Customer Orders

The $85.4 million in Resources Used to Finance Activities, Other consists primarily of other gains and losses due to the
reclassification of intragovernmental transfers in or out without reimbursement for which Air Force could not determine the
trading partners.

Resources Used to Finance Items not Part of the Net Cost of Operations, Other is comprised of:

1. Other gains and losses totaling $85.4 million due to the reclassification of intragovernmental transfers in or out without
reimbursement for which Air Force could not determine the trading partners.

2. Property transfers out to DoD agencies totaling $10.6 million.

Components Requiring or Generating Resources in Future Period, Other represents the change in the Federal Employees
Compensation Act (FECA) unfunded liability.

Components not Requiring or Generating Resources, Other is comprised of $4.7 billion for Consolidated Sustainment
Activity Group - Maintenance Division work-in-process offsets.




                                                             128
                                                          Annual Financial Statement 2011
                                                                               Working Capital Fund
                                                                       Notes to the Principal Statements

 Note 22.        Disclosures Related to Incidental Custodial Collections

The AFWCF collected $257.8 thousand of incidental custodial revenues generated primarily from nonentity interest,
penalties and administrative fees collected for out-of-service debts. These funds are not available for use by AFWCF. At
the end of each fiscal year, the accounts are closed and the balances rendered to the U.S. Treasury.

 Note 23.        Earmarked Funds

AFWCF has no Earmarked Funds.

 Note 24.        Fiduciary Activities

AFWCF has no Fiduciary Activities.

 Note 25.        Other Disclosures

AFWCF has no Other Disclosures.

 Note 26.        Restatements

AFWCF has no Restatements.




                                                          129
United States Air Force


Working Capital Fund
Fiscal Year 2011
Required Supplementary Information




                          130
                                                                         Annual Financial Statement 2011
                                                                                                    Working Capital Fund
                                                                                    Required Supplementary Information

                                                    Department of Defense
                                               Air Force Working Capital Fund
                                 STATEMENT OF DISAGGREGATED BUDGETARY RESOURCES
                                     For the periods ended September 30, 2011 and 2010
                                                      ($ in Thousands)

                                                                                                    Operations,              2011               2010
                                                                                                Readiness & Support        Combined           Combined
BUDGETARY FINANCING ACCOUNTS
BUDGETARY RESOURCES
Unobligated balance, brought forward, October 1                                             $               532,408    $       532,408    $       373,638
Recoveries of prior year unpaid obligations                                                                 103,939            103,939             33,765
Budget authority
     Appropriation                                                                                           66,861             66,861             69,443
     Contract authority                                                                                   7,989,074          7,989,074          7,757,396
     Spending authority from offsetting collections
            Earned
                 Collected                                                                               13,036,492         13,036,493         11,598,599
                 Change in receivables from Federal sources                                                 113,711            113,710           (13,963)
            Change in unfilled customer orders
                 Advance received                                                                           (12,139)           (12,139)           (11,153)
                 Without advance from Federal sources                                                      (387,634)          (387,634)            206,018
     Subtotal                                                                                             20,806,365         20,806,365         19,606,340
Nonexpenditure transfers, net, anticipated and actual                                                              0                  0          (297,535)
Permanently not available                                                                                (8,511,827)        (8,511,828)        (7,103,433)
Total Budgetary Resources                                                                   $             12,930,885   $     12,930,884   $     12,612,775
Status of Budgetary Resources:
Obligations incurred:
     Reimbursable                                                                           $            12,375,556    $    12,375,556    $    12,080,367
     Subtotal                                                                                            12,375,556         12,375,556         12,080,367
Unobligated balance:
     Apportioned                                                                                            555,328            555,328                  0
     Exempt from apportionment                                                                                    0                  0            532,408
     Subtotal                                                                                               555,328            555,328            532,408
Total status of budgetary resources                                                         $            12,930,884    $    12,930,884    $    12,612,775
Change in Obligated Balance:
Obligated balance, net
     Unpaid obligations, brought forward, October 1                                         $              7,824,540   $      7,824,540   $      7,522,917
     Less: Uncollected customer payments from Federal sources, brought forward, October 1                (3,893,168)        (3,893,169)        (3,701,113)
     Total unpaid obligated balance                                                                        3,931,372          3,931,371          3,821,804
Obligations incurred net (+/-)                                                                            12,375,556         12,375,556         12,080,367
Less: Gross outlays                                                                                     (12,731,843)       (12,731,843)       (11,744,979)
Less: Recoveries of prior year  unpaid obligations, actual                                                 (103,939)          (103,939)           (33,765)
Change in uncollected customer payments from Federal sources (+/-)                                           273,923            273,922          (192,055)
Obligated balance, net, end of  period
     Unpaid obligations                                                                                    7,364,314          7,364,314          7,824,540
     Less: Uncollected customer payments (+/-) from Federal sources (-)                                  (3,619,244)        (3,619,247)        (3,893,168)
     Total, unpaid obligated balance, net, end of period                                                   3,745,070          3,745,067          3,931,372
Net Outlays
Net Outlays:
     Gross outlays                                                                                        12,731,843       12,731,843         11,744,979
     Less: Offsetting collections                                                                       (13,024,353)     (13,024,352)       (11,587,446)
     Net Outlays                                                                            $              (292,510)   $    (292,509)     $      157,533




                                                                         131
United States Air Force


Working Capital Fund
Fiscal Year 2011
Audit Opinion




                          132
                                            Annual Financial Statement 2011
                                                                 Working Capital Fund
                                                                             Audit Opinion

                                        INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                       400 ARMY NAVY DRIVE
                                  ARLINGTON, VIRGINIA 22202-4704

                                                                                      November 9, 2011

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)

SUBJECT: Independent Auditor’s Report on the Air Force Working Capital Fund FY 2011 and
         FY 2010 Basic Financial Statements (Report No. DODIG-2012-011)

The Chief Financial Officers Act of 1990, as amended, requires the Department of Defense
Inspector General to audit the accompanying Air Force Working Capital Fund Consolidated
Balance Sheet as of September 30, 2011 and 2010, and the Consolidated Statement of Net Cost,
Consolidated Statement of Changes in Net Position, Combined Statement of Budgetary
Resources, and related notes for the fiscal years then ended. The financial statements are the
responsibility of Air Force management. The Air Force is also responsible for implementing
effective internal control and for complying with laws and regulations.

We are unable to express an opinion on the Air Force Working Capital Fund FY 2011 and
FY 2010 Basic Financial Statements because of limitations on the scope of our work. Thus, the
financial statements may be unreliable. In addition to our disclaimer of opinion on the financial
statements, we are including the required Report on Internal Control and Compliance With Laws
and Regulations (Report). The Report is an integral part of our disclaimer of opinion on the
financial statements and should be considered in assessing the results of our work.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Air Force (Financial Management and Comptroller)
acknowledged to us that the Air Force Working Capital Fund FY 2011 and FY 2010 Basic
Financial Statements would not substantially conform to accounting principles generally
accepted in the United States of America (U.S. GAAP) and that the Air Force financial
management and feeder systems were unable to adequately support material amounts on the
financial statements as of September 30, 2011. Section 1008(d) of the FY 2002 National
Defense Authorization Act limits the Department of Defense Inspector General to performing
only those audit procedures required by generally accepted government auditing standards that
are consistent with the representations made by management. Accordingly, we did not perform
auditing procedures required by U.S. Government Accountability Office, “Government Auditing
Standards,” and Office of Management and Budget (OMB) Bulletin No. 07-04, “Audit
                                                             *
Requirements for Federal Financial Statements,” as amended, to determine whether material
amounts on the financial statements were presented fairly.
________________________

*
    OMB Memorandum No. 09-33, Technical Amendments to OMB Bulletin No. 07-04, “Audit Requirements for
    Federal Financial Statements,” September 23, 2009.



                                                    133
           United States Air Force
       Working Capital Fund
       Audit Opinion

Prior audits have identified, and the Air Force has acknowledged, the long-standing material
internal control weaknesses identified in the Summary of Internal Control. These pervasive
material weaknesses may affect the reliability of certain information contained in the Basic
Financial Statements. Therefore, we are unable to express, and we do not express, an opinion on
the Basic Financial Statements. Additionally, the purpose of the audit was not to express an
opinion on Management’s Discussion and Analysis, Required Supplementary Information, and
Other Accompanying Information presented with the Basic Financial Statements. Accordingly,
we express no opinion on that information.

Summary of Internal Control
In planning our work, we considered the Air Force internal control over financial reporting and
compliance with applicable laws and regulations. We did this to determine our procedures for
auditing the financial statements and to comply with OMB guidance, but our purpose was not to
express an opinion on internal control.

Accordingly, we do not express an opinion on internal control over financial reporting and
compliance with applicable laws and regulations. However, previously identified material
weaknesses continued to exist in the following areas.

       •    Financial Management Systems

       •    In-Transit Inventory

       •    Operating Materials and Supplies

       •    General Property, Plant, and Equipment

       •    Subsidiary Ledgers and Special Journals

       •    Intragovernmental Eliminations

       •    Other Accounting Entries

A material weakness is a deficiency, or a combination of deficiencies, in internal control such
that there is a reasonable possibility that a material misstatement of the entity’s financial
statements will not be prevented, or detected and corrected on a timely basis.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control, that
is less severe than a material weakness, yet important enough to merit attention by those charged
with governance.

The following previously identified significant deficiencies continued to exist.

       •    Accounts Receivable

       •    Accounts Payable



                                                 134
                                        Annual Financial Statement 2011
                                                             Working Capital Fund
                                                                        Audit Opinion

Internal control work that we conducted as part of our prior audits did not necessarily disclose all
significant deficiencies. The Attachment offers additional details on significant deficiencies and
material weaknesses in internal control.

The Air Force reported some of the above weaknesses in its FY 2011 Statement of Assurance.
However, it did not report material weaknesses involving Financial Management Systems;
Operating Materials and Supplies; General Property, Plant, and Equipment; Subsidiary Ledgers
and Special Journals; Intragovernmental Eliminations; and Other Accounting Entries.

Summary of Compliance With Laws and Regulations
We limited our work to determining compliance with selected provisions of applicable laws and
regulations related to financial reporting because management acknowledged that instances of
noncompliance identified in prior audits continued to exist. The Assistant Secretary of the
Air Force (Financial Management and Comptroller) acknowledged to us that the Air Force
financial management systems do not substantially comply with Federal financial management
system requirements, U.S. GAAP, and the U.S. Government Standard General Ledger at the
transaction level. Therefore, we did not determine whether the Air Force complied with all
applicable laws and regulations related to financial reporting. Providing an opinion on
compliance with certain provisions of laws and regulations was not an objective of our audit, and
accordingly, we do not express such an opinion. See the Attachment for additional details on
compliance with laws and regulations.

Management’s Responsibilities
Management is responsible for:

       •   preparing the financial statements in conformity with U.S. GAAP;

       •   establishing, maintaining, and assessing internal control to provide reasonable
           assurance that the broad control objectives of the Federal Managers’ Financial
           Integrity Act are met; and

       •   complying with applicable laws and regulations.


We provided a draft of this report to the Assistant Secretary of the Air Force (Financial
Management and Comptroller), who did not provide technical comments to the report. Air Force
officials expressed their continuing commitment to addressing the problems this report outlines.




                                              Amy J. Frontz, CPA
                                              Principal Assistant Inspector General
                                                for Audit

Attachment:
As stated

                                                135
        United States Air Force
       Working Capital Fund
       Audit Opinion
               Report on Internal Control and
            Compliance With Laws and Regulations
Internal Control
Management is responsible for implementing and maintaining effective internal control and for
providing reasonable assurance that accounting data are accumulated, recorded, and reported
properly; that the requirements of applicable laws and regulations are met; and that assets are
safeguarded against misappropriation and abuse. Our purpose was not to, and we do not, express
an opinion on internal control over financial reporting. However, we have identified the
following material weaknesses and significant deficiencies, which could adversely affect the
Air Force financial management operations.

Previously Identified Material Weaknesses
Management acknowledged that previously identified material weaknesses continued to exist in
the following areas.

Financial Management Systems
Statement of Federal Financial Accounting Concepts No. 1, “Objectives of Federal Financial
Reporting,” requires that financial management system controls be adequate to ensure that
transactions are executed in accordance with budgetary and financial law and other requirements,
are consistent with the purpose authorized, and are recorded in accordance with Federal
accounting standards. Statement of Federal Financial Accounting Concepts No. 1 also requires
that financial management system controls ensure proper safeguards for assets to deter fraud,
waste, and abuse and provide adequate support for performance measurement information. The
Assistant Secretary of the Air Force (Financial Management and Comptroller) acknowledged
that many Air Force financial management systems did not substantially comply with Federal
financial management system requirements. The design of the Air Force financial management
and feeder systems did not allow them to collect and record financial information based on a full-
accrual accounting basis. Until these systems are able to collect and report financial information
in compliance with U.S. GAAP, the Air Force proprietary financial reporting will be largely
based on budgetary transactions and nonfinancial feeder systems.

In-Transit Inventory
The Air Force supply management systems did not provide sufficient audit trails to confirm and
value the in-transit inventory included as part of inventory held for sale on the Consolidated
Balance Sheet.

Operating Materials and Supplies
The Air Force is required by Statement of Federal Financial Accounting Standards No. 3,
“Accounting for Inventory and Related Property,” to record an expense at the time a user
consumes Operating Materials and Supplies. The Air Force did not record cost-of-goods-sold
and work-in-process in accordance with this statement. Additionally, uncertainties existed
regarding the existence and completeness of the quantities used to derive the balances reported in
the financial statements for Operating Materials and Supplies inventory.

                                                                                        Attachment
                                                                                        Page 1 of 4
                                               136
                                         Annual Financial Statement 2011
                                                             Working Capital Fund
                                                                         Audit Opinion
General Property, Plant, and Equipment
Statement of Federal Financial Accounting Standards No. 6, “Accounting for Property, Plant,
and Equipment,” requires the Air Force to record General Property, Plant, and Equipment using
acquisition cost, capitalized improvement costs, and depreciation expense. However, the
Air Force could not verify General Property, Plant, and Equipment values in accordance with
this statement. In addition, the General Property, Plant, and Equipment line item on the Balance
Sheet did not include all Government-furnished equipment, with values exceeding the
capitalization threshold, in the hands of contractors.

Subsidiary Ledgers and Special Journals
Air Force Working Capital Fund resource managers did not always maintain adequate
documentation or use transaction subsidiary ledgers and special journals to support recorded trial
balance accounts. Air Force and Defense Finance and Accounting Service personnel did not
perform reconciliations and system validations to verify the accuracy of accounts receivable
from Foreign Military Sales, progress payments to contractors, and accounts payable from the
Materiel Support Division.

Intragovernmental Eliminations
The Air Force could not accurately identify all intragovernmental transactions by customer.
Seller entities within DOD provided summary balances for revenue, accounts receivable, and
unearned revenue to the buyer-side internal DOD accounting offices. In most cases, the
Air Force adjusted its buyer-side records to recognize unrecorded costs and accounts payable.

Other Accounting Entries
The Air Force acknowledges that it continued to make material adjustments for financial
reporting that were not supported by detailed transactions because of its inability to properly
identify intergovernmental trading partner transactions and the deficiencies described above.

Previously Identified Significant Deficiencies
Previously identified significant deficiencies continued to exist in the following areas.

Accounts Receivable
The Air Force could not ensure the validity of Accounts Receivable reported on its financial
statements because of significant deficiencies in internal control. Specifically, the significant
deficiencies included intragovernmental trading partner eliminations, Foreign Military Sales,
undistributed collections, the completeness of the Triannual Review, and the lack of supporting
documentation.

Accounts Payable
The Air Force could not ensure the accuracy of Accounts Payable reported in the Basic Financial
Statements because of significant deficiencies in intragovernmental trading partner eliminations,
accruals, supporting documentation, and the completeness of the Triannual Review. Because of
these weaknesses, the Air Force was unable to properly reconcile and support the validity of
Accounts Payable.


                                                                                            Attachment
                                                                                            Page 2 of 4
                                                137
        United States Air Force
       Working Capital Fund
       Audit Opinion

These financial management deficiencies may cause inaccurate management information. As a
result, Air Force management decisions based in whole or in part on this information may be
adversely affected. Financial information reported by DOD may also contain misstatements
resulting from these deficiencies.

Compliance With Laws and Regulations
Management is responsible for compliance with existing laws and regulations related to financial
reporting. We limited our work to determining compliance with selected provisions of the
applicable laws and regulations because management acknowledged instances of noncompliance,
and previously reported instances of noncompliance continued to exist. Therefore, we did not
determine whether the Air Force complied with selected provisions of all applicable laws and
regulations related to financial reporting. Our objective was not to, and we do not, express an
opinion on overall compliance with applicable laws and regulations.

Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 (FFMIA) requires DOD to
establish and maintain financial management systems that comply substantially with Federal
financial management system requirements, applicable Federal accounting standards, and the
U.S. Government Standard General Ledger at the transaction level. For FY 2011, the Air Force
did not fully comply with FFMIA. The Air Force acknowledged that many of its critical
financial management and feeder systems did not substantially comply with Federal financial
management system requirements, Federal accounting standards, and the U.S. Government
Standard General Ledger at the transaction level as of September 30, 2011.

Antideficiency Act
Section 1341, title 31, United States Code (31 U.S.C. § 1341[1990]) limits the Air Force and its
agents to making or authorizing only expenditures or obligations that do not exceed the available
appropriations or funds. Additionally, the Air Force and its agents may not contract or obligate
for the payment of money before an appropriation is made available for that contract or
obligation unless otherwise authorized by law. According to 31 U.S.C. § 1351 (2004), if an
officer or employee of an executive agency violates the Antideficiency Act (ADA), the head of
the agency must report immediately to the President and Congress all relevant facts and a
statement of actions taken. During FY 2011, the Air Force Working Capital Fund reported two
cases of violation of ADA. Therefore, the Air Force did not comply with 31 U.S.C. § 1341.




                                                                                       Attachment
                                                                                       Page 3 of 4
                                               138
                                       Annual Financial Statement 2011
                                                          Working Capital Fund
                                                                     Audit Opinion
Audit Disclosures
The Assistant Secretary of the Air Force (Financial Management and Comptroller)
acknowledged to us on April 1, 2011, that the Air Force financial management and feeder
systems could not provide adequate evidence supporting various material amounts on the
financial statements and that previously identified material weaknesses continued to exist.
Therefore, we did not perform detailed testing related to previously identified material
weaknesses. In addition, we did not perform audit work related to the following selected
provisions of laws and regulations: Federal Credit Reform Act, Government Performance and
Results Act, Pay Provisions and Allowance System for Civilian Employees, Prompt Payment
Act, Improper Payments Information Act, and Provisions Governing Claims of the United States
Government (including provisions of the Debt Collection Improvement Act).

This report does not include recommendations to correct the material internal control weaknesses
and instances of noncompliance with laws and regulations because previous audit reports
contained recommendations for corrective actions or because audit projects currently in progress
will include appropriate recommendations.




                                                                                      Attachment
                                                                                      Page 4 of 4
                                              139
United States Air Force




                   This page intentionally left blank




                                  140
For more information or to contact us:
 Assistant Secretary of the Air Force for
 Financial Management and Comptroller
    SAF/FMPA (Financial Reporting)
 1500 West Perimeter Road, Suite 3100
        Andrews AFB, MD 20762
           www.saffm.hq.af.mil
